                                                                     2011
                    The Soldier’s Creed
                   I am an American Soldier.
             I am a Warrior and a member of a team.
I serve the people of the United States and live the Army Values.
              I will always place the mission first.
                   I will never accept defeat.
                        I will never quit.
              I will never leave a fallen comrade.
         I am disciplined, physically and mentally tough,
      trained and proficient in my warrior tasks and drills.
     I always maintain my arms, my equipment and myself.
            I am an expert and I am a professional.
    I stand ready to deploy, engage, and destroy the enemies
        of the United States of America in close combat.
   I am a guardian of freedom and the American way of life.
                   I am an American Soldier.




                                                                    Fiscal Year 2011
                                                                    United States Army
                                                                    Annual Financial Report


                                                                    America’s Army:
                                                                    At a Strategic Crossroads

                      United States Army:
        1500 Army Pentagon, Washington, DC 20310-1500               U.S. Army Corps of Engineers – Civil Works
                        www.army.mil
 America’s   …Our Nation and its Army are positioned at a unique point in history…
             …We must now consider the hard-won lessons of recent combat experience,
Army: At a   current and anticipated resource constraints and the uncertainty of the future.
             The decisions we make will have far reaching and long lasting implications…
 Strategic   Transforming the Generating Force by…
Crossroads   …preparing, training, educating and supporting Army forces worldwide, as well
             as working to rapidly address the demands placed on the organization by both
             the current and future operating environments…
             …working to provide “readiness at best value” in order to help us live within
             the constraints imposed by the national and international economic situation…
             …working collaboratively to reform our requirements and resourcing process
             in order to create an organizationally aligned set of capabilities…
             …developing a systematic approach to the Army’s business processes that will
             ensure that innovative ideas and efficiencies influence future budgets…
             Transforming the Civilian Workforce by…
             …calling upon our Civilian Corps increasingly to assume greater levels of
             responsibility and accountability at organizations throughout the Army…
             …integrating requirements determination; allocation and resourcing processes
             that identify the civilian workforce capabilities…
             …improving civilian workforce lifecycle strategy; planning and operations to
             enhance mission effectiveness…
             …establishing an integrated management system to support civilian human
             capital decision making…
             …developing Army civilian leaders and reforming the civilian hiring process…                   We are interested in your feedback regarding the content of this report.
                                                                                                         Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:


             On the Cover (From Left to Right): Soldiers descending from an aircraft Operation
                                                                                                                              Department of the Army
             Toy Drop on Fort Bragg (Photo by Tech. Sgt. Jeremy Lock) / US Army Rangers, rope                         Office of the Deputy Assistant Secretary of the Army
             bridge training (Photo by John D. Helms) / President Barack Obama and Vice President                           (Financial Management and Comptroller)
             Joe Biden shake hands with the troops following the president’s remarks (Photo by Pete
             Souza, White House) / Scouts pull overwatch during Operation Destined Strike (Photo                               Office of the Financial Reporting Directorate
             by Sgt. Brandon Aird) / A small boy waves an American flag as 1st Infantry Division                                    Room 3A312, 109 Army Pentagon
             Soldiers march by during the Sundown Salute Parade (U.S. Army photo by Mollie                                             Washington, DC 20310-0109
             Miller, 1st Inf. Div. Public Affairs) / U.S. Army Spc. Adam Supino takes a break while on
             a security halt (U.S. Air Force photo by Staff Sgt. Ryan Crane) / U.S. Army Soldiers in          Additional copies of this report can be obtained by sending a written request to
             Iraq (U.S. Army photo).                                                                                            the e-mail or mailing address listed above.
             On the Inside Cover: U.S. Army Capt. Scott Hall looks out the door of a UH-60
             Black Hawk helicopter while flying over the Logar province in Afghanistan. (Photo by                                  You may also view this document at:
             Sgt. Gustavo Olgiati).                                                                                            http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
                                                    U.S. Army Corps of Engineers – Civil Works                                                           1




                                                                                 FY 2011 Contents




01   Message from the Assistant Secretary of the Army (Civil Works) .................................................................3




02   Message from the USACE Chief Financial Officer ......................................................................................5




03   Management’s Discussion and Analysis .......................................................................................................6




04   Civil Works — Principal Financial Statements, Notes, Supplementary Information,
     and Auditor’s Report .................................................................................................................................43
2   FY 2011 United States Army Corps of Engineers Annual Financial Report




         “The strength of our democracy has always rested on the
         willingness of those who believe in its values and in their will
         to serve to give something back to this country, to fight and to
         sacrifice; above all, to do that in times of crisis.”
                                 – The Honorable Leon E. Panetta (Secretary of Defense)
                        U.S. Army Corps of Engineers – Civil Works                                   3




01
Message from the Assistant Secretary of the Army (Civil Works)
                           For more than 230 years, the Army Corps of Engineers has been a
                           leader in public engineering as exemplified through the development
                           and management of water resources. As the Corps moves through the
                           21st Century, it will continue to advance the Civil Works Program
                           strategic goals: assisting in providing for safe and resilient communities
                           and infrastructure; helping facilitate commercial navigation in an
                           environmentally and economically sustainable fashion; restoring degraded
                           aquatic ecosystems and preventing future environmental losses; and
                           implementing effective, reliable, and adaptive life-cycle performance
                           management of infrastructure, all delivered through a competent team.

                           As society’s needs and values have changed, the Civil Works mission has
                           evolved to one that inherently includes protection and restoration of water
                           resources and the ecosystems they support. The Corps has implemented
                           water resources programs and projects that strengthen America’s economic
                           competitiveness; reduce risks from floods and hurricanes; help people
                           recover more quickly from disasters; provide American homes and
                           communities with water and power; provide recreational opportunities and
                           natural resources for citizens to enjoy and appreciate; and restore, protect
                           and sustain the natural environment, including wetlands and associated
                           aquatic ecosystems.

                           Today, the complexity and changing nature of water resources require
                           closer partnerships and more collaboration. The development of federal,
                           state, local and private partnerships, along with increased stakeholder and
                           non-governmental alliance is essential to achieve the most efficient and
                           sustainable solutions. A new overarching strategy, called Integrated Water
                           Resources Management, is being adopted to deal with these complex
                           and changing conditions. This strategy seeks to foster equitable, efficient
                           management and sustainable use of water. It promotes the coordinated
                           development and management of water, land, and related resources
                           to maximize economic and social welfare without compromising the
                           sustainability of vital ecosystems.

                           The Corps is committed to responsibly developing the Nation’s water
                           resources, while protecting, restoring and sustaining environmental
                           quality. The Corps is dedicated to learning from the past and adapting the
                           organization to ensure the United States enjoys a prosperous and sustainable
                           future.




                           Jo-Ellen Darcy
                           Assistant Secretary of the Army
                           (Civil Works)
4   FY 2011 United States Army Corps of Engineers Annual Financial Report




          “To meet current and future threats, our military must
          remain the finest in the world. It must be an agile and
          deployable full-spectrum force that can deter conflict, project
          power and win wars.”
                                    – The Honorable John McHugh (Secretary of the Army)
                       U.S. Army Corps of Engineers – Civil Works                                   5




02
Message from the USACE Chief Financial Officer

                           As Chief Financial Officer of the United States Army Corps of Engineers
                           (USACE), my number one financial reporting priority is continuous
                           improvement of management controls surrounding our financial business
                           processes. Our hard work and dedication to this priority has resulted in
                           not only our fourth consecutive “clean” audit opinion but also significant
                           improvements in our management controls. We had four material
                           weaknesses in the prior year and, through aggressive corrective action plans
                           and a strong partnership with the auditor community, all are mitigated with
                           the exception of entity-wide controls. We have already initialed corrective
                           actions to correct the entity-wide controls material weakness and I fully
                           expect it will be cured during Fiscal Year 2012.

                           The Civil Works Annual Financial Report provides information on
                           our strong commitment to accountability, effective management of
                           financial resources, and sound business processes. This commitment to
                           improvements in our business processes and strengthened internal controls
                           provide substantially reliable and complete performance and financial
                           data. Our robust internal control program includes well documented
                           processes, risks assessments, and testing of controls, in accordance with
                           Office of Management and Budget Circular Number A-123 Appendix A,
                           Internal Control over Financial Reporting. Based on our testing, I issued an
                           unqualified statement of assurance in July 2011, that the internal controls
                           over financial reporting are operating effectively.

                           Fiscal Year 2011 saw another historic year regarding workload with
                           approximately $20.1 billion obligated. Our funds allocation decisions are
                           increasingly reliant on our fully integrated financial system, and resulting
                           financial statements, to provide assurance that system controls are designed
                           and implemented effectively.

                           I am proud of everyone within USACE who continues to strive toward
                           greatness in financial management. This report and the accomplishments it
                           describes reflect their extraordinary dedication to duty.




                           Wesley C. Miller
                           Chief Financial Officer
6   FY 2011 United States Army Corps of Engineers Annual Financial Report




                           03



                            Management’s
                            Discussion and
                            Analysis
  8        FY 2011 United States Army Corps of Engineers Annual Financial Report




                                                                     Protecting, Restoring and
Overview                                                             Managing the Environment


T
         he United States Army Corps of Engineers (USACE or          The Rivers and Harbors Act of 1890 required the Corps to
         Corps) is comprised of two major programs: the Civil        prevent the obstruction of navigable waterways. As environmental
         Works Program and Military Program. These finan-            concerns grew in the late 20th century, the National
cial statements represent the Civil Works Program only, as the       Environmental Policy Act of 1969 and the Clean Water Act of
Military Program is reported within the Army General Fund            1972 greatly broadened the scope of the Corps’ responsibility for
Financial Statements.                                                regulating discharges into United States (U.S.) waters, including
                                                                     the country’s wetlands. The Civil Works program’s environmental
                                                                     responsibilities have continued to increase through legislation and
Mission                                                              now include aquatic ecosystem restoration, remedial activities at
                                                                     former defense sites, and overall stewardship responsibilities.
The Civil Works mission of the USACE is to (1) contribute to
the national welfare and serve the nation with quality, responsive   Responding and Assisting in
development, and management of the nation’s water resources;
(2) protect, restore, and manage the environment; (3) respond        Disaster Relief
to disasters and aid in recovery; and (4) provide engineering and
technical services. This multi-faceted mission is accomplished       Throughout the Corps’ history, the United States has relied on
in an environmentally sustainable, economically and technically      the Civil Works program for help both in times of natural and
sound manner through partnerships with other government              man-made disasters. The Corps responds to natural disasters
agencies and nongovernment organizations.                            under the Flood Control and Coastal Emergency Act (Public
                                                                     Law (P.L.) 84-99, as amended) and to man-made disasters under
Developing and Managing Water                                        the Robert T. Stafford Disaster Relief and Emergency Assistance
                                                                     Act (P.L. 93-288, as amended). The Civil Works program’s
Resources                                                            primary role in emergency relief and recovery operations is to
                                                                     provide public works and engineering support.
The original role of the USACE in Civil Works, as it related
to developing and managing water resources, was to support
navigation by maintaining and improving federal navigation
channels. Over the years, and through subsequent legislation,
the Corps’ role has expanded to include flood risk management,
improvement of aquatic habitat, generation of hydroelectric
power, creation of recreation opportunities, provision of water
storage for municipal and industrial water supplies, regulation of
discharges into navigable waters, and emergency planning and
management
                                                        U.S. Army Corps of Engineers – Civil Works                                        9




Providing Engineering Support                                            Navigation
and Technical Services                                                   Navigation is responsible for ensuring safe, reliable, efficient, and
                                                                         environmentally sustainable waterborne transportation systems
In Titles 10 and 33 of the U.S. Code, Congress expresses its
                                                                         for the movement of commercial goods, as well as for national
intent for the Corps to provide services on a reimbursable basis
                                                                         security needs. The business line meets this responsibility
to other federal entities; state, local, and tribal governments;
                                                                         through a combination of capital improvements and the
private firms; and international organizations. Additional
                                                                         operation and maintenance of existing infrastructure projects.
authority to provide services to all federal agencies is found
                                                                         The navigation business line is vital to the nation’s economic
in Titles 15, 22, and 31, which includes providing services to
                                                                         prosperity: 95 percent of America’s overseas international trade
foreign governments.
                                                                         moves through its ports. Our nation’s Marine Transportation
                                                                         System (MTS) encompasses a network of Corps-maintained
                                                                         navigable channels, waterways, and infrastructure as well
The Civil Works                                                          as publicly and privately owned vessels, marine terminals,
                                                                         intermodal connections, shipyards, and repair facilities. The
Program                                                                  MTS consists of approximately 12,000 miles of inland and
                                                                         intracoastal waterways; approximately 13,000 miles of coastal,
                                                                         Great Lakes, and inland harbors; channel projects; and 241 locks


T
         he Corps operates multiple business lines to accomplish         at 196 sites that are maintained by the Corps.
         its mission. Each business line specifically addresses a sin-
         gle mission component, but may also contribute to one           In FY 2011, navigation, estimated at $1.65 billion, accounted
or more other business line missions. Figure 1 lists the business        for 33 percent of Civil Works appropriations.
lines that receive direct appropriations and the funds used for
executive direction and management for fiscal year (FY) 2011.            Flood Risk Management
Through the American Recovery and Reinvestment Act of 2009               The Flood Risk Management business line reduces the risk to
(ARRA), the Corps received $4.6 billion for its Civil Works              human safety and property damage in the event of floods and
program. All of the Corps’ business lines, except emergency              coastal storms. The Civil Works program has constructed 8,500
management, received ARRA funding for various programs,                  miles of levees and dikes, 383 reservoirs, and more than 90 storm
projects, and activities. Specific information on ARRA funding           damage reduction projects along 240 miles of the nation’s 2,700
may be found at the Corps’ Recovery Web site at http://usace.            miles of shoreline. Upon completion, with the exception of
army.mil/recovery. The Corps continues to expend the ARRA                reservoirs, most infrastructure built under the auspices of flood
funds received in FY 2009; and any ARRA funds are included in            risk management is transferred to the sponsoring cities, towns,
the expenditure totals in the business line performance tables.          and special use districts that own and operate the projects.

                                                                         Over the years, the Corps’ mission of addressing the causes
                                                                         and impacts of flooding has evolved from flood control and
 10         FY 2011 United States Army Corps of Engineers Annual Financial Report


                                                    prevention to more comprehensive flood risk management. These changes reflect a
                                                    greater appreciation for the complexity and dynamics of flood problems—the interaction
                                                    of natural forces and human development—as well as for the federal, state, local, and
                                                    individual partnerships needed to thoroughly manage the risks caused by coastal storms
                                                    and heavy rains.

                                                    Risk management is the process of identifying, evaluating, selecting, implementing,
                                                    and monitoring actions to mitigate levels of risk. Its goal is to ensure scientifically
                                                    sound, cost-effective, integrated actions that reduce risks while taking into account
                                                    social, cultural, environmental, ethical, political, and legal considerations. The Corps’
                                                    approach to flood risk management relies on productive collaborations with partners
                                                    and stakeholders; i.e., the Federal Emergency Management Agency, the Department
                                                    of Housing and Urban Development, the National Oceanic and Atmospheric
                                                    Administration, affected state agencies, sponsors and citizens. Effectively and efficiently,
                                                    these collaborations heighten the nation’s awareness of flood risks and consequences.

                                                    The Flood Risk Management business line has compiled an impressive record of
                                                    performance, yielding a six-to-one return on investment; that is, the business line saves
                                                    six dollars for each dollar spent. It has also helped reduce the risk to human safety by
                                                    providing timely flood warnings that afford sufficient time for evacuation.

                                                    In FY 2011, the estimated $1.55 billion Flood Risk Management business line
                                                    accounted for slightly more than 31 percent of Civil Works Program appropriations.

                                                    Environment
                                                    The Corps has three distinct areas that are focused on the environment: aquatic
                                                    ecosystem restoration; environmental stewardship; and the Formerly Utilized Sites
                                                    Remedial Action Program (FUSRAP).



Figure 1. FY 2011
Civil Works Initial                                                    Business Lines
Appropriations by                                                         Navigation
Business Line                                                             Flood Risk Management
                                                                          Environment-Ecosystem Restoration
                                                                          Environment-Stewardship
                          $4                                              Environment-Formerly Utilized Sites Remedial Action Program (FUSRAP)
                                                                          Regulatory
            $43                                                           Emergency Management
                                         $191
                                   $2




                                                                          Hydropower
                         $2
                                    80




                              07                                          Recreation
      108          $19                                                    Water Storage for Water Supply
                         3
                  $130                              $1,653                Executive Direction and Management



                   $586



                                           $1,545
                                                     U.S. Army Corps of Engineers – Civil Works                                    11




Aquatic Ecosystem Restoration. The Corps’ mission in aquatic         permit process. Throughout the permit evaluation process, the
ecosystem restoration is to help restore aquatic habitat to a more   Corps complies with the National Environmental Policy Act
natural condition in ecosystems whose structures, functions, and     and other applicable environmental and historic preservation
dynamic processes have become degraded. The emphasis is on           laws. In addition to federal statutes, the Corps also considers
restoration of nationally or regionally significant habitats where   the views of other federal, tribal, state, and local governments,
the solution primarily involves modifying the hydrology and          agencies, and interest groups, as well as the general public when
geomorphology. In FY 2011, Aquatic Ecosystem Restoration             rendering its final permit decisions. Regulatory responsibilities
received approximately $586 million, which translates to just        include evaluating minor activities such as driveways for small
nearly 12 percent of the total appropriation.                        landowners, as well as large water supply and energy project
                                                                     proposals which affect approximately $220.0 billion of the
Environmental Stewardship. Environmental Stewardship                 nation’s economy.
focuses on managing, conserving, and preserving natural
resources on 11.5 million acres of land and water at                 In FY 2011, the Regulatory appropriation, at approximately
456 multipurpose Corps’ projects. Corps’ personnel monitor           $193 million, accounted for 3.9 percent of total Civil Works
water quality at Corps’ dams and operate fish hatcheries in          Program appropriations.
cooperation with state wildlife agencies. This business line
encompasses compliance measures to ensure Corps’ projects            Emergency Management
(1) meet federal, state, and local environmental requirements;
(2) sustain environmental quality; and (3) conserve natural and      Throughout the Corps’ history, the United States has relied
cultural resources. In FY 2011, Environmental Stewardship            on the Civil Works program for help in times of national
received $108.0 million, an amount comprising 2.2 percent of         disaster. Emergency management continues to be an important
the total appropriation.                                             part of the Civil Works program, which directly supports the
FUSRAP. Under the FUSRAP, the Corps cleans up former                 Department of Homeland Security in carrying out the National
Manhattan Project and Atomic Energy Commission sites,                Response Framework. It does this by providing emergency
making use of expertise gained in cleansing former military sites    support in public works and engineering and by conducting
and civilian hazardous waste sites under the Environmental           emergency response and recovery activities under authority of
Protection Agency’s Superfund Program. In FY 2011, the               P.L. 84-99. In a typical year, the Corps responds to more than 30
FUSRAP received approximately $130 million, or approximately         presidential disaster declarations, and its highly trained workforce
2.6 percent of the total appropriation.                              is prepared to deal with both man-made and natural disasters.

                                                                     The Corps not only contributes to domestic emergency
Regulation of Aquatic Resources                                      management efforts, but also plays a major role on the
                                                                     international stage through its participation in civil-military
In accordance with the Rivers and Harbors Act of 1890 (Sec.          emergency preparedness. In support of the Department of
10) and the Clean Water Act of 1972 (Sec. 404), as amended,          Defense, the Corps shares emergency management knowledge
the Corps’ regulatory program regulates work in, over, and           and expertise with U.S. allies and partners in the former Soviet
under navigable rivers and the discharge of dredged and fill         Republics and Eastern Europe. This valuable program brings
material into U.S. waters, including wetlands. The Corps             together key leaders and builds relationships among nations in
implements many of its oversight responsibilities by means of a      direct support of the National Defense Strategy.
 12        FY 2011 United States Army Corps of Engineers Annual Financial Report




In FY 2011, Emergency Management received no funding for                spent $18 billion pursuing their favorite outdoor recreation
repairs to eligible damaged projects. The $43 million referenced        activities, which, in turn, supported some 270,000 full- and part-
in Figure 1 was for Continuity of Operations activities, non-           time jobs.
natural disaster preparedness activities, and Facility Protection.
                                                                        In FY 2011, Recreation accounted for approximately
Hydropower                                                              $280 million or 5.7 percent of the Civil Works Program budget.


The Corps’ multipurpose authorities provide hydroelectric power         Water Storage for Water Supply
as an additional benefit of projects built for navigation and flood
control. The Corps is the largest owner-operator of hydroelectric       Conscientious management of the nation’s water supply is critical
power plants in the United States, and one of the largest in            to limiting water shortages and lessening the impact of droughts.
the world. The Corps operates 350 generating units at 75                The Corps has an important role in ensuring that homes,
multipurpose reservoirs, mostly in the Pacific Northwest. These         businesses, and industries nationwide have enough water to meet
reservoirs account for about 24 percent of America’s hydroelectric      their needs. It retains authority for water supply in connection
power and approximately 3 percent of the country’s total electric-      with construction; operation and modification of federal
generating capacity. Its hydroelectric plants produce nearly            navigation; flood damage reduction; and multipurpose projects.
70 billion kilowatt-hours each year—sufficient to serve nearly
7 million households or roughly 11 cities the size of Seattle,          In FY 2011, this approximately $4 million business line
Washington. Hydropower is a renewable source of energy,                 accounted for less than one tenth of 1 percent of Civil Works
producing none of the airborne emissions that contribute to acid        Program appropriations.
rain or the greenhouse effect.

In FY 2011, Hydropower accounted for approximately
$207 million, just under 4 percent of Civil Works Program               Organizational Structure
appropriations.

Recreation                                                              The Workforce
The Corps is an important provider of outdoor recreation, which is      The Corps employs approximately 37,000 people, including
an ancillary benefit of its flood prevention and navigation projects.   650 military officers and 25,000 civilians who perform Civil
The Corps’ Recreation business line provides quality outdoor            Works duties. It is funded through the Energy and Water
public recreation experiences in accordance with its three-part         Development Appropriation and executes its missions through
mission to (1) serve the needs of present and future generations;       8 of its 9 regional divisions and 38 of the Corps’ 44 districts;
(2) contribute to the quality of American life; and (3) manage and      the remaining districts are dedicated solely to military-related
conserve natural resources consistent with ecosystem management         missions.
principles.
                                                                        Figure 2 shows the division boundaries which are defined by
The Corps administers 4,488 recreation sites at 423 projects on         watersheds and drainage basins and are reflective of the water
12 million acres of land. During FY 2011, 10 percent of the U.S.        resources nature of the Civil Works’ mission. Through its Pacific
population visited a Corps’ project at least once. These visitors       Ocean and South Atlantic Divisions, the Corps also has Civil
                              U.S. Army Corps of Engineers – Civil Works                                      13


                        Works responsibilities in the Territory of American Samoa, the Territory of Guam, the
                        Commonwealth of the Northern Mariana Islands, the Commonwealth of Puerto Rico,
                        and the U.S. Virgin Islands.

                        The distribution of Civil Works employees again highlights the Civil Works program’s
                        customer focus: 95 percent of employees work at the district level (in labs or field
                        operating agencies) and demonstrate the fact that project management, operations, and
                        maintenance activities are performed at the local (district) level. The program contracts
                        out all of its construction and most of its design work to civilian companies. As many
                        as 150,000 people are indirectly employed in support of Civil Works projects, and the
                        Corps’ contractual arrangements have served the nation well in times of emergency.

                        The Leadership
                        Oversight of Civil Works Program is provided through five levels of authority. As
                        shown in Figure 3, the Assistant Secretary of the Army for Civil Works (ASA(CW)) (a
                        Presidential appointee) is responsible for Civil Works policy. The Chief of Engineers
                        is a military officer who reports to the ASA(CW) and is responsible for mission
                        accomplishment. The Chief of Engineers delegates the management of this program to
                        the Deputy Commanding General (DCG) for Civil and Emergency Operations who
                        further delegates management of the Civil Works program to the Director of Civil
                        Works. Through the DCG for Civil and Emergency Operations and the Director of
                        Civil Works, the Chief of Engineers is responsible for the leadership and management of
                        the Civil Works program and for ensuring that policies established by the ASA(CW) are
                        applied to all phases of the mission. Corps divisions, commanded by division engineers,
                        are regional offices responsible for the supervision and management of subordinate
                        districts, to include oversight and quality assurance. Districts are the foundation of the
Figure 2. Civil Works   Civil Works mission which is managing water resource development over a project’s life
Boundaries              cycle.
14    FY 2011 United States Army Corps of Engineers Annual Financial Report



                         Civil Works Program
                         Performance Results

                         C
                                 ivil Works directly impacts America’s prosperity, competitiveness, quality of life,
                                 and environmental stability. In March 2004, the Corps’ leadership published
                                 a strategic plan to provide a framework for enhancing the sustainability of
                         America’s resources. The plan’s strategic goals supported the Corps’ strategic direction
                         over the six-year period, FY 2004-FY 2009. In September 2011, the Office of
                         Management and Budget (OMB) approved the new Civil Works strategic plan for FY
                         2011-FY 2015 which will be referenced in future years’ publications. Key performance
                         measures, developed in conjunction with and approved by the OMB, are presented
                         below.




Figure 3. Civil Works                                        ASA (CW)
Levels of Authority                                   Provides policy guidance




                                                      Chief of Engineers
                                                       Applies policy guidance



                                     DCG for Civil & Emergency Operations
                                              Acts on behalf of the Chief of Engineers
                                                        in policy guidance


                                                         Director of CW
                                       Acts on behalf of the DCG for Civil and Emergency
                                                 Operations in policy guidance




                                                          8 Divisions
                                                Supervise and manage districts




                                     Plan                                               Operate
                                                         38 Districts
                                     Design                                            Maintain
                                                      U.S. Army Corps of Engineers – Civil Works                                    15




Priority Goals                                                        The FY 2011 performance on these priority goals is discussed in
                                                                      the relevant business line sections.
In the summer of 2009, federal agencies were asked to identify        Strategic Goal 1: Provide Sustainable
a limited number of ambitious, but realistic, high priority
performance goals (HPPG) for the near term - FY 2010 and              Development and Integrated Management of
FY 2011. The USACE Civil Works Program has chosen to                  the Nation’s Water Resources.
emphasize four goals which support the administration’s broader
policy priorities and have high direct value to the public. These     Navigation
goals are as follows:
                                                                      Objective. To invest in navigation infrastructure that is fully
Priority Goal 1 (Aquatic Ecosystem Restoration and                    capable of supporting maritime requirements in environmentally
Regulatory). Provide sustainable development, restoration, and        sustainable ways where economically justified.
protection of the nation’s water resources by restoring degraded
                                                                      Funding History. The first row of Table 1 indicates the funding
habitat on 10,300 acres during 2011 in the Aquatic Ecosystem
                                                                      for FY 2011 and actual expenditures for the investigations, major
Restoration business line. This will result in an increase equal to
                                                                      rehabilitation and construction program.
17 percent of the total acreage estimated to have been restored
during 2005-2010 and achieving no net loss of aquatic resource        Performance Indicators. To measure progress in meeting
function through avoidance and mitigation in Regulatory.              the Goal 1 objectives, the Corps uses performance indicators.
                                                                      These indicators are related to investigations and construction
Priority Goal 2 (Flood Risk Management). Reduce the
                                                                      activities for inland and intracoastal waterways and coastal ports
nation’s risk of flooding that damages property and places
                                                                      and harbors, as well as to the efficiency of the overall, combined
individuals at risk of injury or loss of life.
                                                                      navigation system. The indicators are described below and their
Priority Goal 3 (Inland Navigation). Help facilitate                  measures are shown in Table 1.
commercial navigation by providing safe, reliable, highly
                                                                      Construction measures for the navigation system
cost-effective, and environmentally sustainable waterborne
transportation systems.                                               In FY 2008, the Corps instituted and began reporting using the
                                                                      following performance measures.
Priority Goal 4 (Hydropower). Increase the Hydropower
performance metric of average peak unit availability for                  ■    High-return investments. The percentage of funding
353 generating units from the FY 2009 level of 88 percent to                   to rehabilitate, construct, or expand projects that is
90 percent by FY 2011. This will move the Corps closer to                      allocated to high-return investments. High-return
the industry standard level, which is 98 percent. In the fall of               investment projects are defined as those with a benefit-
2010, a second metric was added: Meet or exceed the previous                   to-cost ratio (BCR) of 3.0 or greater.
five-year rolling average net generation measured in megawatt
hours for the Corps hydropower facilities marketed by the                 ■    Percentage of reports recommending projects
Southeastern, Southwestern, and Western Area Power Marketing                   reflecting watershed principles. The percentage of
Administration (PMAs).                                                         Chief of Engineers’ reports recommending projects for
                                                                               authorization that meet criteria for industry-accepted
 16          FY 2011 United States Army Corps of Engineers Annual Financial Report


                                                             watershed principles. This measure expresses a long-term goal and assesses
                                                             progress achieved in watershed-based planning.

                                                        ■    Average annual benefits attributable to preconstruction engineering and
                                                             design (PED) work completed in current fiscal year. The total average
                                                             annual benefits (present value) attributable to PEDs. This measure assesses the
                                                             effectiveness of PED in enabling transportation savings.

                                                        ■    Average annual benefits realized by construction projects completed in
                                                             current fiscal year. The total average annual benefits (present value) realized by
                                                             construction projects completed. This measure assesses the effectiveness of the
                                                             construction program in realizing transportation savings.

                                                  Performance Results—Construction and Investigations

                                                  Investigations funds were used at various locations throughout the nation to continue
                                                  the study and design of navigation improvements such as lock replacements on the
                                                  Mississippi and Ohio Rivers, Gulf Intracoastal Waterway and Illinois Waterway; and
                                                  deepening of key ports such as Charleston, Savannah, Miami, and Freeport, to increase
                                                  the economic benefits, reduce transportation costs, and improve reliability of navigation
                                                  infrastructure.

                                                  There were several feasibility studies underway in FY 2011 but no Chief of Engineers’
                                                  reports were completed for navigation projects.

                                                  Construction funding for inland waterways was used to continue (1) major
                                                  rehabilitations of locks and dams, (2) dam safety assurance, (3) seepage control and static
                                                  instability corrections, and (4) construction or replacement of locks and dams such as
                                                  Olmsted Locks and Dam. Approximately 94 percent of the funds were programmed for
                                                  high-return investments. Funding for inland waterway projects is constrained by the low


Table 1. Navigation
Construction and
Investigation Performance
Indicators                                                                                                                                 2011
                                                                                  FY 2008         FY 2009         FY 2010
                                                                                                                                   Target       Actual
 Expenditures in millions of dollars                                                   $490            $597            $753             $325      $654

                      Percentage of funds to high-return
 Inland Waterways                                                                       59%             42%              76%             80%      94%
                      investments (BCR > 3)

                      Percentage of reports recommending
                                                                                      100%1               0%             0%3        Note 2         0%3
                      projects reflecting watershed principles
                      Average annual benefits attributable to
 Coastal              PEDs completed in current FY in millions                         $28.1            $7.9              $03       Note 2         $03
 Ports and            of dollars
 Harbors
                      Average annual benefits realized by
                      construction projects completed in current                          $0            $8.3           $44.7            $33.0     $3.6
                      fiscal year in millions of dollars

                     Note 1: Represents the completion of one report.
                     Note 2: Performance targets will be established beginning in FY 2012, after 3 years of data have been collected.
                     Note 3: No Chief of Engineers Reports or PEDs were completed in FY 2010 or FY 2011.
                                                                   U.S. Army Corps of Engineers – Civil Works                                                           17


balance in the Inland Waterways Trust Fund (IWTF) and fuel-
tax revenues collected, which fund 50 percent of the project costs
for inland projects on the fuel-taxed waterways. As the Corps
continues to assess the condition of the nation’s dams, it must
address the human safety issues that are being found. These dam
safety projects are given funding priority, and together with the
constrained IWTF, this necessitates the deferral or delay of many
other critical projects.

Construction funding for coastal navigation projects was used for
major channel deepening improvement projects such as the New
York, New Jersey, and Oakland Harbors. Additional construction
funding was used to construct dredged material and beneficial
use placement sites, as well as to mitigate shoreline damages
caused by navigation projects. Funds were also used to complete
navigation improvements at Seward Small Boat Harbor, Alaska,                             Funding History. The first row of Table 2 displays investigation
and St Paul Harbor, Alaska, providing $3.6 million in annual                             and construction funding for flood risk management.
benefits.
                                                                                         Performance Indicators. To measure its progress in meeting the
Flood Risk Management                                                                    Strategic Goal 1 objective, the Corps uses performance indicators
                                                                                         related to the construction program for flood risk management.
Objective. To invest in environmentally sustainable flood and                            The construction indicators are described below and their
coastal storm damage reduction solutions through the safe                                measures are shown in Table 2.
operation of flood reduction infrastructure when benefits exceed
costs.                                                                                   Construction measures for flood risk management

                                                                                               ■     Additional people protected. The increase in total
                                                                                                     affected population, with reduced risk at project design,
Table 2. Construction and                                                                            attributed to project completion in the current fiscal
                                                                                                     year.
Investigations— Flood risk
Management                                                                                                                                           FY 2011
                                                                                       FY 2008         FY 2009          FY 2010
                                                                                                                                             Target             Actual
 Expenditures in millions of dollars                                                      $1,107          $1,343           $2,767                 $966            $2,172

 Additional people protected in thousands                                                        0            645                37                295                  35

 Flood damage prevented in billions of dollars                                                 $0           $10.4            $28.0               $13.2                $9.8

 Ten-year moving average in millions of dollars                                            $22.3            $23.1            $25.2                    Note 1

 SPRA assessments completed                                                                   185               66               93                   Note 2

 DSAC I dams under study or remediation                                                          7              13               12                   Note 3

 DSAC II dams with completed Issue Evaluation Studies                                   Note 4                    2                0                  Note 5
 DSAC I, II, III dams under study                                                                                                28                   45                75
 DSAC I, II, III dams with completed studies                                                    Note 6                            2                    5                 5
 DSAC I, II, III dams under remediation                                                                                           8                    8                 9

Note 1: Data are collected from actual floods occurring throughout the year. Data become available in March following the year of interest. The Corps makes no predictions or
         targets year-to-year; data are used for trend analysis only.
Note 2: 100 percent of SPRA assessments was completed by FY 2010 and this measure is being discontinued.
Note 3: The FY 2010 number represents 100 percent of those dams identified as DSAC I as of 1 October 2010. Reduction in total to 12 is due to Mill Creek Dam reclassifica-
         tion to DSAC II. Therefore this measure is no longer relevant past FY 2010.
Note 4: This measure became effective in FY 2009.
Note 5: This measure has been discontinued.
Note 6: Data collection for this measure began in FY 2010.
 18        FY 2011 United States Army Corps of Engineers Annual Financial Report


                                                                    to complete two projects. Construction on one project was
                                                                    completed during the 4th Quarter of FY 2011, resulting in an
                                                                    additional 35 thousand people with reduced risk and
                                                                    $9.8 million in damages prevented.

                                                                    Four issue evaluation studies were completed on screened dams
                                                                    in FY 2011 as well as one dam safety modification report,
                                                                    preparing these projects to receive construction funding in FY
                                                                    2012 and FY 2013.

                                                                    Significant progress was made on the inventory of levees in
                                                                    the Corps Levee Safety Program and the establishment of the
                                                                    National Levee Database (NLD). To date, 14,600 miles of levees
                                                                    have been identified and inventoried. The Corps developed an
                                                                    automated Levee Inspection System tool as part of the NLD that
                                                                    is being used to conduct levee system inspections. Additionally,
    ■    Flood damage prevented. The estimated annual               the Corps has developed a levee risk screening tool and initiated
         dollars of property damage avoided through Corps’          screening on federally authorized projects. The levee screening
         flood control projects completed during the fiscal year.   tool will provide a relative risk screening methodology that the
    ■    Ten-year moving average. The 10-year moving average        Corps will use to provide a Levee Safety Action Classification for
         of actual flood-damage reduction benefits attributable     all levee systems in the Corps levee safety program.
         to all completed Corps’ flood control projects.            In FY 2011, the Corps continued to expand the collaboration of
The following measure has been replaced with similar measures       state level intergovernmental partnerships (Silver Jackets Teams).
that more accurately measure progress in a specific area:           Currently, 28 state teams have been formed and are actively
                                                                    working to address state flood mitigation priorities and actions
    ■    Screening portfolio risk assessments (SPRAs)               that will result in coordinated intergovernmental actions to
         completed. The number of SPRAs completed in the            reduce flood risks and losses.
         applicable year.
                                                                    Priority Goal 2
The following are the new performance measures for which data
were collected in FY 2010 and reporting began in FY 2011.           The measures, targets, and results for the Flood Risk
                                                                    Management HPPG are shown in bold in Table 2 above. The
    ■    Dam Safety Action Class (DSAC) I, II, III dams             St. Louis Flood Protection and West Sacramento flood risk
         under study. The number of DSAC I, II, III projects        management projects were funded for completion in FY 2011;
         under dam safety and seepage/stability study.              construction on the West Sacramento project was completed on
                                                                    schedule, allowing realization of its benefits. The St. Louis Flood
    ■    DSAC I, II, III dams with completed studies. The           Protection Project completion has been delayed until August
         number of DSAC I, II, III projects with complete dam       2012 due to historic flood conditions on the Mississippi River
         safety modification reports.                               during the spring and summer of 2011.
    ■    DSAC I, II, III dams under remediation. The                Hydropower
         number of DSAC I, II, III projects under remediation
         construction.                                              Objective. To invest in hydropower solutions when benefits
                                                                    exceed costs.
Performance Results—Construction and Investigations
                                                                    Performance Indicators. The availability of hydroelectric
Investigations funding was used to advance continuing flood         generating units during peak power-demand periods. Indicators
risk management studies throughout the nation. The purpose          of successful performance in meeting this objective are measured
was to continue the study and design of flood risk management       by generating capacity and forced outage rates.
projects initiated to increase economic benefits of flood damages
prevented and lives protected.                                      Performance Results. The Corps uses the same indicators as in
                                                                    Goal 3; see Table 9.
Construction funding was used to continue construction at 8
high risk dam safety projects and to continue construction on 41
flood risk management projects in order to bring these additional
benefits online. A portion of the construction funds was targeted
                                                                                                         Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                   19




Strategic Goal 2: Repair Past Environmental                           Performance Results
Degradation and Prevent Future                                        Significant progress continues to be made on restoration of
Environmental Losses                                                  the Kissimmee River, Florida, South Dade County C-111
                                                                      modification; Ten Mile Creek; West Palm Beach Canal; and
Aquatic Ecosystem Restoration                                         Indian River Lagoon South. Eight projects were completed on
                                                                      the Missouri River restoring shallow water habitat, emergent
Objective. Restore the structure, function, and process of
                                                                      sandbar habitat, and backwater areas. Despite the record
significantly degraded ecosystems to allow them to revert to a
                                                                      flooding in 2010 and 2011, three major projects were completed
more natural condition. Invest in restoration projects or features
                                                                      on the Upper Mississippi River, providing over 11,000 acres of
that positively contribute to the nation’s environmental resources
                                                                      restored habitat. Construction progressed on the restoration of
in a cost-effective manner.
                                                                      Poplar Island, Maryland; Hamilton Wetlands, California; and
Funding History. The first row of Table 3 displays the funding        modifications to the Chicago Sanitary and Ship Canal, which
for aquatic ecosystem restoration.                                    prohibits Asian carp from entering the Great Lakes from the
                                                                      Mississippi River. Physical construction was completed on 26
Performance Indicators. The Corps has established four                projects, resulting in 12,200 restored acres, approximately 83
indicators to assess progress in meeting this objective. Data are     percent of which are nationally significant. Progress was also
shown in Table 3.                                                     made on a significant number of studies exploring ecosystem
                                                                      restoration options in a variety of diverse ecosystems across
    ■    Acres of habitat restored, created, improved, or             the country. These studies include the Louisiana Coastal Area
         protected—annual. The number of acres of habitat             Ecosystem Restoration Program and progress on compliance
         restored in degraded ecosystems.                             with the requirements to restore habitat required for endangered
                                                                      salmon in the Columbia River system. Two Chiefs Reports
    ■    Nationally significant acres of habitat restored,
                                                                      recommending authorization were signed. One was for
         created, improved, or protected—annual. The
                                                                      the Comprehensive Everglades Restoration Plan (CERP)
         number of acres of habitat restored each year that have
                                                                      Caloosahatchee River (C-43) West, Florida, project and the
         high quality outputs as compared to national needs.
                                                                      other was for six Louisiana Coastal Area projects. The Corps
    ■    Cost per acre to restore, create, improve, or protect        contributed to the restoration of each of the five priority
         nationally significant habitat. The per-acre cost of         ecosystems that have been identified by the Administration for
         projects that produce nationally significant acres in any    interagency focus.
         given year. Over the long term, through efficiencies in
         project execution or other actions, the goal is to restore
         the most acres per dollar expended.

    ■    Number of projects or separate elements physically
         completed. The actual number of projects or separate
         elements physically completed in the current fiscal year.
         Performance of the other measures is directly dependent
         upon this performance factor.
 20         FY 2011 United States Army Corps of Engineers Annual Financial Report


Priority Goal 1                                                                projects contributed to the restoration of over 11,700 acres.
                                                                               This brought the total acres restored in that program to nearly
The measure for the Aquatic Ecosystem Restoration HPPG is                      100,000 acres since 1986.
shown in bold in Table 3 below. The goal calls for 10,300 acres to
be restored by the end of FY 2011. This goal has been exceeded                 Regulatory
by a wide margin in part because the FY 2010 projects were
completed early, the acreage figures were refined, and additional              Objective. To execute the Regulatory mission in a manner
projects were completed making a significant contribution to                   that protects the aquatic environment (ensures zero net loss of
the Aquatic Ecosystem Restoration goal to restore degraded                     wetlands) while making timely, fair permit decisions.
ecosystems to more natural conditions. This is especially true
for the Upper Mississippi River where the completion of three                  Funding History. The first row of Table 4 displays the funding
                                                                               for Regulatory.



Table 3. Aquatic Ecosystem
Restoration Indicators
                                                                                                                                    FY 2011
                                                                          FY 2008           FY 2009         FY 2010
                                                                                                                             Target        Actual
 Expenditures in millions of dollars                                               $429          $492               $531        $586          $496
 Acres of habitat restored, created, improved,
                                                                                   2,435        10,480          4,540         13,000        12,200
 or protected (annual)
 Nationally significant acres of habitat restored, created,
                                                                                   1,986         1,380          3,760         10,600        10,100
 improved, or protected (annual)
 Cost per acre to restore, create, improve, or protect
                                                                               $6,700          $6,600          $9,600         $8,400        $5,800
 nationally significant habitat
 Number of projects/separable elements
                                                                             Note                    14               17            27          28
 physically completing
 Note: New performance measure for FY 2009 which is the first year of reporting.




Table 4. Regulatory
Indicators
                                                                                                                                    2011
                                                                          FY 2008          FY 2009        FY 2010
                                                                                                                           Target          Actual
 Expenditures in millions of dollars                                           $176           $190           $209             $193            $196

 Percentage of compliance inspections on individual permits                        22%         25%            26%              10%             27%

 Percentage of compliance inspections on general permits                           7%          11%            13%               5%             12%
 Percentage of active mitigation sites inspected                                   18%         37%            10%               5%             11%
 Percentage of compliance inspections
                                                                                   39%         44%            34%              20%             37%
 on active mitigation banks
 Percentage of resolution on noncompliance
                                                                                   28%         38%            40%              20%             40%
 with permit conditions or mitigation requirements
 Percentage of resolution on pending enforcement actions                           34%         37%            38%              20%             37%
 Percentage of general permit application
                                                                                   82%         88%            92%              75%             91%
 decisions made within 60 days
 Percentage of standard permits and letter of
                                                                                   51%         64%            67%              50%             71%
 permission permit decisions made within 120 days
                                                                                                         Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                    21




Performance Indicators. Table 4 lists eight measures that serve               120 days. This standard does not include individual
as performance indicators in determining progress in meeting                  permits with formal Endangered Species Act
this objective.                                                               consultations.

    ■    Individual permit compliance. The percentage of all         Performance Results
         individual permits on which the Corps completed an
         initial compliance inspection; measures permits issued      In FY 2011, Regulatory exceeded all performance targets. This
         during the previous fiscal year when authorized work        was largely due to the additional $25 million provided as part
         began.                                                      of ARRA. Funds from the ARRA were used in support of term
                                                                     and temporary labor, as well as contract support. This additional
    ■    General permit compliance. The percentage of all            labor pool and contracts afforded districts the opportunity to
         general permits on which the Corps completed an             focus full-time staff on performance and performance-related
         initial compliance inspection; measures permits issued      activities, including the HPPG. Four of the eight performance
         during the previous fiscal year when authorized work        indicators are post-permit, compliance–based; the target number
         began.                                                      of actions requiring compliance is based on the issuance of
                                                                     permits in the previous five years. This continues to result in a
    ■    Mitigation site compliance. The percentage of field         large number of actions requiring compliance.
         compliance inspections completed on active mitigation
         sites each fiscal year. Active mitigation sites are those   Priority Goal 1
         authorized and monitored through the permit process,
         but which have not met final approval under the permit      The regulatory portion of the Corps’ HPPG is no net loss of
         special conditions.                                         aquatic resource function through avoidance and mitigation.
                                                                     The measure, target, and results are shown in bold in Table 4
    ■    Mitigation inspections or audits. The percentage of         above. Achievement of this portion of the goal is evaluated
         compliance inspections or audits completed on active        by the permittee’s compliance with the permit. The target was
         mitigation banks and in-lieu-of-fee programs.               established based on the number of permits issued requiring
                                                                     compensatory mitigation in the previous fiscal year.
    ■    Resolution of noncompliance issues. The percentage
         of noncompliance issues identified during the fiscal year   Environmental Remediation (FUSRAP)
         in which the Corps reached resolution. This addresses
         noncompliance with permit conditions.                       Objective. To achieve the cleanup objectives of FUSRAP,
                                                                     the Corps uses three outcome measures to indicate progress:
    ■    Resolution of enforcement actions. The percentage           (1) minimize risk to human health and the environment, (2)
         of pending enforcement actions, i.e., unauthorized          maximize the cubic yardage of contaminated material disposed
         activities identified during the fiscal year in which the   in a safe and legal disposal facility, and (3) return the maximum
         Corps reached resolution.                                   number of affected individual properties to beneficial use.
    ■    General permit decisions. The percentage of general
         permit application decisions made within 60 days.

    ■    Individual permits. The percentage of general
         individual permit application decisions made within
 22        FY 2011 United States Army Corps of Engineers Annual Financial Report


Funding History. The first row of Table 5 displays funding for                               ■     Individual properties returned to beneficial use.
environmental remediation.                                                                         Number of properties which are released for general use
                                                                                                   following remediation.
Performance Indicators. The measures listed in Table 5 serve
as indicators to help Corps’ personnel determine progress in                                 ■     Number of remedies in place or response complete.
meeting this objective. In addition to the indicators explained                                    As select portions of sites or complete sites meet their
below, the Corps has begun to measure both the cumulative                                          remedial action goals, risks to human health and the
percentage of FUSRAP funding expended on actual cleanup                                            environment are reduced to within acceptable levels.
activities, as well as the total cost of disposing of contaminated                                 Properties may be used within a community without
material.                                                                                          fear of increased cancer risk or further degradation of
                                                                                                   the environment.
    ■    Number of records of decision (ROD) signed. As
         studies are completed and best alternatives for cleanup                             ■     Percentage of funding expended on cleanup. The
         activities are decided, the number of RODs increases.                                     cumulative percentage of FUSRAP funding expended
         A final ROD establishes the final cleanup standard                                        on cleanup activities rather than on studies. The
         which controls the actual estimate of the remaining                                       baseline for this measure was established in FY 2004;
         environmental liability for each site.                                                    results are reported every three years.

    ■    Number of remedial investigations (RI) completed.                                   ■     Remediation of contaminated material. The cost to
         The RI establishes the baseline risk assessment whereby                                   dispose of contaminated material as measured in cubic
         the level of risk to human health and the environment                                     yards. Data for this measure will not be reported again
         is identified.                                                                            until FY 2013.

    ■    Number of action memorandums signed. When                                       Performance Results
         warranted by risk or other limiting factors, action
         memoranda allow the Corps to move toward reducing                               FY 2011 funds were used to continue remedial activities at
         risk more rapidly than through production of a ROD.                             the Linde, Maywood, Shpack, St. Louis Vicinity Property, St.
         No action memoranda are presently identified.                                   Louis Downtown, Iowa Army Ammunition Plant (IAAAP),
                                                                                         Hazelwood Interim Storage Site/Latty Ave, and W.R. Grace
    ■    Cubic yardage of contaminated material disposed.                                sites. Remedial activities at the Shallow Land Disposal Area
         Target-soil amounts are dependent on previous year                              site began in August 2011. A remedial investigation scheduled
         funding and scheduled activities.                                               to be completed at the inaccessible soils operable unit at the St.
                                                                                         Louis Downtown site was not completed in favor of completing


Table 5. Remedial Action
Indicators                                                                                                                                        FY 2011
                                                                                              FY 2008         FY 2009           FY 2010
                                                                                                                                              Target    Actual
            Expenditures in millions of dollars                                                    $132            $127            $166         $130        $181

            Number of RODs signed                                                                         2             1                 1        2          3

            Remedial investigations completed                                                             2             1                 2        1          0

            Action memos signed                                                                           0             0                 0        0          0

            Contaminated material removed in thousand cubic yards                                    154            143             212          119        129

            Individual properties returned to beneficial use                                          40              61              92         108         110

            Remedies in place or response complete                                                        0             0                 1        1          2

            Percentage of funding expended on cleanup                                               84%                Note 1                   85%         87%

            Cost of remediation of contaminated material per cubic yard                          Note 2            $496          Note 3            Note 3
            Note 1: This was a new measure for FY 2008. The measure is cumulative and data will be reported every third year.
            Note 2: Data collection on this measure began in FY 2009.
            Note 3: Results for this measure will not be reported again until FY 2013.
                                                                 U.S. Army Corps of Engineers – Civil Works                                          23


the ROD for IAAAP. During the course of the year, it was determined that the ROD
document at the IAAAP was more important to complete to avoid possible stipulated
penalties by Environmental Protection Agency (EPA). Scheduled feasibility studies
for operable units at the IAAAP and Dupont sites were completed. RODs were signed
for the W.R. Grace site Radioactive Waste Disposal Area operable unit, the Harshaw
IA-6 soils operable unit, and the IAAAP site. Approximately 129,300 cubic yards of
contaminated material were removed and 18 (110 cumulative) properties were returned
to beneficial use. One Remedy in Place (RIP) was scheduled at the Harshaw IA-6
operable unit. This goal was reached. The ROD for this operable unit has a “No Further
Action” determination. Remedial activities at the Painesville site were completed 1 year
ahead of schedule and below expected cost. Remedial investigation activities continued
at all other FUSRAP sites.

The FUSRAP met or exceeded six out of seven of its FY 2011 performance indicators.
The program continues to use the Monte Carlo approach to cost and schedule risk
analysis. This approach continues to improve the Corps’ performance and ability to
repair past environmental damage.

Strategic Goal 3: Ensure that Projects Perform to Meet Authorized
Purposes and Evolving Conditions
Navigation
Objective. Improve the efficiency and effectiveness of existing Corps’ water resource
projects by maintaining justified levels of service to commercial traffic of high-use
infrastructure, e.g., waterways, harbors, and channels.
                                                                                                                       Table 6. Navigation—
Objective. Address the operation and maintenance (O&M) backlog on all operating
projects by funding high priority operation and maintenance projects.                                                  Operation and
                                                                                                                       Maintenance Activities
Funding History. The first row of Table 6 displays funding for the O&M portion of
Navigation.                                                                                                            Performance Indicators

                                                                                                                                         FY 2011
                                                                                    FY 2008           FY 2009            FY 2010
                                                                                                                                    Target     Actual
 Expenditures in millions of dollars                                                    $1,296            $1,653           $2,281    $1,342        $1,878
                     Segment Availability – closures over 24 hours
                                                                                            16.0                11.1         19.6      19.0          23.1
                     in thousands of hours
                     Total O&M funds expended per segment
                                                                                      $0.0019           $0.0021           $0.0024   $0.0021
                     ton-mile (5 year rolling average)
   Inland            Ton-miles in billions of ton – miles by fiscal year                    268                 222          261      Note 1   Note 2
  Waterways
                     Efficiency – Cost per ton                                            $0.97             $0.83           $1.75    <$1.00

                     Preventable lock closures over 24 hours                                  42                 37           61         38           50

                     Preventable lock closures over 7 days                                    28                 19           37         21           26

    Coastal          Tons of cargo in billions of tons                                    2.037             1.807           1.856   Note 1     Note 2
   Ports and
    Harbors          Channel availability, high use projects                                32%                 50%          38%        35%    Note 2

 Note 1: The Corps does not set targets for these measures.
 Note 2: Waterborne Commerce Statistics Center data for FY 2011 will not be available until late spring 2012.
 24        FY 2011 United States Army Corps of Engineers Annual Financial Report


                                                                     Operation and maintenance measures for coastal ports and
                                                                     harbors, including major repairs

                                                                         ■    Tons of cargo. Total sum of cargo in tons moved
                                                                              in and out of coastal ports and harbor systems. This
                                                                              measure indicates system use; data collected are for the
                                                                              purpose of trend analysis. No specific target is generated
                                                                              by the Corps.

                                                                         ■    Channel availability, high-use projects. The
                                                                              percentage of time that high commercial traffic
                                                                              navigation channels are available to commercial users.
                                                                              There is a total of 59 high-use projects, defined as those
                                                                              that pass 10 million or more tons of cargo per year.

                                                                     Performance Results
Performance Indicators. To measure progress in meeting
Strategic Goal 3 objectives, the Corps uses performance              This business line continues to be successful in providing
indicators that (1) relate to O&M activities for inland and          significant navigation benefits to the nation; however, it faces
intracoastal waterways, coastal ports, and harbors; and (2) relate   significant challenges in its efforts to maintain the reliability of
to the efficiency of the overall, combined navigation system.        the inland and intracoastal waterways and coastal navigation
Indicators are described below and their measures are shown in       system. The system’s aging infrastructure requires more repairs
Table 6.                                                             than the Corps can accomplish given the historical level of
                                                                     program appropriations. Over one-half of the Corps’ locks have
Operation and maintenance measures for inland and                    exceeded their 50-year service life and are requiring increased
intracoastal waterways                                               maintenance to keep them functioning. These same funding
                                                                     shortfalls, coupled with increased costs in dredging operations
    ■    Ton-miles. The sum total of movement of cargo on            and construction, are affecting the Corps’ ability to properly
         a specific waterway; this measure is a roll-up of tons      maintain its infrastructure and channels. There has been a
         of cargo transported by a vessel multiplied by the          27 percent increase in dredging costs in recent years, which
         miles that vessel traveled on the particular inland or      corresponds to the near doubling of fuel purchasing costs and
         intracoastal waterway. Although there is no specific        similarly significant increases in steel and labor costs. Also, many
         Corps-generated target, this indicator is used for trend    of the new channel deepenings require additional maintenance.
         analysis.                                                   In addition, new environmental requirements that require the
                                                                     construction of new, more distant dredged material placement
    ■    Segment availability. The number of hours over 24
                                                                     sites have increased the cost of dredging our channels. Although
         that mechanical-driven failure or shoaling results in the
                                                                     other factors may limit or control channel availability, the ability
         closure of all or part of a high or moderate commercial-
                                                                     to maintain an acceptable waterway width and depth through
         use segment. The measure includes only failures on
                                                                     dredging operations has, by far, the greatest impact.
         the main chamber of a lock (rather than an auxiliary
         chamber) and on shoaling due to inadequate dredging         Performance Results—Operation and Maintenance
         (rather than low water levels from droughts or channels
         closed due to floods). It also tracks closures of more      The O&M appropriation and the Mississippi River and
         than one week. The two measures that were developed         Tributaries appropriations were used to fund (1) continued
         for the Navigation HPPG, preventable lock closures          operation and maintenance of 241 locks at 175 locations; and
         over 24 hours and over 7 days, are proxies for this         (2) maintenance dredging of critical and high commercial-use
         measure.                                                    reaches of the 11,000 miles of inland and intracoastal waterways.
                                                                     Not all waterways were maintained at authorized dimensions.
    ■    Total funds expended per segment ton-mile (five-            Many locks and dams received only the most critically needed
         year rolling average). Total O&M funds expended             maintenance and some locks, dams, and waterways were
         per segment ton-mile averaged over a five-year period,      only maintained in caretaker status. The overall condition of
         including major rehabilitations.                            the inland and intracoastal waterways is expected to decline,
                                                                     and projects will continue to experience lock closures due to
    ■    Efficiency measure. The O&M costs per ton of cargo
                                                                     mechanical breakdowns and failures.
         shipped. It assesses the efficiency of the commercial
         navigation system at a particular coastal port or harbor.
                                                     U.S. Army Corps of Engineers – Civil Works                                     25




Funding also enabled maintenance dredging of high-use,               which will help arrest the increase in lock closures. These factors,
commercially important coastal ports, harbors, and channels;         together with anticipated higher targets in the future, will
critical harbors of refuge; and subsistence harbors. Many            increase our ability to achieve the goal.
moderate and low commercial-use harbors and channels were not
dredged and continue to shoal, further limiting vessel drafts. For   Flood Risk Management
the 59 highest use coastal ports and harbors, channel conditions
are expected to continue to decline due to large increases in        Objective. To reduce the risk to public safety and risk of
the costs of doing business, particularly as they relate to fuel,    damages due to flooding and coastal storms through the safe
steel, and labor. Dredging costs have increased an estimated         operation of flood damage reduction projects, as authorized.
27 percent over the past three to four years. For these projects,
                                                                     Funding History. The first row of Table 7 presents O&M
authorized channel depths (for the channel’s center half ) were
                                                                     funding for flood risk management.
available approximately 35 percent of the time during FY 2005
– FY 2008. The condition of moderate-and low-use inland and          Performance Indicators. To measure progress in meeting
intracoastal waterways, as well as coastal ports and harbors, is     Strategic Goal 3 objectives the Corps uses performance indicators
expected to continue to decline.                                     that relate to O&M activities for flood risk management. The
                                                                     indicators are described below and their measures are shown in
Additional funding from the ARRA and supplemental
                                                                     Table 7.
appropriations was used to perform additional maintenance of
inland and intracoastal waterways and additional dredging and        Operation and maintenance measures for Flood Risk
maintenance of coastal ports and harbors and to restore projects     Management
damaged by flooding to pre-storm conditions. These funds will
help improve the overall condition of the inland and intracoastal        ■    Operating projects in zones 21-25 (High Risk). This
waterways, help reduce lock closures due to mechanical                        measures the percentage of operating projects (dams,
breakdowns and failures, and help improve the conditions of                   levees, channels, flood gates) in zones 21-25 of the
high and moderate use coastal ports and harbors.                              relative risk ranking matrix.

Priority Goal 3                                                          ■    Operating projects in zones 1-6 (Low Risk). This
                                                                              measures the percentage of operating projects (dams,
The measures, targets, and results for the Inland Navigation                  levees, channels, flood gates) in zones 1-6 of the relative
HPPG are shown in bold in Table 6 above. The targets are based                risk ranking matrix.
on the median annual number of closures over the previous five
years. The instances and hours of scheduled and unscheduled              ■    Marginal cost of operations. This represents the
lock closures due to mechanical failures have been increasing                 marginal cost of O&M for all operating projects
since FY 2000. The Corps anticipates these lock closures will                 (dams, levees, channels, flood gates) relative to damages
continue to increase over the next several years and anticipates              prevented; shown as a percentage, i.e., the cost of
the five-year median target will increase accordingly. The Corps              O&M divided by the cost of damages prevented.
is prioritizing its annual funding and is completing repairs and
maintenance work on locks with Recovery Act investments
26        FY 2011 United States Army Corps of Engineers Annual Financial Report


                                              Performance Results

                                              The FY 2011 funds were used to operate and maintain federal projects and to inspect
                                              federal projects turned over to local sponsors. These resources supported coordination
                                              of federal reservoir operating schedules with private reservoirs within the basin. Projects
                                              operated in their targeted relative risk zones as represented by the indicator performance
                                              measures found in Table 7.

                                              Funding was also used to support dam safety functions. This included (1) monitoring
                                              and evaluating performance (instrumentation) of all dams; (2) implementing interim
                                              risk reduction measures at high-risk projects; (3) performing all required inspections
                                              (periodic, post-earthquake, high-pool, etc.); (4) preparing emergency action plans; (5)
                                              performing site-specific dam safety training of project personnel; and (6) implementing
                                              force protection security features.

                                              Environmental Stewardship
                                              Objective. To improve the efficiency and effectiveness of existing Corps water resources
                                              projects.

                                              Objective. To ensure healthy and sustainable lands and waters and associated natural
                                              resources on Corps lands in public trust to support multiple purposes.


Table 7. Operation and
Maintenance—Flood Risk
                                                                                                                       FY 2011
Management                                                           FY 2008       FY 2009       FY 2010
                                                                                                                 Target        Actual
Expenditures in millions of dollars                                       $678          $858          $887          $579          $855
                   Operating projects in zones 21-25 (High Risk)             96            50            80            85            33
 Operations &      Operating projects in zones 1-6 (Low Risk)                49            74            85            90           136
 Maintenance
                   Marginal cost of operations                           1.25%         3.70%         2.30%          2.10%         3.10%


                                              Objective. To protect, preserve, and restore significant ecological resources in accordance
                                              with master plans.

                                              Objective. To ensure the operation of all Civil Works facilities and management of
                                              associated lands—including out-granted lands—complies with the environmental
                                              requirements of relevant federal, state, and local laws and regulations.

                                              Objective. To meet the mitigation requirements of authorizing legislation or applicable
                                              Corps authorization decision documents.

                                              Funding History. The first row of Table 8 shows the funding for environmental
                                              stewardship.

                                              Performance Indicators. To measure success in attaining the objectives above, the Corps
                                              developed seven performance indicators. Data on these indicators may be found in
                                              Table 8.

                                                  ■    Mitigation compliance. A percentage of the acres of designated Corps-
                                                       administered mitigation lands that meet mitigation requirements, divided by
                                                       the total number of acres of designated Corps-administered mitigation lands.
                                                       The measure can also be the number of pounds of fish (or the number of
                                                                     U.S. Army Corps of Engineers – Civil Works                                                                27




           individual fish) produced in a mitigation hatchery,                                           unmanageable factors and not requiring intensive
           divided by the number of fish required to be produced                                         management to maintain health. The acreage also
           at a mitigation hatchery in order to meet the mitigation                                      meets operational goals and objectives established in
           requirement.                                                                                  applicable management documents.

    ■      Endangered species protection. The percentage of                                        ■     Level-one natural resources inventory completion
           Corps operating projects with Endangered Species Act                                          index. A measurement of the Corps’ efforts in
           responsibilities that meets those responsibilities.                                           completing basic, level-one natural resource inventories
                                                                                                         required by USACE Environmental Regulation 1130-
    ■      Cultural resources management. The percentage of                                              2-540, Environmental Stewardship Operations and
           Corps operating projects that meets federally mandated                                        Maintenance Policies. These inventories are necessary
           cultural resource management responsibilities                                                 to effect sound resource management decisions
           in relation to the number of projects with such                                               and strategy development. The percentage of acres
           responsibilities.                                                                             for which level-one inventories are necessary and
                                                                                                         completed is used to evaluate the relative performance
    ■      Healthy and sustainable lands and waters. The
                                                                                                         in this measure.
           number of Corps fee-owned acres classified in a
           sustainable condition, divided by the total number of                                   ■     Master plan completion. One demonstration of the
           Corps fee-owned acres. Sustainable is defined as being                                        Corps’ commitment to fully integrate environmental
           healthy and viable, not significantly impacted by any                                         stewardship in the management of operating projects.
                                                                                                         The measure is expressed as a percentage derived



Table 8. Environmental
Stewardship Indicators                                                                                                                                        FY 2011
                                                                                           FY 2008             FY 2009             FY 2010
                                                                                                                                                       Target           Actual
Expenditures in millions of dollars1                                                              $134                $150                $212             $108             $191

Mitigation compliance                                                                            100%                 100%                 71%              79%               79%

Endangered species protection                                                                    100%                 100%                 65%              65%               64%

Cultural resource management                                                                       72%                  67%                53%              55%               55%

Healthy and sustainable acreage                                                                    24%                  38%                63%              50%               65%

Level-one natural resources inventory completed                                                    46%                  59%                73%            100%                80%

Master plans completed                                                                             27%                  27%                28%              34%               32%

Efficiency in cents-on-the-dollar                                                                $0.11                $0.11              $0.12         Note 1              $0.15
Note 1: In order to ensure that revenue generation is not emphasized at the expense of sustainability, the Corps does not set annual efficiency targets. This indicator is used for
         trend analysis.
 28        FY 2011 United States Army Corps of Engineers Annual Financial Report




         by dividing the number of required master plans in           Hydropower
         compliance with regulation by the total number of
         required master plans. A master plan is completed,           Objective. To improve the efficiency and effectiveness of existing
         per regulation, to foster an efficient and cost-effective    Corps water resource projects. The Corps seeks to maintain a
         project for natural resources, cultural resources, and       high level of reliability and peak availability of hydroelectric
         recreational management programs.                            power-generating capability at multipurpose reservoir projects.

    ■    Efficiency. A measurement of costs recovered in cents-       Funding History. The first row of Table 9 shows capital
         on-the-dollar. The objective is to manage projects in        improvements and O&M expenditures for the Hydropower
         an efficient manner. This measure is an assessment of        business line over the past three-year period.
         federal costs avoided in relation to the business line
         cost. Revenue recovered each year, equivalent to the         Performance Indicator. Performance indicator results and
         federal costs avoided, will vary due to the nature and       targets for the year are displayed in Table 9.
         extent of the sustainability practices implemented.              ■    Percentage of time units are available to produce
         The emphasis, however, is on resource sustainability as               power. The amount of time during a given year that
         opposed to revenue generation.                                        hydroelectric generating units are available to the PMA
Performance Results                                                            interconnected system.

The Environmental Stewardship business line achieved                      ■    Percentage of time available during periods of
79 percent of its performance target in mitigation and                         peak demand. The amount of time during daily peak
64 percent in endangered species. Of the projects with cultural                demand periods that hydroelectric generating units are
resources requirements, 55 percent were able to meet all their                 available to the PMA’s interconnected system.
responsibilities and the other 45 percent were able to meet some          ■    Percentage of forced outages. The percentage of time
of their responsibilities. The Corps inventoried approximately 80              generating units are in an unscheduled or unplanned
percent of the lands for which it needed to complete level-one                 outage status. The lower the forced outage rate, the
natural resources inventories. This is a 7 percent increase from FY            more reliable and less expensive the electrical power
2010.                                                                          provided to the customer.
In FY 2011, lands and waters in healthy and sustainable                   ■    Electrical reliability standards met. The percentage
condition are estimated at only 65 percent of total Corps fee-                 of Federal Energy Regulatory Commission (FERC)
owned acres, which is relatively unchanged from FY 2010, but                   and the National Electric Reliability Council-
above the target of 50 percent. The higher results are due in                  approved electric reliability standards that are met
part to refocusing efforts towards this performance measure and                or exceeded. The FERC has no jurisdiction over the
increased assessment of condition. The master plan completion                  Corps’ hydropower production; however, the Corps
rate is 32 percent for FY 2011, a slight improvement but still low             takes reliability seriously and has voluntarily chosen to
due to insufficient funding coupled with the fact that complete                comply with all applicable FERC standards, subject to
revision of a master plan for a large project typically costs                  the availability of resources.
$300,000 and takes several years.
                                                                      The following measure was developed in late FY 2010; FY 2011
                                                                      will be the first year to report data:
                                                                                                                               Civil Works
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                                         29


Net generation. Five-year rolling average net generation                                 with FERC electric-reliability standards within available funding.
measured in megawatt hours for the Corps hydropower facilities                           Compliance data is currently being collected.
which are marketed by the Southeastern Power Marketing
Administration, Southwestern Power Marketing Administration,                             Priority Goal 4
and the Western Area Power Administration. This measure does
                                                                                         The measure for the Hydropower HPPG is shown in bold in
not include facilities that are directly funded for operations and
maintenance, including recapitalization, by the Bonneville Power                         Table 9 below; the goal is 90 percent peak availability by the end
Administration.                                                                          of FY 2011. Regionally, when funding has been made available for
                                                                                         major rehabilitations, peak availability has shown improvement;
Performance Results                                                                      however, total peak availability has decreased over the years due
                                                                                         to problems related to aging infrastructure. Additionally, taking
Table 9 shows a decrease in FY 2011 funding for the
                                                                                         equipment out of service for major rehabilitations has resulted in a
Hydropower business line.
                                                                                         lowering of peak availability while the work is being accomplished.
The length of time hydropower-generating units were actually                             Due to the austere fiscal environment and lack of resources for
available to produce power decreased when compared to the                                major maintenance, the Corps did not meet this hydropower
previous year, along with a decrease in availability during                              priority goal.
peak power demand periods. These decreases resulted in part
from scheduled equipment outages for capital investments                                 Recreation
and equipment outages, resulting from aging equipment.
The industry standards for availability and peak availability                            Objective. To provide justified outdoor recreation opportunities
are 98 and 95 percent, respectively. Table 9 shows FY 2011                               in an effective and efficient manner at all Corps-operated water
program performance for availability and peak availability to                            resources projects.
be approximately 13.55 and 5.75 percentage points below
the industry standard, respectively. The Hydropower standard                             Objective. To provide continued outdoor recreation
metric used for forced outages is 2 percent. Due primarily to                            opportunities to meet the needs of present and future
funding constraints, the program’s forced outage performance                             generations.
is 2.40 percentage points above the industry standard and                                Objective. To provide a safe and healthful outdoor recreation
0.20 percentage points above the FY 2011 target.                                         environment for Corps’ customers.
The Corps’ corporate electric reliability plan, implemented in                           Funding History. The first row of Table 10 shows the funding,
September 2009, provides guidance for voluntary compliance                               in actual expenditures, for the Recreation business line.




Table 9. Hydropower
Indicators
                                                                                                                                          FY 2011
                                                                                         FY 2008         FY 2009       FY 2010
                                                                                                                                      Target      Actual
 Expenditures in millions of dollars                                                              $237         $299        $352          $207        $349

 Percentage of time units are available                                                     85.86%           86.35%     84.80%        85.00%       84.45%
 Percentage of time available during periods of peak demand                                 86.13%            87.83%    86.82%        90.00%       89.33%
 Net Generation (millions of kwH)                                                                            Note 1                        18           20
 Percentage of time units are out of
                                                                                              5.08%            4.27%      4.29%         4.20%       4.40%
 service due to unplanned outage
 Electric reliability standards met                                                                 Note 2              85.30%        90.00%       95.30%
 Note 1: This measure was added in late FY 2010; FY 2011 will be the first year to report data.
 Note 2: This measure was added during FY 2007 and developed during FY 2008 and FY 2009; FY 2010 was the first year to report data.
    30        FY 2011 United States Army Corps of Engineers Annual Financial Report


                                                  Performance Indicators. The measures listed in Table 10 determine progress in meeting
                                                  the Corps’ recreation efficiency, service, and availability objectives. These indicators are
                                                  explained below.

                                                       ■    Total National Economic Development (NED) benefits. These1 are benefits
                                                            estimated using the unit day-value method which was originally developed by
                                                            the Water Resources Council.

                                                       ■    Benefit-to-cost ratio. This is the ratio of NED benefits to actual expenditures
                                                            or budget.

                                                       ■    Cost recovery. This measures the percentage of total recreation receipts to the
                                                            recreation budget.

                                                       ■    Park capacity. This measures the capacity of facilities to provide recreation
                                                            opportunities, expressed in millions of days/nights that recreation units were
                                                            available for use.

                                                       ■    Number of visitors. This measures total number of visitors to Corps-managed
                                                            parks, expressed in millions of people.

                                                       ■    Visitor health and safety services. This measures a percentage of visitors to
                                                            Corps-managed recreation areas who reported acceptable service.2 Activities
                                                            that impact this measure (facility cleaning, mowing, visitor assistance, ranger
                                                            patrols, park hosts, reservation services, and repairs) have been externally
                                                            validated with visitors, partners, and other stakeholders.


Table 10. Recreation
Indicators
                                                                                                                                FY 2011
                                                                         FY 2008        FY 2009         FY 2010
                                                                                                                         Target          Actual
    Expenditures in millions of dollars                                       $309            $380           $557            $280            $422

    Total NED benefits in millions of dollars                               $1,452          $1,500         $1,610          $1,182         $1,583
    Benefit-to-cost ratio                                                      4.70            4.30           3.00            4.18           3.75

    Cost recovery                                                               16%            15%             8%             16%             11%

    Park capacity in millions of days                                             74             74             74              74              74

    Number of visitors in millions of visits                                    137            134            135              132            135

    Visitor health and safety services                                          48%            48%            47%             47%             47%

    Facility service                                                            47%            47%            51%             51%             51%



1
  NED benefits arising from recreation experiences are measured in terms of willingness to pay for each increment of supply or type of recreation
opportunity. The unit-day-value method relies on expert or informed opinion and judgment to approximate the average user’s willingness
to pay for federal or federally-assisted recreation resources. The unit-day-value is estimated at the park (recreation area) level by evaluating
each park according to a set of published criteria. By applying a carefully thought-out and adjusted unit-day-value to estimated use, an
approximation can be obtained for use as an estimate of project recreation benefit (i.e., NED benefits = Unit Day Value X Recreation Use in
Visitor Days).
2
  A typical park in peak season for the region provides cleaning five days a week, two to three ranger patrols and visitor contacts daily, contract
law enforcement, periodic public safety programs, and ability to correct urgent repairs within one to three days.
                                                          U.S. Army Corps of Engineers – Civil Works                                     31




     ■    Facility service. The percentage of visitors served at a        Funding History. The first row of Table 11 displays funding for
          Corps-managed recreation area with a facility condition         water storage for water supply.
          score of 4 or better,3 who indicate their experience was
          fair to good. The quality of a visitor’s experience and         Performance Indicator. To assist in gauging progress, the Corps
          satisfaction with Corps’ facilities is directly related to      uses measures relating to the acre-feet of water stored and cost-
          the facility condition.                                         recovery measures. These are shown in Table 11.

Performance Results                                                           ■    Acre-feet available. Of the total acre-feet of water
                                                                                   stored in a reservoir, this number represents the total
Recreation funding in the regular Civil Works appropriation                        acre-feet available for water supply.
decreased again in inflation-adjusted terms from FY 2010 to
FY 2011. Only 47 percent of people who visited Corps’ parks                   ■    Acre-feet under contract. Of the acre-feet available for
were served at acceptable health and safety service levels.                        water supply, this number represents the total number
                                                                                   of acre-feet, for present and future use, under contract
Of the 2,500 Corps-managed parks, 814 parks were operated at                       with state and local interests.
acceptable health and safety services and 995 parks were operated
at acceptable facility condition standards.                                   ■    Percentage under contract. The percentage of the
                                                                                   acre-feet of water supply storage space under contract
In an attempt to mitigate the combined results of reduced                          compared to the acre-feet of space available for water
funding and increasing demand, the Corps resorted to reductions                    storage.
in contract services and daily operating hours, as well as
shortened recreation seasons.                                                 ■    Capital cost available for recovery. The total
                                                                                   estimated capital cost of water supply allocations. The
The Corps’ Recreation Strategic Plan, implemented in April                         Corps seeks proportional reimbursement of capital
2011, addresses the challenges of increasing demands on                            costs for that portion of the reservoir allocated for water
the Corps resources and facilities and provides direction and                      supply.
guidance to transform and reposition the recreation program for
the future.                                                                   ■    Capital cost recovered. Capital costs assigned to the
                                                                                   water supply storage space that has been recovered
Water Storage for Water Supply                                                     through repayment agreements. This indicator was
                                                                                   modified for FY 2011 to “costs actually recovered” in
Objective. To provide municipal and industrial (M&I) water                         lieu of the previous “recovered or in the process of being
supply storage in a cost-efficient and an environmentally and                      recovered.”
socially responsible manner in partnership with nonfederal water
management plans, consistent with law and policy.                             ■    Percentage of capital cost recovered. The percentage
                                                                                   of capital cost available for recovery compared to cost
                                                                                   recovered.
3
 A facility condition score of 4 means the facility requires no               ■    Administrative yearly cost per dollar collected. This
more than routine maintenance (e.g., painting, caulking, asphalt                   efficiency measure describes the cost to collect fees and
patching, filling cracks) to reduce visitor health and safety risks and            administer agreements versus the revenues collected and
environmental degradation.                                                         returned to the U.S. Treasury.
 32         FY 2011 United States Army Corps of Engineers Annual Financial Report


                                                        Performance Results

                                                        Database development for the Corps’ M&I water supply projects is transforming
                                                        the way the Corps collects data on its M&I contracts from periodic paper data calls
                                                        to a computer database. The 2010 M&I Water Supply Database was developed
                                                        and presented in the Institute for Water Resources report number 2011-R-06.
                                                        This report, dated June 2011, is available at: http://www.iwr.usace.army.mil/docs/
                                                        iwrreports/2011-R-06.pdf. Storage space available remains constant between FY 2010
                                                        and FY 2011 as new projects are not being developed. New storage can only come from
                                                        reallocations which are seldom budgeted. The ARRA included $1.1 million to fund four
                                                        water supply studies which will ultimately result in additional storage under contract and
                                                        additional revenues returned to the U.S. Treasury. All studies were completed in early
                                                        FY 2011.

                                                        The current funding level provides the minimum amount necessary to continue the
                                                        Water Storage for Water Supply business line on a caretaker basis. It does not commit the
                                                        funds required to generate the benefits that could be produced with adequate funding.
                                                        For example, funds are not available to conduct required sedimentation surveys, yield
                                                        analysis studies to assess the effect of recent droughts or studies of water supply reallocation
                                                        possibilities. These studies would help solve the water supply needs in many communities
                                                        across the nation.




Table 11. Water Storage
for Water Supply
                                                                                                                                                  FY 2011
                                                                             FY 2008            FY 2009            FY 2010
                                                                                                                                       Target           Actual
Expenditures in millions of dollars                                                    $3                 $7                 $6                   $4             $7

Acre-feet available in millions of acre-feet                                          9.2               11.1                9.7                   9.8          9.7

Acre-feet under contract in millions of acre-feet                                     8.9               10.5                9.3                   9.3          9.3
Percentage under contract                                                         96.7%              94.6%              95.9%              94.9%            95.9%
Total capital costs available for recovery
                                                                               $1,285.2           $1,429.0           $1,427.9          $1,430.0         $1,428.0
in millions of dollars
Total capital costs recovered in millions of dollars                             $932.2             $836.2             $803.2             $843.0            $803.0

Percentage of capital cost recovered                                              72.2%              56.4%              56.3%              59.0%            56.0%

Administrative yearly cost per dollar collected                                  $0.041             $0.044            $0.0181             $0.044            $0.017
Note 1: Decrease in FY 2010 and FY 2011 due to increase in revenues, which was the result of the lump sum payment of principal at two projects.
                                                      U.S. Army Corps of Engineers – Civil Works                                    33




Strategic Goal 4: Reduce Vulnerabilities and                              ■    Project inspection performance. The Corps performs
Losses to the Nation and the Army from                                         inspections of flood control works operated and
                                                                               maintained by public sponsors to ensure and assess
Natural and Man-Made Disasters, Including                                      their O&M condition. This measure is determined
Terrorism                                                                      by the percentage of scheduled inspections completed
                                                                               during the fiscal year.
The purpose of this goal is to manage the risks associated with
all types of hazards and to increase the Civil Works emergency            ■    Damaged project restoration. The Corps repairs flood
management responsiveness to disasters in support of federal,                  control projects damaged by floods or storms under
state, and local emergency management efforts. Disaster                        authority of P.L. 84-99. This measure is the percentage
preparedness and response capabilities are not only limited to                 of projects damaged during a fiscal year and repaired
water-related events, but also draw on the Corps’ engineering                  prior to the next flood season.
skills and management capabilities in responding to a broad
range of natural disasters and national emergencies. The Corps            ■    Project condition ratings. Under the Corps’
is mindful that emergency readiness contributes to national                    rehabilitation and inspection program, inspected
security.                                                                      projects are given condition ratings characterizing their
                                                                               state of maintenance. This measure is the percentage
Objective. To attain and maintain a high, consistent state of                  of total projects inspected during the fiscal year that
preparedness.                                                                  received a rating of at least minimally acceptable.
Objective. To provide a rapid, effective, and efficient all-hazards   Performance Results
response.
                                                                      The extreme flooding and flood fight response in FY 2011
Objective. To ensure effective and efficient long-term recovery       impacted many aspects of the emergency management program.
operations.                                                           Historic flood levels have been set at many locations in the
                                                                      Mississippi River Basin, topping many of the records set during
Funding History. The first row of Table 12 indicates funding for
                                                                      the floods of 1927 and 1937. USACE response included the
emergency preparedness and response and recovery operations.
                                                                      operation of Birds Point New Madrid Floodway, Bonnet Carre
Performance Indicators. The four primary measures, listed             Spillway, Old River Control Structure and Morganza Floodway
in Table 12, assist in determining progress toward meeting            along the Mississippi River. Heavy rain and melting of historic
the Corps’ emergency management objectives. Indicators are            levels of snowpack over the Missouri River Basin area raised
explained below:                                                      water levels of rivers and decreased storage capacity throughout
                                                                      reservoirs in that region with historic flow rates comparable to
    ■    Planning Response Team readiness. The Corps                  1997 and 1993 floods downstream on the Missouri River.
         established designated planning and response teams
         (PRTs) that are organized to provide rapid emergency
         response within a specific mission area. This measure is
         calculated as a percentage of time during the fiscal year
         that PRTs are fully staffed, trained, and ready to deploy.
 34          FY 2011 United States Army Corps of Engineers Annual Financial Report




During FY 2011, the Corps maintained 41 national PRTs at a                              The flooding in Mississippi and Missouri River Basins, Hurricane
readiness rate of 96 percent fully manned, trained, and equipped.                       Irene, and Tropical Storm Lee resulted in technical or direct
Teams are trained and prepared to deploy to a disaster area and                         assistance for flood response to the states of Arkansas, Illinois,
provide assistance for temporary power and housing, debris                              Idaho, Indiana, Iowa, Kansas, Kentucky, Louisiana, Minnesota,
management, water and ice commodities, temporary roofing,                               Missouri, Montana, Oregon, Nebraska, North and South
and infrastructure assessment. The readiness rating exceeded the                        Dakota, Tennessee, Washington, Wisconsin, Wyoming, and
target rating due to completed exercises and reduced turnover of                        Havasupai Tribe in Arizona.
the teams. The Corps provided assistance to Federal Emergency
Management Agency (FEMA) for tornados in Alabama,                                       In FY 2011, the Corps flood response provided 342 pumps,
Mississippi, Missouri, and Massachusetts; for floods in Missouri,                       over 37 million sandbags, 5,500 rolls of poly sheeting, 275,000
Nebraska, North Dakota, Pennsylvania, Massachusetts, Rhode                              linear feet (LF) of HESCO barrier, and 1,280 LF of Rapid
Island, and Vermont; and for wildfires in Texas.                                        Deployment Flood Wall as well as issuing 176 emergency
                                                                                        contracts. As a result of the extensive spring/summer flooding,
In FY 2011, the Corps conducted 70 percent of the scheduled                             repairs are needed for over 150 projects eligible for P.L. 84-99
inspections of flood risk management projects. Performance                              assistance at an estimated cost of over $600 million. Overall,
below the target objective resulted from the focus on supporting                        the Corps achieved a 27 percent performance rating for the
the historic flood response. Of the total projects inspected,                           completion of project repairs prior to the next flood season.
89 percent received minimally acceptable or better project                              Severe flooding from April through September directly impacted
condition ratings.                                                                      the repair program.




Table 12. Emergency
Preparedness Indicators                                                                                                                        FY 2011
                                                                                        FY 20081         FY 20091         FY 20101
                                                                                                                                          Target2   Actual1
 Expenditures in millions of dollars                                                           $847          $1,405           $1,515          $30    $1,857

 Planning response team readiness                                                               85%              83%                87%       85%        96%

 Project inspection performance                                                                 58%              67%                77%       70%        70%

 Damaged project restoration                                                                    90%              14%                61%       35%        27%

 Project condition ratings                                                                      79%              79%                67%       70%        89%
 Note 1: Funding was provided in prior year supplemental appropriations to repair projects damaged by coastal storm and flooding.
 Note 2: The funding target for FY 2011 was to fund preparedness activities.
                                                       U.S. Army Corps of Engineers – Civil Works                                  35


                                                                     Inland Waterways. Eleven inland waterway locks are over
Possible Future Effects                                              100 years old, and 122 are over 50 years old. In recent years,
                                                                     maintenance deferrals and delays in repairs and replacement
                                                                     of aging locks have driven up the number of unscheduled lock
of Existing Conditions                                               closures. For example, closures due to mechanical breakdowns
                                                                     increased from less than 9,000 hours per year in FY 2000 to
                                                                     more than 31,000 hours per year in FY 2011. These closures
Flood Risk Management                                                have a negative effect on the economy by imposing costs on
                                                                     shippers, carriers, and electric utilities. An unscheduled 52-day
As mentioned previously, the business line’s goal is to reduce       closure at Greenup Locks and Dams in Ohio, for example,
the nation’s risk to life and damages due to flooding and coastal    cost shippers and carriers over $53 million. Additionally,
storms. The nation faces increasing flood hazards, putting           rehabilitations and improvements to inland waterways are
existing developments4 at risk. This is compounded by the fact       jeopardized by the low balance in the Inland Waterways Trust
that new development continues to occur in flood-prone areas,        Fund because half of the cost of improvements is derived from
often behind aging flood-control structures, which include levees    this fund.
designed to provide agricultural rather than urban protection.
National flood damages, which averaged $3.9 million annually         Coastal Channels and Harbors. Existing high-volume channels
in the 1980s, nearly doubled in the decade 1995 through 2004.        and harbors were available only 32 percent of the time in
Total disaster assistance for emergency response operations, and     FY 2007 and FY 2008. Inadequate channels negatively affect the
subsequent long-term recovery efforts, increased from an average     economy by imposing costs on vessel operators that, in turn, are
of $444 million during the 1980s to $3.75 billion over the           reflected in the cost of imports and the price of U.S. exports. On
decade 1995 through 2004.                                            average, failure to maintain one foot of channel depth increases
                                                                     container shipping costs by about six percent. Additional
Significant investments are required to identify, evaluate, and      economic costs will accrue by postponing investment in deeper
maintain existing flood infrastructure, e.g., levees, dams, and      and wider channels that address projected future demand.
beaches. This includes accounting for changes in the frequency,
magnitude, and location of storms, as well as changes in             Environment: Aquatic Ecosystem Restoration
land use. The Corps is responsible for maintaining some of
this infrastructure, while other entities are responsible for        The goal of Aquatic Ecosystem Restoration is to restore to a more
the remaining infrastructure. Regardless of ownership, all           natural condition, aquatic habitat whose structure, function,
infrastructure elements must function as a holistic system to        and dynamic processes have become degraded. To achieve
be effective. In addition to infrastructure maintenance, new         its objectives, the Corps designs and constructs cost-effective
flood-risk management measures must be studied, evaluated, and       projects that modify hydrologic and geomorphic characteristics.
implemented in a timely fashion.
                                                                     The need for aquatic ecosystem restoration is great; however,
The Marine Transportation System (MTS)                               the challenge is to strike a sustainable balance between the often
                                                                     conflicting demands for funding and use of water resources.
The MTS system is comprised of 1,000 harbors and channels,           Climate change is likely to make this balancing act even more
25,000 miles of inland, intracoastal and coastal waterways,          difficult in the future. In FY 2011, the Corps continued its
and 241 lock chambers. The national MTS goal is to provide a         research and development effort to increase the objectivity of
safe, secure, and globally integrated network that, in harmony       environmental benefit assessments, improve the use of structured
with the environment, ensures reliable movement of people            decision-making tools, and more effectively use ecosystem
and commerce along waterways, sea lanes, and intermodal              services in project formulation and evaluation. This will facilitate
connections. Today, approximately 20 percent of the gross            more consistent results, as well as the ability to effectively build
domestic product of the United States is generated by foreign        and evaluate a national initiative. In the absence of a standard
trade, and approximately 95 percent of that trade is moved by        metric, the Corps continues to work with other agencies and
water. The value of foreign tonnage is over $900 billion and it      invest in research and development to objectively evaluate
generates 13 million jobs. Current forecasts predict that maritime   disparate ecosystem restoration projects and prioritize restoration
trade will double in the next 20 years.                              needs. The Corps continues to try to balance funding to address
                                                                     the variety of resources needed across the country.


4
 Development in this context refers to cities, towns, houses,
businesses, infrastructure, and other man-made objects that have
been constructed in low-lying areas or floodplains.
36     FY 2011 United States Army Corps of Engineers Annual Financial Report



                                  Analysis of Financial Statements

                                  U
                                            SACE prepares annual Civil Works financial statements in conformity with
                                            generally accepted accounting principles prescribed by the Federal Accounting
                                            Standards Advisory Board and the formats prescribed by the Office of
                                  Management and Budget. The Civil Works financial statements are subject to an
                                  independent audit to ensure that they are free from material misstatements, to improve
                                  financial management and provide accurate and reliable information that is useful for
                                  assessing performance and allocating resources. The USACE management is responsible
                                  for the integrity and objectivity of the financial information presented in these financial
                                  statements.

                                  The USACE Consolidated Balance Sheets, Statements of Net Cost, Changes in Net
                                  Position, and Combined Statements of Budgetary Resources (beginning on page 44)
                                  have been prepared to report the financial position and results of operations of the
                                  USACE, pursuant to the requirements of the Chief Financial Officers (CFO) Act of
                                  1990 and the Government Management Reform Act of 1994. The following sections
                                  provide a brief description of the nature of each financial statement and significant “in
                                  millions” fluctuations from FY 2010 to FY 2011. The charts presented in this Analysis
                                  are “in millions” unless otherwise noted.

                                  Balance Sheet
                                  The Civil Works Balance Sheet presents the amounts of future economic benefits owned
                                  or managed by USACE (assets) against the amounts owed (liabilities) and amounts that
                                  comprise the difference (net position).

                                  Figure 4 shows the Civil Works Assets Comparison as of September 30, 2011 and 2010.
                                  Total assets amounted to $54.2 billion in FY 2011 and $58.1 billion in FY 2010, a $3.9
                                  billion or 6.8 percent decrease. This decrease is based on two factors. One is a decrease
                                  in Fund Balance with Treasury brought about by the liquidation of existing obligations
                                  within the Disaster Relief and Recovery Supplemental and the American Recovery and
                                  Reinvestment Act of 2009 (ARRA). This decrease is offset by an increase in Investments
                                  in Intragovernmental Securities due to increased port usage and tax revenue collections
                                  for the Harbor Maintenance Trust Fund.


Figure 4. Civil Works Assets
Comparison
                                Fund Balance with Treasury


                                  Accounts Receivable, net
                                                                                                                    FY 2011
                    General Property Plant & Equipment, net                                                         FY 2010

                              Investments and Other Assets


                                                              $          $10,000         $20,000       $30,000
                                                                           (Amounts in millions)
                                      U.S. Army Corps of Engineers – Civil Works                                   37




                               Figure 5 shows the Civil Works Liabilities Comparison as of September 30, 2011 and
                               2010. Total liabilities amounted to $8.1 billion in FY 2011 and $7.8 billion in FY 2010,
                               a 3.8 percent increase, primarily due to the change in status and estimated probable loss
                               for contingent legal liabilities.


Figure 5. Civil Works
Liabilities Comparison          Accounts Payable


                    Environmental & Disposal Liab
                                                                                                              FY 2011
                                  Other LiabiliƟes                                                            FY 2010

                               Remaining Liability

                                                     $0      $1,000      $2,000        $3,000   $4,000
                                                                   (Amounts in millions)


                               Statement of Net Cost
                               The major elements of net cost include Civil Works program costs totaling $14.3 billion
                               in FY 2011 and $13.1 billion in FY 2010, and earned revenues amounting to $3.7
                               billion in FY 2011 and $3.0 billion in FY 2010. Both elements are comprised of both
                               intragovernmental and public costs. Earned revenues increased by 23.3 percent in FY
                               2011 due to increased revenues from the Department of Homeland Security for various
                               projects to include response operations to spring flood in Alabama and tornados in
                               Missouri, and for border patrol stations, checkpoints, fencing, emergency alert systems
                               and ports of entry.

                               Statement of Changes in Net Position
                               The Statement of Changes in Net Position presents those accounting items that caused
                               the net position section of the Balance Sheet to change from the beginning to the end of
                               the reporting period. Various financing sources increase net position. These financing
                               sources include appropriations received and nonexchange revenues, such as donations
                               and forfeitures of property and imputed financing from costs absorbed by other federal
                               agencies. USACE net cost of operations and appropriations used serve to reduce net
                               position.
 38    FY 2011 United States Army Corps of Engineers Annual Financial Report


                                     Figure 6 shows the three components of the Civil Works net position for FY 2011 and
                                     FY 2010. Overall, net position decreased in FY 2011 compared with FY 2010 due
                                     to a combination of decreases in Unexpended Appropriations – Other Funds, and by
                                     an increase in Cumulative Result of Operations – Earmarked Funds. The Energy and
                                     Water Appropriations were reduced in FY 2011 due to budget constraints. On the other
                                     hand, the nonexchange revenues (Trust Funds) increased due to increased port usage for
                                     imports, foreign trade and domestic transportation.


Figure 6. Civil Works
Net Position               Cumulative Results of Operations -
Comparison                         Other Funds

                           Cumulative Results of Operations -                                                                   FY 2011
                            Earmarked Funds (Note 19)
                                                                                                                                FY 2010
                                Unexpended Appropriations -
                                     Other Funds

                                                                $0             $10,000          $20,000            $30,000
                                                                                 (Amounts in millions)



                                     Statement of Budgetary Resources
                                     The Combined Statements of Budgetary Resources provide information on the
                                     budgetary resources that were made available to the USACE as of September 30, 2011
                                     and 2010, and the status of those budgetary resources. Budget authority is the authority
                                     provided to the USACE by law to enter into obligations that will result in outlays of
                                     federal funds. Obligations Incurred results from an order placed, contract awarded, or
                                     similar transaction, which will require payments during the same or a future period.
                                     Gross Outlays reflects the actual cash disbursed by Treasury for USACE obligations.

                                     Figure 7 shows a comparison of Budget Authority, Obligations Incurred and Gross
                                     Outlays in FY 2011 and FY 2010. The USACE reported total Civil Works budget
                                     authority of $17.5 billion and $17.1 billion as of September 30, 2011 and 2010,
                                     respectively. Obligations incurred amounted to $20.1 billion as of September 30, 2011
                                     and $23.8 billion as of September 30, 2010. The decrease was due to completion of
                                     multiple projects related to the ARRA and hurricane recovery in New Orleans.


Figure 7. Civil Works
Budgetary Resources
Comparison
                        Budget Authority


                   ObligaƟons Incurred
                                                                                                                                FY 2011
                                                                                                                                FY 2010

                           Gross Outlays


                                           $0         $5,000         $10,000         $15,000             $20,000      $25,000
                                                                      (Amounts in millions)
                                                    U.S. Army Corps of Engineers – Civil Works                               39




Analysis of Systems,                                               Statement of Assurance

Controls, and Legal                                                The management of the U.S. Army Corps of Engineers
                                                                   (USACE) Civil Works is responsible for establishing
                                                                   and maintaining effective internal controls and financial
Compliance                                                         management systems that meet the objectives of the
                                                                   Federal Managers’ Financial Integrity Act of 1982
                                                                   (FMFIA). USACE Civil Works conducted its assessment
                                                                   of the effectiveness of internal control over operations
Federal Manager’s Financial                                        and compliance with applicable laws and regulations
Integrity Act                                                      in accordance with Office of Management and Budget
                                                                   (OMB) Circular Number (No.) A-123, Management’s
The management control objectives under the Federal                Responsibility for Internal Control. Based on the results of
Manager’s Financial Integrity Act of 1982 (FMFIA) are to           this evaluation, USACE Civil Works can provide reasonable
reasonably ensure that:                                            assurance that internal control over the effectiveness and
                                                                   efficiency of operations and compliance with applicable
■   Programs achieve their intended results efficiently and        laws and regulations met the objectives of FMFIA and no
    effectively.                                                   material weaknesses were found in the design or operation
■   Resources are used consistent with overall mission.            of the internal controls as of September 30, 2011.
■   Programs and resources are free from waste, fraud, and         USACE Civil Works conducted its assessment of the
    mismanagement.                                                 effectiveness of internal control over financial reporting in
■   All applicable laws and regulations are followed.              accordance with Appendix A of OMB Circular No. A-123.
                                                                   Based on the results of this assessment, USACE Civil
■   Controls are sufficient to minimize any improper or            Works can provide reasonable assurance that its internal
    erroneous payments.                                            control over financial reporting as of September 30, 2011
■   System security is in substantial compliance with all          was operating effectively and no material weaknesses were
    relevant requirements.                                         found in the design or operation of the internal control over
■   Resources are used in accordance with the organizational       financial reporting.
    mission.                                                       The Federal Financial Management Improvement Act of 1996
■   Financial management systems are in compliance with            (FFMIA) requires agencies to implement and maintain
    federal financial systems standards.                           financial management systems that are substantially in
■   Timely, accurate, and reliable data is maintained and used     compliance with federal financial management systems
    for decision making at all levels.                             requirements, federal accounting standards promulgated by
                                                                   the Federal Accounting Standards Advisory Board (FASAB),
USACE internal controls program is designed to ensure full         and the U.S. Standard General Ledger (USSGL) at the
compliance with the goals, objectives, and requirements            transaction level. In addition, OMB Circular No. A-127
of FMFIA and the OMB Circulars Numbers A-123,                      requires agencies to implement and maintain financial
Management’s Responsibility for Internal Control, A-136,           management systems that are substantially in compliance
Financial Reporting Requirements, and A-127, Financial             with federal financial management systems requirements,
Management Systems. USACE holds managers accountable               federal accounting standards, and the USSGL. Evaluation
for the performance, productivity, operations and integrity of     results also indicated that USACE Civil Works financial
their programs through the use of internal controls. USACE         management systems were found to substantially comply
undertakes a combination of actions to ensure there is a           with FFMIA and OMB Circular No. A-127 as of
reasonable level of assurance that internal controls throughout    September 30, 2011.
USACE are in place and operating effectively. Those actions
consist of a combination of inspections, audits, investigations,
and management control reviews conducted throughout
the year. USACE also has a strong network of management
control oversight committees to include the National               Steven L. Stockton
Management Board, Regional Management Boards, and the              Director of Civil Works
Quarterly Review Boards. The Quality Management System,            November 11, 2011
another management control mechanism, allows USACE to
 40        FY 2011 United States Army Corps of Engineers Annual Financial Report




standardize business processes throughout the Corps and ensure        day operations as well as produce reliable financial statements,
appropriate internal controls are built into those processes.         maintain effective internal control, and comply with legal and
Many of the USACE management control evaluations are                  regulatory requirements.
integrated into periodic management review processes such as the
Consolidated Management Reviews, Directorate Management               USACE’s financial management framework consists primarily
Reviews, Program Management Reviews, and through the                  of the Corps of Engineers Financial Management System
execution of internal audits. USACE’s evaluation for FY 2011          (CEFMS). CEFMS is a comprehensive and integrated
identified no material weaknesses in the design or operation of its   financial management system which processes all financial
management and financial system internal controls.                    transactions for all USACE missions and programs. CEFMS
                                                                      maintains an electronic record of the financial transactions
                                                                      and is in compliance with the USSGL. USACE also utilizes
OMB Circular A-123, Appendix A                                        CEFMS to maintain funds control and track the execution of
                                                                      all direct and reimbursable funded projects. Adequate internal
The USACE conducted an assessment of the effectiveness of its         control mechanisms are critical in maintaining the integrity
internal controls over financial reporting in compliance with         of transactional data. To ensure proper separation of duties,
OMB Circular No. A-123, Appendix A, Internal Control over             CEFMS includes a robust electronic signature process, utilizing
Financial Reporting (ICOFR) and related Department of Defense         public key infrastructure (PKI), and has a role-based security
(DoD) guidance. The USACE Executive Senior Assessment                 feature to reinforce its internal controls. CEFMS provides
Team (ESAT), established in FY 2008, is chaired by the Deputy         reliable and timely financial information for managing its
Commanding General and comprised of functional area Senior            financial operations. Internal controls are embedded throughout
Executives who provide expert leadership and direction over           CEFMS to ensure data integrity and to prevent fraud, waste,
the CFO Act financial statement audits. USACE evaluation              and abuse through the segregation of duties using role-based
for FY 2011 did not identify any material weaknesses as of or         controls. CEFMS is the primary reason why USACE has
subsequent to June 30, 2011.                                          received unqualified audit opinions on its Civil Works financial
                                                                      statements for the past four consecutive fiscal years.
Federal Financial Management
                                                                      USACE has evaluated its financial management systems and has
Improvement Act 1996                                                  determined that they substantially comply with the requirements
                                                                      of the FFMIA of 1996 (Section 801 of Title 31, USC, OMB
The Federal Financial Management Improvement Act (FFMIA)              Circular No. A-127, and the DoD Financial Management
of 1996 stipulates that government agencies, “implement               Regulations, Volume 1, Chapter 3.
and maintain financial management systems that comply
substantially with federal financial management systems
requirements, applicable federal accounting standards, and the
United States Government Standard General Ledger (USSGL) at
the transactional level.” FFMIA also mandates that remediation
plans be developed for any agency that is unable to report
substantial compliance. Substantial compliance is achieved when
an agency’s financial management system(s) routinely provide
reliable and timely financial information for managing day to
                                                        U.S. Army Corps of Engineers – Civil Works                   41



Summary
Although USACE has no material weaknesses to report as a result of the above internal
control evaluations, management is committed to address the material weakness and
significant deficiencies identified in audits, evaluations and assessments of controls in its
financial management systems and its business processes, to ensure existence of effective
internal controls, systems integration, and timely and reliable financial and performance
data for reporting purposes. Table 13 below shows the number of material weaknesses,
significant deficiencies and legal requirements not in compliance, as a result of the
independent audits of Civil Works financial statements from FY 2008 through FY 2011:




                       Number of              Number of                Number of
     Fiscal
                        Material              Significant         Legal Requirements            Table 13. Auditor
    Year End
                      Weaknesses             Deficiencies          Not in Compliance
                                                                                                Identified Control
      2008                   1                      5                        3
                                                                                                Weaknesses
      2009                   5                      2                        6

      2010                   4                      2                        3

      2011                   1                      3                        3
42   FY 2011 United States Army Corps of Engineers Annual Financial Report




                            Intentionally Left Blank
                                                                        Civil Works
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report   43




                            Civil Works — Principal
                            Financial Statements, Notes,
                            Supplementary Information, and
                            Auditor’s Report
444
  4     FY 2011 United States Army Corpss of En
                                             Engineers
                                              ngineers Annual Fin
                                                              Financial
                                                                nanccial Report
                                                                         Repoort




                                                     Limitations
Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results of operations for the entity; pursuant to the
requirements of Title 31, United States Code, section 3515(b).

While the statements have been prepared from the books and records of the entity, in accordance with the formats prescribed by the
Office of Management and Budget, the statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the United States Government, a sovereign entity.
                                                                                              Civil Works
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                     45


US Army Corps of Engineers - Civil Works
CONSOLIDATED BALANCE SHEETS
As of September 30, 2011 and 2010 (Amounts in thousands)                2011                         2010
ASSETS (Note 2)
Intragovernmental:
Fund Balance with Treasury (Note 3)                            $               15,532,602 $                 20,839,809
Investments (Note 4)                                                            6,489,467                    5,741,313
Accounts Receivable (Note 5)                                                      647,913                      498,100
Total Intragovernmental Assets                                 $               22,669,982 $                 27,079,222

Cash and Other Monetary Assets (Note 6)                        $                    1,195 $                        972
Accounts Receivable, Net (Note 5)                                               2,543,480                    2,504,377
Operating Materials and Supplies (Note 7)                                         166,379                      156,518
General Property, Plant and Equipment,Net (Note 8)                             28,803,701                   28,365,165
Other Assets                                                                          118                          282
TOTAL ASSETS                                                   $               54,184,855 $                 58,106,536

Stewardship Property, Plant, and Equipment (Note 9)

LIABILITIES (Note 10)
Intragovernmental:
Accounts Payable                                               $                   54,217 $                     44,287
Debt (Note 11)                                                                      5,114                        5,634
Due to Treasury - General Fund (Note 13)                                        2,515,535                    2,484,625
Other Liabilities (Notes 13 & 14)                                                 973,217                    1,026,380
Total Intragovernmental Liabilities                            $                3,548,083 $                  3,560,926

Accounts Payable - Public                                      $                  997,413 $                  1,110,015
Federal Employee and Veterans' Benefits                                           251,076                      243,460
Environmental and Disposal Liabilities (Note 12)                                1,078,592                    1,038,122
Other Liabilities (Notes 13 & 14)                                               2,271,469                    1,810,463
TOTAL LIABILITIES                                              $                8,146,633 $                  7,762,986

Contingencies (Note 14)

NET POSITION
Unexpended Appropriations - Other Funds                        $                6,813,138 $                 12,861,828
Cumulative Results of Operations - Earmarked Funds (Note 19)                   10,819,526                    9,192,267
Cumulative Results of Operations - Other Funds                                 28,405,558                   28,289,455
TOTAL NET POSITION                                             $               46,038,222 $                 50,343,550


TOTAL LIABILITIES AND NET POSITION                             $               54,184,855 $                 58,106,536




                        The accompanying notes are an integral part of these financial statements.
46        FY 2011 United States Army Corps of Engineers Annual Financial Report


US Army Corps of Engineers - Civil Works
CONSOLIDATED STATEMENTS OF NET COST
For the years ended September 30, 2011 and 2010 (Amounts in thousands)       2011                  2010
Program Costs
     Gross Costs (Note 15)                                               $      14,257,477 $         13,085,826
     (Less: Earned Revenue)                                                     (3,671,382)          (3,014,594)
Net Cost of Operations                                                   $      10,586,095 $         10,071,232




                      The accompanying notes are an integral part of these financial statements.
                                                                                            Civil Works
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                       47


US Army Corps of Engineers - Civil Works
CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
For the years ended September 30, 2011 and 2010
                                                        2011 Earmarked         2011 Other       2011 Consolidated Total
(Amounts in thousands)
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                  $          9,192,267 $         28,289,455 $             37,481,722
Budgetary Financing Sources:
 Appropriations used                                                                9,971,726                9,971,726
 Nonexchange revenue                                           1,752,440                3,747                1,756,187
 Transfers-in/out without reimbursement                           48,116               94,066                  142,182
Other Financing Sources (Non-exchange):
  Donations and forfeitures of property                               315              2,891                     3,206
  Transfers-in/out without reimbursement                                 -           113,610                   113,610
  Imputed financing from costs absorbed by others                   2,193            340,353                   342,546
 Other (+/-)                                                    (130,961)            130,961                          -

Total Financing Sources                             $          1,672,103 $         10,657,354 $             12,329,457
Net Cost of Operations                                            44,844           10,541,251               10,586,095
Net Change                                                     1,627,259              116,103                1,743,362
Cumulative Results of Operations                    $         10,819,526 $         28,405,558 $             39,225,084

UNEXPENDED APPROPRIATIONS
Beginning Balances                                  $                    - $       12,861,828 $             12,861,828
Budgetary Financing Sources:                                             -
  Appropriations received                                                -           4,131,922                4,131,922
  Appropriations transferred-in/out                                      -               (2,537)                  (2,537)
  Other adjustments (rescissions, etc.)                                  -            (206,349)                (206,349)
  Appropriations used                                                    -          (9,971,726)              (9,971,726)
Total Budgetary Financing Sources                   $                    - $       (6,048,690) $            (6,048,690)
Unexpended Appropriations                                                -           6,813,138                6,813,138
Net Position                                        $         10,819,526 $         35,218,696 $             46,038,222




                      The accompanying notes are an integral part of these financial statements.
48        FY 2011 United States Army Corps of Engineers Annual Financial Report


US Army Corps of Engineers - Civil Works
CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
For the years ended September 30, 2011 and 2010
                                                         2010 Earmarked         2010 Other        2010 Consolidated Total
(Amounts in thousands)
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                   $           7,735,168 $        26,947,643 $              34,682,811
Budgetary Financing Sources:
  Appropriations used                                                     -         10,233,720                10,233,720
  Nonexchange revenue                                            1,502,034                (571)                1,501,463
  Transfers-in/out without reimbursement                           113,074              90,029                   203,103
Other Financing Sources (Non-exchange):
   Donations and forfeitures of property                                  -                708                       708
   Transfers-in/out without reimbursement                                 -            595,618                   595,618
   Imputed financing from costs absorbed by others                     625             334,906                   335,531
Total Financing Sources                              $           1,615,733 $        11,254,410 $              12,870,143
Net Cost of Operations                                             158,634           9,912,598                10,071,232
Net Change                                                       1,457,099           1,341,812                 2,798,911
Cumulative Results of Operations                     $           9,192,267 $        28,289,455 $              37,481,722

UNEXPENDED APPROPRIATIONS

Beginning Balances                                   $                    - $       18,337,899 $              18,337,899
Budgetary Financing Sources:
  Appropriations received                                                 -           4,754,176                4,754,176
  Appropriations transferred-in/out                                       -               9,000                    9,000
  Other adjustments (rescissions, etc.)                                   -              (5,527)                  (5,527)
  Appropriations used                                                     -        (10,233,720)             (10,233,720)
Total Budgetary Financing Sources                    $                    - $        (5,476,071) $            (5,476,071)
Unexpended Appropriations                                                 -          12,861,828               12,861,828
Net Position                                         $           9,192,267 $         41,151,283 $            50,343,550




                      The accompanying notes are an integral part of these financial statements.
                                                                                            Civil Works
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                   49


US Army Corps of Engineers - Civil Works
COMBINED STATEMENTS OF BUDGETARY RESOURCES
For the years ended September 30, 2011 and 2010 (Amounts in thousands)       2011                   2010
Budgetary Resources:
Unobligated balance, brought forward, October 1                          $       11,069,152 $          17,518,061
Recoveries of prior year unpaid obligations                                         117,174                40,133
Budget authority
   Appropriation                                                                    5,581,747              6,195,338
   Spending authority from offsetting collections
         Earned
           Collected                                                             11,087,237            10,201,874
           Change in receivables from Federal sources                                96,035                 4,423
         Change in unfilled customer orders
           Advance received                                                       (104,732)                 62,177
           Without advance from Federal sources                                     (63,739)             (192,357)
         Expenditure transfers from trust funds                                     881,890                851,019
   Subtotal                                                              $       17,478,438 $          17,122,474
Nonexpenditure transfers, net, actual                                                173,917              183,595
Permanently not available                                                         (206,870)                 (7,967)
Total Budgetary Resources                                                $       28,631,811 $          34,856,296

Status of Budgetary Resources:
Obligations incurred:
   Direct                                                                $        9,306,766 $          12,924,634
   Reimbursable                                                                  10,796,557            10,862,510
   Subtotal                                                              $       20,103,323 $          23,787,144
Unobligated balance:
   Apportioned                                                                    7,632,910            10,401,348
   Exempt from apportionment                                                        844,091               667,784
   Subtotal                                                              $        8,477,001 $          11,069,132
Unobligated balance not available                                                    51,487                    20
Total status of budgetary resources                                      $       28,631,811 $          34,856,296
Change in Obligated Balance:
Obligated balance, net
   Unpaid obligations, brought forward, October 1                        $       13,134,605 $          11,126,133
   Less: Uncollected customer payments
          from Federal sources, brought forward, October 1                       (3,065,405)           (3,253,339)
   Total unpaid obligated balance                                        $       10,069,200 $            7,872,794
Obligations incurred net                                                         20,103,323             23,787,144
Less: Gross outlays                                                             (22,715,297)          (21,738,539)
Less: Recoveries of prior year unpaid obligations, actual                           (117,174)              (40,133)
Change in uncollected customer payments from Federal sources                         (32,296)              187,934
Obligated balance, net, end of period
   Unpaid obligations                                                            10,405,457            13,134,605
   Less: Uncollected customer payments from Federal sources                      (3,097,701)           (3,065,405)
   Total, unpaid obligated balance, net, end of period                   $        7,307,756 $          10,069,200

Net Outlays:
    Gross outlays                                                        $        22,715,297 $         21,738,539
    Less: Offsetting collections                                                (11,864,395)          (11,115,071)
    Less: Distributed Offsetting receipts                                          (696,399)             (708,601)
    Net Outlays                                                          $        10,154,503 $          9,914,867


                       The accompanying notes are an integral part of these financial statements.
 50        FY 2011 United States Army Corps of Engineers Annual Financial Report



Note 1. Summary of Significant Accounting Policies
1.A. Mission of the Reporting Entity
The primary mission of the United States (U.S.) Army Corps of Engineers - Civil Works Program (USACE) includes maintaining
navigation channels, reducing flooding, assisting during natural disasters and other emergencies, and making waterways passable. The
Civil Works Program also supports the Department of Homeland Security in carrying out the National Response Plan. USACE’s
primary role in support of this plan is to provide emergency support in areas of public works and engineering. USACE responds to
more than 30 presidential disaster declarations in a typical year, and its highly trained workforce is prepared to deal with both man-
made and natural disasters.

1.B. Basis of Presentation and Accounting
These financial statements have been prepared to report the financial position and results of operations of USACE, as required by the
Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of 1994. The financial statements have
been prepared from the books and records of USACE in accordance with the U.S. generally accepted accounting principles (GAAP) for
Federal entities and the formats prescribed by the Office of Management and Budget (OMB) Circular Number (No.) A-136, Financial
Reporting Requirement (October 27, 2011). The accompanying financial statements account for all Civil Works resources for which
USACE is responsible.

The accounting structure of Federal agencies is designed to reflect both accrual and budgetary accounting transactions. Under the
accrual method of accounting, revenues are recognized when earned and expenses are recognized when incurred without regard to the
receipt or payment of cash. The budgetary accounting principles, on the other hand, are designed to recognize the obligation of funds
according to legal requirements, which in many cases is prior to the occurrence of an accrual-based transaction. The recognition of
budgetary accounting transactions is essential for compliance with legal constraints and controls over the use of Federal funds.

USACE has presented comparative financial statements for the Consolidated Balance Sheet, Consolidated Statement of Net Cost and
Changes in Net Position, and Combined Statement of Budgetary Resources, in accordance with OMB financial statement reporting
guidelines.

USACE transactions are recorded on an accrual accounting basis as required by GAAP. USACE’s financial management system meets
all of the requirements for full accrual accounting.

1.C. Fund Types
General funds are used for financial transactions funded by Congressional appropriations, including personnel, operation and
maintenance, research and development, procurement, and construction accounts.

Revolving funds received funding to establish an initial corpus through an appropriation or a transfer of resources from existing
appropriations or funds. The corpus finances operations and transactions that flow through the fund. The revolving fund finances the
goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable receipts fund future operations
and generally are available in their entirety for use without further congressional action.

Special funds are used to record government receipts reserved for a specific purpose.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific purposes or
programs in accordance with the terms of the donor, trust agreement, or statute.

Contributed funds are received from the public for construction of assets under local cost sharing agreements.

Most USACE trust, contributed, and special funds are designated as earmarked funds. Earmarked funds are financed by specifically
identified revenues, required by statute to be used for designated activities, benefits or purposes, and remain available over time. USACE
is required to separately account for and report on the receipt, use and retention of revenues and other financing sources for earmarked
funds.
                                                                                                           Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                          51


Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. They are not
USACE funds, and as such, are not available for USACE’s operations. USACE is acting as an agent or a custodian for funds awaiting
distribution.

Clearing accounts are used to record the amount of unprocessed intragovernmental payments and collections transmitted to USACE
from other federal agencies.

Receipt accounts are used to record amounts such as interest, land lease proceeds, fines and penalties that are deposited in the U.S.
Treasury.

A summary of USACE accounts follows:

General Funds
96X3112            Flood Control, Mississippi River and Tributaries
96 3113            Mississippi River and Tributaries - Recovery Act (fiscal year)
96X3121            Investigations
96 3121            Investigations (fiscal year)
96X3122            Construction
96 3122            Construction (fiscal year)
96X3123            Operation and Maintenance, General
96 3123            Operation and Maintenance, General (fiscal year)
96X3124            General Expenses
96 3124            General Expenses (fiscal year)
96X3125            Flood Control and Coastal Emergencies
96 3125            Flood Control and Coastal Emergencies (fiscal year)
96X3126            Regulatory Program
96X3128            Washington Aqueduct Capital Improvements
96 3129            Payment to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund (fiscal year)
96X3130            Formerly Utilized Sites Remedial Action Program
96X3132            Office of Assistant Secretary of the Army, Civil Works
96 3132            Office of Assistant Secretary of the Army, Civil Works (fiscal year)
96 3133            Investigations – Recovery Act (fiscal year)
96 3134            Construction – Recovery Act (fiscal year)
96 3135            Operation and Maintenance – Recovery Act (fiscal year)
96 3136            Regulatory Program – Recovery Act (fiscal year)
96 3137            Formerly Utilized Sites Remedial Action Program – Recovery Act (fiscal year)
96 3138            General Expenses – Recovery Act (fiscal year)
96X6094            Advances from the District of Columbia

Revolving Funds
96X4902            Revolving Fund

Special Funds
96X5007            Special Recreation Use Fees
 52        FY 2011 United States Army Corps of Engineers Annual Financial Report


96X5066           Hydraulic Mining in California, Debris
96X5090           Payments to States, Flood Control Act of 1954
96X5125           Maintenance and Operation of Dams and Other Improvements of Navigable Waters
96X5493           Fund for Non-Federal Use of Disposal Facilities
96 5493           Fund for Non-Federal Use of Disposal Facilities (fiscal year)

Trust Funds
96X8217           South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
96X8333           Coastal Wetlands Restoration Trust Fund
96X8861           Inland Waterways Trust Fund
96X8863           Harbor Maintenance Trust Fund

Trust Funds (Contributed)
96X8862           Rivers and Harbors Contributed and Advance Funds

Deposit Funds
96X6500           Advances Without Orders from Non-Federal Sources
96X6501           Small Escrow Amounts

Clearing Accounts
96F3875           Budget Clearing Account (suspense)
96F3880           Unavailable Check Cancellations and Overpayments (suspense)
96F3885           Undistributed Intragovernmental Payments

Receipt Accounts
96R0891           Miscellaneous Fees for Regulatory and Judicial Services, Not Otherwise Classified
96R1060           Forfeitures of Unclaimed Money and Property
96R1099           Fines, Penalties, and Forfeitures, Not Otherwise Classified
96R1299           Gifts to the United States, Not Otherwise Classified
96R1435           General Fund Proprietary Interest, Not Otherwise Classified
96R3220           General Fund Proprietary Receipts, Not Otherwise Classified, All Other
96R5005           Land and Water Conservation Fund
96R5007           Special Recreation Use Fees
96R5066           Hydraulic Mining in California
96R5090           Receipts from Leases of Lands Acquired for Flood Control, Navigation, and Allied Purposes
96R5125           Licenses under Federal Power Act, Improvements of Navigable Waters, Maintenance and Operation
                  of Dams, etc., (50%)
96R5493           User Fees, Fund for Non-Federal Use of Disposal Facilities
96R8862           Contributions and Advances, Rivers and Harbors

1.D. Financing Sources
USACE receives Federal funding through the annual Energy and Water Development Appropriations Act. Funding also comes from
non-Federal project sponsors who share in project costs according to formulas established by project authorization acts. A third source
of funding comes through the Support for Others Program, which is conducted under reimbursable agreements with federal agencies.
                                                                                                           Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                        53


USACE receives its appropriations and funds as general, revolving, trust, special, and deposit funds. USACE uses these appropriations
and funds to execute its mission and subsequently report on resource usage.

USACE received borrowing authority from the U.S. Treasury to finance capital improvements to the Washington Aqueduct.

USACE receives congressional appropriations as financing sources that expire annually, on a multi-year basis, or do not expire. When
authorized by legislation, these appropriations are supplemented by revenues generated by sales of services. USACE recognizes revenue
as a result of costs incurred for goods or services provided to other federal agencies and the public. Full cost pricing is USACE’s
standard policy for goods or services provided as required by OMB Circular No. A-25, User Charges.

USACE records two types of revenue: exchange and non-exchange. Exchange revenue is the inflow of resources that USACE has
earned by providing something of value to the public or another Federal entity at a price. The main sources of exchange revenue are
customer orders (reimbursable agreements) and cost sharing revenue.

Customer orders are contracts where USACE provides services under a reimbursable agreement; the related revenue and accounts
receivable are recorded simultaneously along with the costs and payables. For non-Federal entities, an advance payment is required and
USACE records advances from others. USACE reduces the advances and recognizes revenue as services are provided.

Cost sharing revenue arises from agreements under which USACE constructs assets, the cost of which will be borne in part by another
entity (sponsor). Throughout the life of a cost share project, USACE revenue is earned based on the sponsor’s proportionate share
of project costs incurred. Sponsors are generally required to provide funds in advance and USACE records deferred credits. USACE
reduces the deferred credits and recognizes revenue at the time of the withdrawal for costs incurred.

Non-exchange revenue represents resources received by USACE when a good or service is not provided in exchange for that revenue.
Non-exchange revenue generally consists of interest earned on investments from excise taxes and port fees, penalties, and donations.

1.E. Recognition of Expenses
USACE recognizes expenses in the period incurred or consumed. USACE’s expenditures for capital assets are recognized as operating
expenses as the assets are depreciated or amortized.

1.F. Accounting for Intragovernmental Activities
USACE eliminates transactions within USACE Civil Works Program in these consolidated financial statements. Accounting
standards require that an entity eliminate intraentity activity and balances from consolidated financial statements in order to prevent
overstatement for business with itself.

Generally, financing for the construction of USACE’s facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized because the U.S.
Treasury does not allocate such costs to USACE.

In accordance with Statement of Federal Financial Accounting Standard (SFFAS) No. 4, Managerial Cost Accounting Concepts and
Standards, USACE recognizes imputed financing and cost for unreimbursed goods and services provided by others. These costs include
unreimbursed rent, interest during construction, Judgment Fund payments on behalf of USACE, and employee benefits.

1.G. Entity and Nonentity Assets
The assets are categorized as entity or nonentity. Entity assets consist of resources that USACE has the authority to use, or where
management is legally obligated to use funds to meet entity obligations. Nonentity assets consist of resources for which USACE
maintains stewardship accountability and responsibility to report but are not available for USACE operations.

1.H. Funds with the U.S. Treasury
USACE’s monetary financial resources are maintained in U.S. Treasury accounts. The disbursing offices of USACE Finance Center
(UFC), the Defense Finance and Accounting Service (DFAS), and the Department of State’s financial service centers process the
majority of USACE’s cash collections, disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports
that provide information to the U.S. Treasury on check issued, electronic fund transfers, interagency transfers, and deposits.
 54        FY 2011 United States Army Corps of Engineers Annual Financial Report


In addition, UFC and DFAS sites submit reports to the U.S. Treasury by appropriation on interagency transfers, collections received,
and disbursements issued. The U.S. Treasury records this information to the applicable Fund Balance with Treasury (FBWT) account.
Differences between USACE’s recorded balance in FBWT accounts and U.S. Treasury’s FBWT accounts sometimes result and are
subsequently reconciled on a monthly basis.

1.I. Investments
USACE reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums or discounts
are amortized over the term of the investment using the effective interest rate method or another method obtaining similar results.
USACE’s intent is to hold investments to maturity, unless they are needed to finance claims or otherwise sustain operations.
Consequently, a provision is not made for unrealized gains or losses on these securities.

The Bureau of Public Debt (BPD), on behalf of USACE, invests in nonmarketable securities. Nonmarketable, market-based
intragovernmental securities mimic marketable securities, but are not publicly traded.

Net investments are held by the South Dakota Terrestrial Habitat Restoration, Inland Waterways, and Harbor Maintenance trust
funds.

1.J. Accounts Receivable
Accounts receivable includes three categories: accounts, claims, and refunds receivable from other Federal entities or from the public.
USACE bases the allowance for uncollectible accounts receivable due from the public on established percentages per aged category of
the cumulative balance of delinquent public receivables. USACE regards its intragovernmental accounts receivable balance as fully
collectable.

Accounts receivable also includes amounts stemming from long-term water storage agreements based on the cost of construction to be
recouped by USACE from the municipality and Louisiana coastal restoration. USACE performs an analysis of the collectability of the
receivables periodically and recognizes an allowance for estimated uncollectible amounts from the municipality.

1.K. Operating Materials and Supplies
USACE operating materials and supplies are stated at historical cost under moving average cost method and are adjusted for the results
of physical inventories. Operating materials and supplies are expensed when consumed.

1.L. General Property, Plant and Equipment
USACE General Property, Plant, and Equipment (PP&E) is capitalized at historical acquisition cost plus capitalized improvements
when an asset has a useful life of two or more years and the acquisition cost exceeds $25 thousand with the exception of buildings and
structures related to hydropower projects which are capitalized regardless of cost.

USACE uses estimates to support the historical costs of its real property assets, including the administrative costs of land, acquired
prior to FY 1999, and personal property assets acquired prior to FY 2003. The estimates are necessary because certain supporting
documentation to substantiate recorded costs for those assets is no longer available. Management’s estimation methods, which are
consistent with the principles, relevant to USACE circumstances, as contained in SFFAS No. 6, Accounting for Property, Plant and
Equipment; SFFAS No. 23, Eliminating the Category National Defense Property, Plant And Equipment; and SFFAS No.35, Estimating
the Historical Cost of General Property, Plant, and Equipment: Amending Statements of Federal Financial Accounting Standards 6 and 23;
consist of using a combination of appropriation or engineering documents, or other available real estate, financial, appropriations,
and operations data, combined with written management attestation statements, to estimate and support the original acquisition or
construction costs recorded for each asset.

Construction in Progress (CIP) is used to accumulate the cost of construction and accumulated costs are transferred from CIP to the
relevant asset category when an asset is completed.
                                                                                                            Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                        55


1.M. Leases
Lease payments for the rental of equipment and operating facilities are classified as operating leases. An operating lease does not
substantially transfer all the benefits and risk of ownership. Payments for operating leases are charged to expense over the lease term as
it becomes payable.

1.N. Other Assets
Other assets include travel advances that are not reported elsewhere on USACE’s Balance Sheet.

1.O. Accounts Payable
Accounts payable are the amounts owed, but not yet paid, by USACE for goods and services received from other entities, progress in
contract performance made by other entities, and rents due to other entities. USACE has no known delinquent accounts payable.

1.P. Debt
USACE debt consists of the amount owed to the U.S. Treasury for capital improvements to the Washington Aqueduct. USACE
entered into agreement with Arlington County and the City of Falls Church, Virginia, to provide funding to USACE to repay the
debt.

1.Q. Due to Treasury – General Fund
USACE reported an offsetting custodial liability for amounts Due to Treasury – General Fund for interest and accounts receivable
which, when collected, will be deposited in the U.S. Treasury.

1.R. Federal Employee and Veterans’ Benefits
The Federal Employees and Veterans’ Benefits liability consist of the actuarial liability for Federal Employees Compensation Act
benefits. The Department of the Army (DA) actuarial liability for workers’ compensation benefits is developed by the Department of
Labor (DOL) and provided to the DA at the end of each fiscal year. The liability for future workers’ compensation benefits includes
the expected liability for death, disability, medical and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims. The liability is determined using a method that utilizes historical benefit payment patterns related to
a specific incurred period to predict the ultimate payments related to that period. Consistent with past practice, these projected annual
benefit payments have been discounted to present value using the OMB’s economic assumptions for 10-year U.S. Treasury notes and
bonds.

1.S. Other Liabilities
USACE reports a liability for funded payroll and benefits, to include civilian earned leave, except sick leave, that has been accrued
and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the accounting period
reflects current pay rates.

The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of Contingent
Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future events occur or fail to occur. USACE
recognizes contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount can be
reasonably estimated. USACE discloses contingent liabilities when conditions for liability recognition do not exist but there is at least
a reasonable possibility of incurring a loss or additional losses.

Examples of loss contingencies include the collectability of receivables, pending or threatened litigation, and possible claims and
assessments. USACE’s risk of loss and resultant contingent liabilities arise from pending or threatened litigation or claims and
assessments due to events such as aircraft, ship and vehicle accidents; property or environmental damages; and contract disputes.
 56        FY 2011 United States Army Corps of Engineers Annual Financial Report


1.T. Environmental and Disposal Liabilities
Environmental and disposal liabilities include future costs to address government-related environmental contamination at USACE
sites and other sites at which USACE is directed by Congress to perform remediation work. USACE recognizes a liability for each
site as the need for cleanup work becomes probable and costs, based on site-specific engineering estimates, become measurable. Costs
to address environmental contamination not caused by the government are recorded as incurred. Cleanup remedies are selected from
feasible alternatives using the decision-making process prescribed by the Comprehensive Environmental Response, Compensation, and
Liability Act.

1.U. Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources are those liabilities for which Congressional action is needed before budgetary resources
can be provided.

1.V. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations include the amounts of authority that are unobligated and have not been rescinded or withdrawn.
Unexpended Appropriations also include amounts obligated for which legal liabilities for payments have not been incurred.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses, and
financing sources (including appropriations, revenue, and gains).

1.W. Allocation Transfers
USACE is a party to allocation transfers with other Federal agencies both as a transferring (parent) entity and receiving (child) entity.
Allocation transfers are legal delegations by one agency of its authority to obligate budget authority and outlay funds to another agency.
A separate fund account (allocation account) is created in the U.S. Treasury as a subset of the parent fund account for tracking and
reporting purposes. All allocation transfers of balances are credited to this account, and subsequent obligations and outlays incurred by
the child entity are charged to this allocation account as they execute the delegated activity on behalf of the parent entity. Generally,
all financial activity related to these allocation transfers (e.g., budget authority, obligations, outlays) is reported in the financial
statements of the parent entity, from which the underlying legislative authority, appropriations and budget apportionments are derived.
Exceptions to this general rule affecting USACE include certain U.S. Treasury-Managed Trust Funds for whom USACE is the parent
in the allocation transfer, but per OMB guidance, the child agencies will report budgetary and proprietary activity relative to these
allocation transfers in their financial statements. The U.S. Treasury-Managed Trust Funds, which are included in USACE financial
statements, are South Dakota Terrestrial Wildlife Habitat Restoration, Inland Waterways, and Harbor Maintenance trust funds. The
U.S. Treasury, Bureau of Public Debt, on behalf of USACE, makes allocation transfers from the Harbor Maintenance Trust Fund to
the Saint Lawrence Seaway Development Corporation and the U.S. Customs and Border Protection agency.

In addition to these funds, USACE received allocation transfers, as the child, from Departments of Agriculture, Interior,
Transportation, Energy and the Appalachian Regional Commission.
                                                                                                          Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                      57




Note 2. Nonentity Assets

 As of September 30                                                                   2011                          2010
 (Amount in thousands)
 Nonentity Assets
 Intragovernmental Assets
      Fund Balance with Treasury                                           $                    11,386     $                 20,783
      Total Intragovernmental Assets                                                            11,386                       20,783
      Cash and Other Monetary Assets                                       $                     1,195     $                    972
      Accounts Receivable                                                                    2,515,535                    2,484,625
      Total Nonfederal Assets                                              $                 2,516,730     $              2,485,597
 Total Nonentity Assets                                                    $                2,528,116      $             2,506,380
 Total Entity Assets                                                                       51,656,739                   55,600,156
 Total Assets                                                              $               54,184,855      $            58,106,536

Other Information
Intragovernmental Nonentity Fund Balance with Treasury consists of amounts collected into deposit and suspense accounts and is
not available for use in operations. Deposit and suspense accounts are used to record amounts held temporarily until ownership is
determined. USACE is acting as an agent or custodian for funds awaiting distribution.

Cash and Other Monetary Assets reflect the Disbursing Officer’s Accountability which is comprised of change funds for recreation
cashiers, disbursing officer’s cash, and foreign currency. The Disbursing Officer acts as an agent for the U. S. Treasury.

Non-Federal Accounts Receivable represents all receivables from non-Federal sources where USACE does not have specific statutory
authority to retain the receipts. These receivables consist of multiple types of long term agreements such as easements, sale of
hydroelectric power, recreational development, and long term water storage agreements.

Note 1.J and Note 5, Accounts Receivable, and Note 13, Due to Treasury – General Fund and Other Liabilities, provide additional
information related to long-term water storage agreements.



Note 3. Fund Balance with Treasury
 As of September 30                                                                   2011                          2010
 (Amount in thousands)
 Fund Balances
     General Funds                                                          $                12,745,069    $            18,099,959
     Revolving Funds                                                                          1,486,115                  1,541,288
     Trust Funds                                                                                110,517                     98,615
     Special Funds                                                                               75,435                     70,502
     Contributed Funds                                                                       1,066,755                      954,923
     Other Fund Types                                                                           48,711                      74,522
     Total Fund Balances                                                    $               15,532,602     $            20,839,809
 58        FY 2011 United States Army Corps of Engineers Annual Financial Report


Status of Fund Balance with Treasury
 As of September 30                                                                   2011                            2010
 (Amount in thousands)
 Unobligated Balance
     Available                                                            $                   8,477,001     $              11,069,132
     Unavailable                                                                                 51,487                              20
 Obligated Balance not yet Disbursed                                                        10,405,456                     13,134,605
 Nonbudgetary FBWT                                                                              80,434                         81,229
 Non FBWT Budgetary Accounts                                                                (3,481,776)                    (3,445,177)
 Total                                                                    $                 15,532,602      $              20,839,809


Other Information
The Status of Fund Balance with Treasury reflects the budgetary resources to support the FBWT and is a reconciliation between
budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect the budgetary
authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority that has
not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds invested in U.S. Treasury
securities that are temporarily precluded from obligation by law. Certain unobligated balances are restricted for future use and are not
apportioned for current use. Unobligated balances for trust fund accounts are restricted for use by the public law that established the
funds. USACE is the lead agency for reporting the financial data for the Inland Waterways, Harbor Maintenance, and South Dakota
Terrestrial Wildlife Habitat Restoration trust funds. These trust funds remain invested and restricted for use until transferred to meet
current expenditure requirements.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and those received
but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit and clearing accounts.

Non FBWT Budgetary Accounts reduces the Status of FBWT and includes borrowing authority, investment accounts, accounts
receivable and unfilled orders without advance from customers.
                                                                                                              Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                         59




Note 4. Investments and Related Interest
 As of September 30                                                                     2011
                                                                                     Amortized
                                                              Amortization                            Investments,        Market Value
                                                Cost                                (Premium) /
 (Amount in thousands)                                          Method                                     Net             Disclosure
                                                                                      Discount
 Intragovernmental Securities
                                                                 Effective
   Nonmarketable, Market-Based             $    6,495,067                      $          (37,322) $        6,457,745     $      6,704,814
                                                                 Interest
   Accrued Interest                                31,722                                         -            31,722               31,722

   Total Intragovernmental Securities      $    6,526,789                      $          (37,322) $        6,489,467     $      6,736,536


 As of September 30                                                                     2010
                                                                                     Amortized
                                                               Amortization                               Investments,        Market Value
                                                 Cost                               (Premium) /
 (Amount in thousands)                                           Method                                        Net             Disclosure
                                                                                      Discount
 Intragovernmental Securities
                                                                 Effective
   Nonmarketable, Market-Based             $     5,716,802                      $         (11,197)    $       5,705,605 $        5,987,352
                                                                 Interest
   Accrued Interest                                 35,708                                        -              35,708             35,708

   Total Intragovernmental Securities      $     5,752,510                      $         (11,197)    $       5,741,313 $        6,023,060



Other Information
The Federal Government does not set aside assets to pay future benefits or other expenditures associated with earmarked funds. The
cash receipts collected from the public for an earmarked fund are deposited in the U.S. Treasury, which uses the cash for general
Government purposes. Treasury securities are issued to USACE as evidence of its receipts. Treasury securities are assets to USACE and
liabilities to the U.S. Treasury. Because USACE and the U.S. Treasury are both Governmental entities, these assets and liabilities offset
each other from the standpoint of the Government as a whole. For this reason, they do not represent an asset or a liability in the U.S.
Government-wide financial statements.

Treasury securities provide USACE with authority to draw upon the U.S. Treasury to make future benefit payments or other
expenditures. When USACE requires redemption of these securities to make expenditures, the Government finances those
expenditures out of accumulated cash balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt, or
by curtailing other expenditures. This is the same way that the Government finances all other expenditures.

The breakdown of total net investments among the trust funds for FY 2011 is as follows: $6.3 billion in the Harbor Maintenance
Trust Fund, $42.3 million in the Inland Waterways Trust Fund, and $132.2 million in the South Dakota Terrestrial Wildlife Habitat
Restoration Trust Fund.

The breakdown of total net investments among the trust funds for FY 2010 is as follows: $5.6 billion in the Harbor Maintenance
Trust Fund, $53.0 million in the Inland Waterways Trust Fund, and $131.0 million in the South Dakota Terrestrial Wildlife Habitat
Restoration Trust Fund.

The U.S. Treasury also provides the investment market value based on the bid price provided by the Federal Reserve Bank of New York
on September 30, 2011 and September 30, 2010, respectively.
 60        FY 2011 United States Army Corps of Engineers Annual Financial Report



Note 5. Accounts Receivable, Net
 As of September 30                                                                        2011
                                                                                       Allowance For
                                                          Gross                                                      Accounts
                                                                                         Estimated
 (Amount in thousands)                                  Amount Due                                                 Receivable, Net
                                                                                       Uncollectibles
 Intragovernmental Receivables                    $                 647,913     $             N/A              $             647,913

 Nonfederal Receivables (From the Public)                        2,544,044                    (564)                        2,543,480

 Total Accounts Receivable                        $               3,191,957     $             (564)            $           3,191,393



 As of September 30                                                                        2010
                                                                                      Allowance For
                                                          Gross                                                   Accounts
                                                                                        Estimated
 (Amount in thousands)                                  Amount Due                                              Receivable, Net
                                                                                      Uncollectibles

 Intragovernmental Receivables                   $                  498,100       $          N/A               $               498,100

 Nonfederal Receivables (From the Public)                         2,505,004                  (627)                           2,504,377

 Total Accounts Receivable                       $                3,003,104       $          (627)             $             3,002,477



Other Information
As of September 30, 2011 and September 30, 2010, Accounts Receivables Intragovernmental include $421.2 million and $412.7
million, respectively, for amounts received from the Coastal Wetlands Restoration Trust Fund for projects in the New Orleans District.

As of September 30, 2011 and September 30, 2010, Accounts Receivable from the Public, net of allowances, stemming from long-
term water storage and Louisiana coastal restoration, flood control and hurricane protection agreements include $2.3 billion and $2.3
billion respectively. These agreements have maturity dates ranging from two to fifty years, and interest rates based on the U.S. Treasury
effective rate at the time of the agreement.
                                                                                                              Civil Works
          Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                      61




Note 6. Cash and Other Monetary Assets
 As of September 30                                                               2011                                2010
 (Amount in thousands)
 Cash                                                               $                                8    $                           14
 Foreign Currency                                                                               1,187                                958

 Total Cash and Foreign Currency                                    $                           1,195     $                          972



Other Information
Cash is the total of cash resources under the control of USACE, which includes coin, paper currency, negotiable instruments, and
amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar equivalent of both
purchased and nonpurchased foreign currencies held in foreign currency fund accounts.

USACE conducts operations overseas on behalf of the U.S. Government which involves the use of foreign currency. Foreign currency
fluctuations require adjustments to the original obligation amount at the time of payment. USACE does not separately identify
currency fluctuations.

USACE translates foreign currency to U.S. dollars utilizing the U.S. Treasury Prevailing Rate of Exchange. This rate is the most
favorable rate that would legally be available to the Federal Government for acquisition of foreign currency for its official disbursements
and accommodation of exchange transactions. There are no significant effects from changes in the foreign currency exchange rate.



Note 7. Operating Materials and Supplies
 As of September 30                                                                2011                                2010
 (Amount in thousands)
 Operating Materials and Supplies:
   Items Held for Use                                               $                         166,379     $                      156,518

 Totals                                                             $                         166,379     $                      156,518


Other Information
Operating materials and supplies (OM&S) is comprised of personal property to be consumed in normal operations. The OM&S
category includes materials used for constructing riverbank stabilization devices, spare and repair parts, and prepaid postage. USACE
applies moving average cost flow assumptions to arrive at the historical cost of the ending OM&S and cost of goods consumed.

As of September 30, 2011 and 2010, there were no differences between the carrying amount and the net realizable value of OM&S.
There are no restrictions on the use of OM&S.

USACE maintains OM&S stocks because many unique materials and supplies are not readily available in the market and will
eventually be needed.

As of September 30, 2011 and 2010, USACE does not have inventories, stockpile materials, seized or forfeited properties, or goods
held under price support and stabilization programs, as defined in SFFAS No. 3, “Accounting for Inventory and Related Property.”
 62         FY 2011 United States Army Corps of Engineers Annual Financial Report



Note 8. General Property, Plant & Equipment, Net
 As of September 30                                                                     2011
                                           Depreciation/                                                (Accumulated
                                                               Service          Acquisition                                    Net Book
                                           Amortization                                                 Depreciation/
                                                               Life (yrs)         Value                                          Value
 (Amount in thousands)                       Method                                                     Amortization)

 Major Asset Classes
   Land                                           N/A            N/A        $       8,996,292                        N/A   $     8,996,292
   Buildings, Structures, and Facilities          S/L          20 - 100            30,473,078       $       (15,544,837)        14,928,241
   Leasehold Improvements                         S/L         Lease term               44,547                   (40,695)             3,852
   Software                                       S/L           2 - 10                121,193                   (83,563)            37,630
   General Equipment                              S/L           5 - 50              1,733,679                  (885,802)           847,877
   Construction-in- Progress                      N/A            N/A                3,989,809                        N/A         3,989,809
   Other                                                                                  354                      (354)                  -
 Total General PP&E                                                         $     45,358,952        $       (16,555,251)   $    28,803,701

 Legend for Depreciation Methods:
 S/L = Straight Line   N/A = Not Applicable



 As of September 30                                                                     2010
                                              Depreciation/                                         (Accumulated
                                                               Service          Acquisition                                    Net Book
                                              Amortization                                          Depreciation/
                                                               Life (yrs)         Value                                          Value
 (Amount in thousands)                          Method                                               Amortization)
 Major Asset Classes
   Land                                           N/A             N/A       $      8,978,995                        N/A    $     8,978,995

   Buildings, Structures, and Facilities          S/L          20 - 100           29,647,022    $          (14,891,262)         14,755,760

   Leasehold Improvements                         S/L         Lease term              43,789                   (39,899)              3,890

   Software                                       S/L            2 - 10                90,072                  (80,822)              9,250

   General Equipment                              S/L            5 - 50             1,623,917                 (818,131)            805,786

   Construction-in- Progress                      N/A             N/A              3,811,484                        N/A          3,811,484

 Total General PP&E                                                         $     44,195,279    $          (15,830,114)    $    28,365,165

 Legend for Depreciation Methods:
 S/L = Straight Line   N/A = Not Applicable


Other Information
USACE currently operates and maintains 75 hydroelectric power plants, generating approximately 24% of America’s hydroelectric
power. All power generated by these hydroelectric power plants is transmitted to four Power Marketing Administrations for
distribution to power companies across the United States. The service life for USACE’s hydropower project related assets is derived
from guidance provided by the Federal Energy Regulatory Commission based on industry standards. The hydropower project related
assets make up $9.9 billion of the book value of USACE’s PP&E in FY 2011 and $9.4 billion in FY 2010.
                                                                                                               Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                           63


As of September 30, 2011, USACE recognized a loss of $22.4 million on general PP&E that had been removed from service based on
SFFAS No. 6, Accounting for Property, Plant, and Equipment, as amended. The loss recognized as of September 30, 2010 was $21.4
million.

As of September 30, 2011 and 2010, approximately $26.3 billion of the acquisition value recorded in the PP&E line is being
supported by alternate methods pursuant to the Memorandum of Agreement described in Note 1.L “General Property, Plant, and
Equipment.” The net book value is $11.9 billion at September 30, 2011, and $11.4 billion at September 30, 2010.

There are no restrictions on the use or convertibility of general PP&E.



Note 9. Stewardship Property, Plant and
Equipment (PP&E)
Information Related to Stewardship PP&E
Stewardship PP&E are assets whose properties resemble those of the General PP&E that are traditionally capitalized in the financial
statements. Due to the nature of these assets, however, valuation would be difficult and matching costs with specific periods would not
be meaningful. Stewardship PP&E includes heritage assets. Heritage assets are items of historical, natural, cultural, educational, or
artistic significance, (e.g., aesthetic) or items with significant architectural characteristics. Heritage assets are expected to be preserved
indefinitely.

Relevance to USACE Mission
USACE, as a steward of public land, has the responsibility for ensuring that properties of a historical or traditional nature located on
USACE lands are preserved and managed appropriately. USACE implements Cultural Resource Management in a positive manner
that fulfills the requirements of all laws, regulations, and policies, for all project undertakings in an environmentally and economically
sound manner, and in the interest of the American public.

Stewardship Policy
USACE has the responsibility to manage cultural resources on USACE-owned lands. Engineering Regulations 1105-2-100 and
1130-2-540 provide the basic guidance for USACE Civil Works Program. The term “cultural resources” refers to any building, site,
structure, object, or other material significant in history, architecture, archeology, or culture. Historic properties are sites that are
eligible for inclusion in National Register of Historic Places. The National Register is an inventory of historic properties important
in our Nation’s history, culture, architecture, archeology, and engineering. The National Register office in the National Park Service
maintains the inventory. Properties are either listed on the National Register of Historic Places, have formally been determined
eligible, or appear to meet eligibility criteria to be listed. In addition to the Engineering Regulations, USACE also adheres to Army
Regulations 200-4 and 870-20 related to managing cultural resources and heritage assets.

Heritage Asset Categories
1.   Buildings and Structures. Buildings and structures are those listed on, or eligible for listing on, the National Register of Historic
     Places. Buildings and structures include a range of historic resources from a covered bridge in Sacramento District to early
     farming structures in Savannah District. They also include some non-traditional structures, such as a snag boat that operated on
     the Mississippi River. There are 95 buildings and structures listed on the National Register and 265 determined eligible for listing.
     There are a total of 360 heritage assets in this category; this reflects an addition of 69 buildings and structures from the prior fiscal
     year end report.

2.   Archeological Sites. Cemeteries and archeological sites are archeological properties listed on or eligible for listing in the
     national Register of Historic Places. The current National Register inventory for USACE included 442 archeological properties
     determined to be eligible for listing and 119 archeological properties listed. This total of 561 archeological sites reflects a decrease
     of 115 from the prior fiscal year end report.
 64          FY 2011 United States Army Corps of Engineers Annual Financial Report


3.   Museum Collection Items (Objects). Museum collection items are unique for one or more of the following reasons: historical
     or natural significance; cultural, educational or artistic importance; or significant technical or architectural characteristics. These
     items are divided into two subcategories: fine art and objects. These include museum collection items that have historical or
     cultural significance, but lack formal listing and the demonstrated need for active maintenance. There are a total of 201 heritage
     assets in this category. This reflects an addition of 6 museum collection items from the prior fiscal year end report.


                                                Heritage Assets as of September 30, 2011

                                  Buildings and Structures                                    360
                                  Archeological Sites                                         561
                                  Museum Collection Items (objects)                           201


                                                Heritage Assets as of September 30, 2010

                                  Buildings and Structures                                    291
                                  Archeological Sites                                         676
                                  Museum Collection Items (objects)                           195


Acquisition and Withdrawal of Heritage Assets
USACE removed a net of 40 heritage assets during FY 2011 from the “eligible for” listing.



Note 10. Liabilities Not Covered by Budgetary
Resources
 As of September 30                                                                      2011                             2010
 (Amount in thousands)
 Intragovernmental Liabilities
     Debt                                                                    $                        5,114    $                      5,634
     Due to Treasury - General Fund                                                              2,515,535                       2,484,625
     Other                                                                                          236,897                         227,300
 Total Intragovernmental Liabilities                                         $                  2,757,546      $                  2,717,559
     Federal Employee and Veterans’ Benefits                                                        251,076                         243,460
     Environmental and Disposal Liabilities                                                     1,078,592                         1,038,122
     Contingent Liabilities                                                                         438,151                          40,489
 Total Liabilities Not Covered by Budgetary Resources                        $                  4,525,365      $                 4,039,630
 Total Liabilities Covered by Budgetary Resources                                               3,621,268                        3,723,356
 Total Liabilities                                                           $                  8,146,633      $                  7,762,986


Other Information
Intragovernmental Liabilities – Debt is comprised of the amount owed by USACE to the U.S. Treasury for capital improvements to the
Washington Aqueduct. Arlington County and the City of Falls Church, Virginia provide funding to USACE to repay the debt. Refer
to Note 11, “Debt,” for additional details and disclosures.
                                                                                                            Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                        65


Intragovernmental Liabilities – Due to Treasury - General Fund includes offsetting custodial liability to accounts receivable. The
custodial liability is for amounts that will be deposited in the general fund of the U.S. Treasury when collected and are primarily related
to Long Term Water Storage and Louisiana coastal restoration, flood control and hurricane protection agreements. Budgetary resources
are not required for these types of liabilities.

Intragovernmental Liabilities – Other includes Judgment Fund liabilities-Contract Dispute Act (CDA), and workmen’s compensation
liabilities under the Federal Employees Compensation Act (FECA). The FECA liability will be funded in future appropriations.

Federal Employee and Veterans’ Benefits include actuarial liability for FECA. Refer to Note 13, “Due to Treasury - General Fund and
Other Liabilities,” for additional details and disclosures. The FECA actuarial liability is a future funded expense and will be funded in
future appropriations.

Environmental and Disposal Liabilities represent estimated cleanup costs for environmental liabilities, which will be funded in future
appropriations. Refer to Note 12, “Environmental and Disposal Liabilities,” and Note 13, “Due to Treasury - General Fund and Other
Liabilities,” for additional details and disclosures.

Contingent liabilities represent probable losses related to lawsuits filed against USACE. Contingent liabilities may be funded in future
appropriations. Refer to Note 14 “Contingencies” for additional details and disclosures.



Note 11. Debt
 As of September 30                                                                         2011
 (Amount in thousands)                                    Beginning Balance             Net Borrowing                Ending Balance

 Agency Debt (Intragovernmental)

 Debt to the Treasury                                 $                 5,634    $                 (520)     $                    5,114


 As of September 30                                                                         2010
 (Amount in thousands)                                    Beginning Balance             Net Borrowing                Ending Balance

 Agency Debt (Intragovernmental)

 Debt to the Treasury                                 $                 8,074    $               (2,440)     $                    5,634


Other Information
The outstanding debt consists of interest and principal payments due to the U.S. Treasury. USACE executed three promissory notes
totaling $75.0 million with the U.S. Treasury for capital improvements to the Washington Aqueduct. USACE entered into agreements
with Arlington County and the City of Falls Church, Virginia to provide funding to USACE to repay the debt. USACE recognized
a receivable for $5.1 million in principal and current interest due from Arlington County and the City of Falls Church, Virginia, as
of September 30, 2011. The remaining debt balance is scheduled to be paid off in FY 2023. Actual cumulative amount of funds
borrowed from the U.S. Treasury is $74.9 million of which $5.1 million is outstanding at September 30, 2011 and $5.6 million is
outstanding at September 30, 2010. There were no withdrawals from the U.S. Treasury for FY 2011 or FY 2010. Total principal
repayments in FY 2011 were $520.5 thousand and total principal repayments in FY 2010 were $2.4 million.
    66     FY 2011 United States Army Corps of Engineers Annual Financial Report



Note 12. Environmental and Disposal Liabilities
 As of September 30                                                                   2011                             2010
 (Amount in thousands)
 Formerly Utilized Sites Remedial Action Program (FUSRAP)                     $             1,069,551      $                   1,026,985
 Other                                                                                           9,041                             11,137
 Total Environmental and Disposal Liabilities                                 $             1,078,592      $                   1,038,122


Assumptions and Uncertainties
Estimating environmental liabilities requires making assumptions about future activities and is inherently uncertain. The cleanup
estimates reflect local decisions and expectations as to the extent of cleanup and site reuse, and include assessments of the effort
required to complete the project based on data collected during the remedial investigation and feasibility study phases of each
project. For most projects, the volume of contaminated material to be removed and the cost to dispose of such material, including
transportation, are the elements of the estimates with the greatest uncertainty and potential for significant increase in project costs. For
some projects the estimate includes contingency provisions intended to account for the uncertainties associated with estimating these
elements and other factors.

Based on the inherent uncertainties associated with environmental cleanup the initial cost estimate for each site is not exact and will
change as more relevant data becomes available. Estimates are refined as alternative approaches are evaluated and a preferred alternative
is approved in a record of decision.

USACE considers various key factors in determining whether future outflows of resources can be reasonably estimated, including:

■    Completion of remedial investigation/feasibility study or other study,

■    Experience with similar site and/or conditions, and

■    Availability of remediation technology.

In addition to the liability amount reported above, USACE is subject to other potential environmental liabilities for which the exact
amount or range of loss is unknown.

Formerly Utilized Sites Remedial Action Program
USACE is responsible for the Formerly Utilized Sites Remedial Action Program (FUSRAP), established to respond to radiological
contamination from early U.S. Atomic Energy and Weapons Programs. For each FUSRAP site, USACE has received Congressional
authorization to ascertain the extent of environmental contamination; select a remedy with input from state and federal authorities and
local stakeholders; perform the cleanup work; and dispose of wastes. After cleanup work is completed at each site, USACE transfers
responsibility for long-term surveillance and monitoring to the U.S. Department of Energy.

Changes in the FUSRAP liability during the fiscal years ended September 30, 2011 and 2010 resulted from inflation adjustments to
reflect changes in costs for the current year, cleanup activities performed, and adjustments to estimates of soil volumes.

Other Environmental Liabilities
Other environmental liabilities relate to environmental contamination at current or former USACE project sites.
                                                                                                        Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                   67




Note 13. Due to Treasury — General Fund and
Other Liabilities
 As of September 30                                                                          2011
 (Amount in thousands)                                           Current Liability     Noncurrent Liability             Total
 Intragovernmental
 Due to Treasury-General Fund                                $              281,755   $            2,233,780     $        2,515,535
 Advances from Others                                        $              705,334   $                     -    $          705,334
 Deposit Funds and Suspense Account Liabilities                               (154)                         -                 (154)
 Disbursing Officer Cash                                                      1,195                         -                 1,195
 Judgment Fund Liabilities                                                  186,274                         -               186,274
 FECA Reimbursement to the Department of Labor                               21,810                   28,813                 50,623
 Employer Contribution and Payroll Taxes Payable                             29,945                         -                29,945
 Total Intragovernmental                                     $            1,226,159   $            2,262,593     $        3,488,752
 Accrued Funded Payroll and Benefits                         $              522,221   $                     -    $          522,221
 Advances from Others                                                       164,682                         -               164,682
 Deferred Credits                                                         1,065,817                         -             1,065,817
 Deposit Funds and Suspense Accounts                                         11,386                         -                11,386
 Contract Holdbacks                                                          69,212                         -                69,212
 Contingent Liabilities                                                     438,151                         -               438,151
 Total Other Liabilities                                     $            3,497,628   $            2,262,593     $        5,760,221



 As of September 30                                                                           2010
 (Amount in thousands)                                           Current Liability     Noncurrent Liability             Total
 Intragovernmental
 Due to Treasury-General Fund                                $             191,960    $            2,292,665    $         2,484,625
 Advances from Others                                        $             772,277    $                     -   $           772,277
 Deposit Funds and Suspense Account Liabilities                              (130)                          -                 (130)
 Disbursing Officer Cash                                                       972                          -                   972
 Judgment Fund Liabilities                                                 176,981                          -               176,981
 FECA Reimbursement to the Department of Labor                              22,026                    28,293                 50,319
 Employer Contribution and Payroll Taxes Payable                            25,961                          -                25,961
 Total Intragovernmental                                     $           1,190,047    $            2,320,958    $         3,511,005
 Accrued Funded Payroll and Benefits                         $             530,682    $                     -   $           530,682
 Advances from Others                                                      203,193                          -               203,193
 Deferred Credits                                                          950,285                          -               950,285
 Deposit Funds and Suspense Accounts                                        20,783                          -                20,783
 Contract Holdbacks                                                         65,031                          -                65,031
 Contingent Liabilities                                                     40,489                          -                40,489
 Total Other Liabilities                                     $           3,000,510    $            2,320,958    $         5,321,468


Other Information
Intragovernmental - Due to Treasury – General Fund is the custodial liability held with U.S. Treasury for repayment of interest and
accounts receivable which, when collected, will be deposited in the U.S. Treasury. USACE records a custodial liability for payables
from water storage and hydraulic mining contracts and for flood control, coastal restoration and hurricane protection measures with
the Coastal Protection and Restoration Authority of Louisiana.
 68        FY 2011 United States Army Corps of Engineers Annual Financial Report


Judgment Fund Liabilities - USACE has recognized an unfunded liability arising from Judgment Fund Contract Disputes Act (CDA)
settlements in accordance with a provision of the CDA requiring agencies to reimburse the Judgment Fund for payments to claimants
in cases involving federal contract disputes. USACE cannot fund the CDA claims since it is funded for projects and does not receive
funding for this type of claim. USACE sought supplemental appropriations for payment of CDA claims in FY 2000, FY 2006, and FY
2007, but these requests were not approved. The FY 2012 budget does not provide funding for payment of the CDA claims.



Note 14. Contingencies
Legal Contingencies
USACE is a party in various administrative proceedings and legal actions related to claims for environmental damage, equal
opportunity matters, and contractual bid protests. USACE has accrued contingent liabilities for legal actions where USACE’s Office of
the Chief Counsel considers an adverse decision probable and the amount of loss is measurable. In the event of an adverse judgment
against the Government, some of the liabilities may be payable from the U.S. Treasury’s Judgment Fund. USACE discloses amounts
recognized as contingent liabilities in Note 13, Due to Treasury – General Fund and Other Liabilities.

The U.S. Army Claims Service supervises processing, investigates, adjudicates, and negotiates the settlement of non-contractual
administrative claims on behalf of and against the Department of the Army (including USACE); however, because of their uniqueness,
the hurricane Katrina-related administrative claims are processed by the U.S. Department of Justice (DOJ). By law, administrative
claims filed against the Government are either adjudicated, denied, or are effectively denied if no action is taken within six months
from the claim filing date. Barring such resolution within six months from the date of filing, claimants may file legal cases with the
Federal Court. Filing of an administrative claim for resolution is a required precursor to a claimant’s filing against the Government in
Federal Court.

Claims settled below the statutory threshold of $2,500 are paid using Civil Works appropriations; settlements above this threshold
are referred to the Judgment Fund for payment. With the exception of CDA settlements disclosed in Note 13, amounts paid by the
Judgment Fund are recorded as expenses and imputed financing sources.

Probable Likelihood of an Adverse Outcome
USACE is subject to potential liabilities where adverse outcomes are probable, and claims are approximately $438.2 million and
$40.5 million as of September 30, 2011, and 2010, respectively. The contingent liabilities were included in Note 13. The increase in
potential liabilities from 2010 to 2011 is related to the progression of legal cases and an associated change in reporting from reasonable
possible to probable.

Reasonably Possible Likelihood of an Adverse Outcome
USACE is subject to potential liabilities where adverse outcomes are reasonably possible, and claims are approximately $7.9 billion and
$10.4 billion as of September 30, 2011, and 2010, respectively.

Hurricane Katrina-Related Claims and Litigation
Various parties filed administrative claims and lawsuits against USACE as a result of hurricane Katrina in 2005. Most of the Katrina-
related litigation is consolidated before a single federal judge sitting in the Federal District Court in New Orleans. The Court, for case
management purposes, has classified the individual cases into seven categories and ordered the filing of superseding, master complaints
in most categories: Levee, Mississippi River Gulf Outlet (MRGO), Insurance, Responder, Dredging Limitation, St. Rita Nursing
Home, and Barge. The MRGO category, the Barge category, and Robinson, involving similar geographic areas, are most relevant to
USACE at this point.

Concerning the Levee Master consolidated class action complaint, the Court granted the United States’ motion to dismiss. On
October 14, 2010, the Court certified this decision as a final judgment. On November 9, 2011, the U.S. Fifth Circuit Court of
Appeals will hear oral argument on Plaintiff’s appeal of this judgment.
                                                                                                            Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                       69


The Government filed a motion to dismiss the MRGO case with regard to the application of the discretionary function exception
to the activities performed at the East Bank Industrial Area (EBIA) on September 15, 2009. By Order entered February 2, 2010,
the Court granted the motion dismissing EBIA allegations without prejudice, allowing for the refiling of those claims by those class
representatives who had prematurely filed suit. Plaintiffs have subsequently refiled a new suit with the identical claims. The Court
further allowed the consolidation of a suit by the Entergy power companies that raises these same MRGO and EBIA allegations and
also specifically excepted Entergy from the MRGO stay imposed on other parties and litigation. The United States filed its motion to
dismiss EBIA allegations on August 3, 2010, and an oral argument was held on October 13, 2010. On February 11, 2011, the court
denied the United States’ motion to dismiss the EBIA allegations. Discovery is now under way with regards to the EBIA allegations,
with a three-week trial set to commence on July 23, 2012.

In the Ingram Barge case, by Order entered June 22, 2009, the Court severed and stayed the third party claims of Lafarge against
the United States until 90 days after a decision is rendered by the Fifth Circuit in Robinson or until 90 days after a final resolution
of Robinson by the Supreme Court in the event that a writ of certiorari is sought, or until the passage of 18 months from the Order,
whichever date is sooner. This Order grants the United States’ motion brought as a result of the Court’s stay issued on May 4, 2009, in
the MRGO category.

The DOJ, which is responsible for litigating Katrina-related matters in Federal Court on behalf of the Government, has concluded that
there is a reasonable possibility that the Katrina-related administrative claims and court cases currently asserted could result in a loss
to the Federal Government. The Government is unable to estimate the amount of any loss that may result; however, USACE has not
recorded a provision for Katrina-related matters in the consolidated financial statements.

Other Litigation
In addition to the matters described above, USACE is subject to other potential liabilities for which the exact amount or range of loss is
unknown.

Commitments and Other Contingencies
USACE does not have undelivered orders for open contracts citing cancelled appropriations which may remain unfilled or
unreconciled, and for which the reporting entity may incur a contractual commitment for payment.

USACE does not have contractual arrangements which may require financial obligations, such as fixed price contracts with escalations,
price redetermination, or incentive clauses, which may require future financial obligations.



Note 15. General Disclosures Related to the
Statement of Net Cost
 As of September 30                                                               2011                               2010
 (Amount in thousands)
 Intragovernmental Costs                                                 $                 1,681,577          $               1,579,695

 Public Costs                                                                            12,575,900                          11,506,131
 Total Costs                                                             $                14,257,477          $             13,085,826
 Intragovernmental Earned Revenue                                        $                (2,976,802)         $             (2,375,350)
 Public Earned Revenue                                                                     (694,580)                          (639,244)
 Total Earned Revenue                                                    $               (3,671,382)          $             (3,014,594)
 Net Cost of Operations                                                  $               10,586,095           $              10,071,232
 70        FY 2011 United States Army Corps of Engineers Annual Financial Report


Other Information
Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal Government.
Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The consolidated Statement of Net Cost (SNC) is unique because its principles are driven on understanding the net cost of programs
and/or organizations that the Federal Government supports through appropriations or other means. The SNC represents the Civil
Works Program for USACE.

USACE incurred no costs associated with acquiring, constructing, improving, reconstructing or renovating heritage assets.



Note 16. Disclosures Related to the Statement of
Changes in Net Position
Other Information
Appropriations received on the Statement of Budgetary Resources (SBR) should not and do not agree with appropriations received
on the Statement of Changes in Net Position (SCNP) due to differences between proprietary and budgetary accounting concepts
and reporting requirements. The difference is due to additional resources of $1.5 billion during FY 2011 and $1.4 billion during FY
2010 in appropriated trust, contributed, and special fund receipts included in Appropriation on the SBR. These funds do not update
the proprietary appropriations received amount reported on the SCNP. Refer to Note 17, “Statement of Budgetary Resources,” for
additional disclosures and details.



Note 17. Disclosures Related to the Statement of
Budgetary Resources
 As of September 30                                                                2011                            2010
 (Amount in thousands)
 Net Amount of Budgetary Resources Obligated for
 Undelivered Orders at the End of the Period                            $                 8,689,826     $                   11,283,832


Other Information
Category A apportionments distribute budgetary resources by fiscal quarter. Category B apportionments distribute budgetary resources
by activity, project, object or a combination of these categories. Exempt budgetary resources are not subject to apportionment because
they are not appropriated funds. Funding sources for exempt category comes from sources outside the Federal Government.

For FY 2011, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category A SBR
includes: $9.3 billion for direct obligations; $10.7 billion for reimbursable obligations; and $59.8 million for reimbursable
obligations exempt from apportionment. USACE did not report any direct obligations exempt from apportionment. USACE has no
apportionments under Category B. Undelivered orders presented in the SBR include undelivered orders-unpaid for both direct and
reimbursable funds.

For FY 2010, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category A SBR
includes: $12.9 billion for direct obligations; $10.8 billion for reimbursable obligations; and $39.0 million for reimbursable
obligations exempt from apportionment. USACE did not report any direct obligations exempt from apportionment. USACE has no
apportionments under Category B. Undelivered orders presented in the SBR include undelivered orders-unpaid for both direct and
reimbursable funds.
                                                                                                           Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                       71


Intraentity transactions have not been eliminated because the SBR is presented as a combined statement.

Permanent Indefinite Appropriations. USACE receives receipts from hydraulic mining in California; leases of land acquired for flood
control, navigation, and allied purposes; and licenses under the Federal Power Act for improvements of navigable water including
maintenance and operation of dams. These funds are available for expenditure.

There are no legal arrangements that affect the use of unobligated balances of budget authority.

There are differences between amounts reported on the SBR and the SF133, Report on Budget Execution (SF133) for FY 2011 and FY
2010. Treasury account symbol 96X6094 (Advances from the District of Columbia) is not included in the SF133. This money is not
from appropriated funds and is not included in the OMB’s data for budget formulation. USACE does include this appropriation in
the SBR.

The President’s Budget with actual figures for FY 2011 has not yet been published. The FY 2013 President’s Budget will include
actual figures for FY 2011 reporting. The FY 2013 President’s Budget can be found at: http://www.whitehouse.gov/omb, early in FY
2012. The following chart is a reconciliation of the FY 2012 President’s Budget actual figures for FY 2010 to FY 2010 Statement of
Budgetary Resources as required by OMB Circular No. A-136.


                                              U.S. Army Corps of Engineers - Civil Works
                                      Reconciliation of FY 2010 SBR to 2012 President's Budget
                                                         (Amounts in millions)

                  Budgetary      Obligations    Offsetting
                  Resources       Incurred       Receipts     Net Outlays
                  Line 1930      Line 0900      Line 0299     Line 4190               Explanation for reconciling differences
 SBR                  34,856         23,787            709         9,915
                                                                            The SBR includes Treasury symbol 96X6094 for advances
                                                                            from the District of Columbia for work on the Washington
 Reconciling                                                                Aqueduct. It is not included in the President’s budget since
 Difference               (54)           (39)                        (40)   these are not appropriated funds.
 Reconciling
 Difference             (363)          (363)                        (363)   Prior year adjustment related to cost share projects.
                                                                            The SBR reduces net outlays by the amount of distributed
 Reconciling                                                                offsetting receipts. The President's Budget Line
 Difference                                                         1,071   Item 4190 does not.
                                                                            General funds clearing accounts are included as
                                                                            distributed offsetting receipts in accordance with DFAS
 Reconciling                                                                yearend guidance. It is not included in the President’s
 Difference                                          (122)                  Budget amount.
                                                                            The President’s Budget line 0299 includes total receipts
                                                                            and collections for the trust funds. The SBR includes only
                                                                            USACE’s distributed offsetting receipts to South Dakota
                                                                            Terrestrial Wildlife per Treasury Financial Manual, Federal
                                                                            Account Symbols and Titles (FAST Book). Other trust fund
 Reconciling                                                                receipts are included in the budgetary resources, line
 Difference                                          1,377                  0299.
                                                                            Per the FAST Book, receipt account
                                                                            96R 5125 is not a distributed offsetting receipt account
 Reconciling                                                                and is not included in the SBR as a distributed offsetting
 Difference                                               4                 receipt. It is included in the President’s Budget amount.
 Reconciling
 Difference              189           189                                  Reversal of prior year adjustments.
 Totals               34,628         23,574          1,968        10,583
 President's
 Budget               34,631         23,576          1,967        10,584
 Difference                3              2             (1)            1    Due to rounding.
72        FY 2011 United States Army Corps of Engineers Annual Financial Report



Note 18. Reconciliation of Net Cost of Operations
(Proprietary) to Budget
As of September 30                                                                 2011                   2010
(Amount in thousands)
Resources Used to Finance Activities:
Budgetary Resources Obligated:
Obligations incurred                                                           $      20,103,323      $      23,787,144
   Less: Spending authority from offsetting collections and recoveries               (12,013,865)           (10,967,269)
Obligations net of offsetting collections and recoveries                       $          8,089,458   $      12,819,875
   Less: Offsetting receipts                                                              (696,399)              (708,601)
Net obligations                                                                $          7,393,059   $      12,111,274
Other Resources:
Donations and forfeitures of property                                                        3,206                    708
Transfers in/out without reimbursement                                                     113,610                595,618
Imputed financing from costs absorbed by others                                            342,546                335,531
Net other resources used to finance activities                                 $           459,362    $           931,857
Total resources used to finance activities                                     $          7,852,421   $      13,043,131

Resources Used to Finance Items Not Part of the Net Cost of Operations:

Change in budgetary resources obligated for goods, services and benefits
ordered but not yet provided:
    Undelivered Orders                                                         $          2,594,006   $      (1,802,728)
    Unfilled Customer Orders                                                              (168,471)              (130,179)
Resources that fund expenses recognized in prior periods                                          -                  (773)
Budgetary offsetting collections and receipts that do not affect Net Cost of
                                                                                           192,332                178,791
Operations
Resources that finance the acquisition of assets                                           (16,324)               (59,128)
Other resources or adjustments to net obligated
resources that do not affect Net Cost of Operations:
    Less: Trust or Special Fund Receipts
                                                                                                  -                      -
          Related to exchange in the Entity’s Budget
     Other                                                                                (116,816)              (596,327)

Total Resources Used to Finance Items Not Part of the Net Cost of Operations   $          2,484,727   $      (2,410,344)
Total Resources Used to Finance the Net Cost of Operations                     $      10,337,148      $      10,632,787
                                                                                                          Civil Works
         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                     73


Note 18. Reconciliation of Net Cost of Operations (Proprietary) to Budget, continued

 As of September 30                                                                    2011                          2010
 (Amounts in thousands)
 Components of the Net Cost of Operations That Will Not Require
  or Generate Resources in the Current Period:
 Components Requiring or Generating Resources in
  Future Period:
 Increase in environmental and disposal liability                         $                      40,470 $                       3,330

 Increase in exchange revenue receivable from the public                                       108,730                       180,129
 Other                                                                                          414,875                        10,037
 Total components of Net Cost of Operations that will Require
   or Generate Resources in future periods                                $                    564,075 $                     193,496
 Components not Requiring or Generating Resources:
 Depreciation and amortization                                                                 739,619                       436,140
 Revaluation of assets or liabilities                                                             2,119                        57,278
 Other
     Cost of Goods Sold                                                                             297                             371
     Operating Material and Supplies Used                                                            26                             69
     Cost Capitalization Offset                                                             (1,197,685)                   (1,328,535)
     Other                                                                                     140,496                         79,626

 Total Components of Net Cost of Operations that
  will not Require or Generate Resources                                  $                   (315,128) $                   (755,051)
 Total components of Net Cost of Operations That Will Not Require
 or Generate Resources in the Current Period                              $                     248,947 $                   (561,555)
 Net Cost of Operations                                                   $                 10,586,095 $                  10,071,232


Other Information
The following note schedule lines are presented as combined instead of consolidated due to intraentity budgetary transactions not
being eliminated:

    ■    Obligations Incurred

    ■    Spending Authority from Offsetting Collections and Recoveries

    ■    Obligations Net of Offsetting Collections and Recoveries

    ■    Offsetting Receipts

    ■    Net Obligations

    ■    Undelivered Orders

    ■    Unfilled Customer Orders

Composition of Other Resources – Other, and Other Resources or Adjustments to Net Obligated Resources that do not Affect Net
Cost of Operations: Other – The FY 2011 and FY 2010 amounts include the net amount of assets transferred between USACE and
other government agencies.

Composition of Components Requiring or Generating Resources in Future Periods: Other - The FY 2011 amounts include the current
year increase to unfunded Judgment Fund Contract Disputes Act claims, Federal Employees’ Compensation (FECA) liability and the
 74        FY 2011 United States Army Corps of Engineers Annual Financial Report


FECA actuarial liability. The FY 2010 amount includes current year Judgment Fund Contract Disputes Act claims and current year
unfunded expense for the FECA liability.

Composition of Components not Requiring or Generating Resources: Other – The FY 2011 and FY 2010 amounts include bad debt
expense and cost capitalization offset expense. The cost capitalization offset account provides a mechanism to offset all direct costs
in the expense accounts when those costs are subsequently capitalized into an in-process account. Current year costs associated with
nonfederal cost share projects in the contributed fund and costs related to the acquisition of operating materials and supplies in the
revolving fund are also recorded as other expenses not requiring budgetary resources. In FY 2011 and FY 2010 costs associated with
fish mitigation studies in the general fund are also recorded as other expenses not requiring budgetary resources.
                                                                                                  Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                        75




Note 19. Earmarked Funds
                                                                           2011
BALANCE SHEET
As of September 30                                       Contributed                                          Consolidated
                             Special Funds                                 Trust Funds       Eliminations
(Amounts in thousands)                                     Funds                                                 Total

ASSETS
Fund balance with
  Treasury               $          75,435           $      1,066,755 $        110,517 $                - $    1,252,707
Investments                                  -                         -     6,357,258                  -      6,357,258
Accounts and Interest                5,509                        703         436,204            (13,425)        428,991
 Receivable
Other Assets                         1,855                     37,121          714,632                  -        753,608
Total Assets             $          82,799           $      1,104,579 $      7,618,611 $         (13,425) $    8,792,564
LIABILITIES and NET
POSITION
Accounts Payable and
 Other Liabilities       $              239 $               1,092,494 $           19,762 $       (13,754) $     1,098,741
Total Liabilities        $              239 $               1,092,494 $           19,762 $       (13,754) $     1,098,741
Cumulative Results of
 Operations                          82,560                    12,085        7,598,849         3,126,032       10,819,526
Total Liabilities and
  Net Position           $           82,799 $               1,104,579 $      7,618,611 $       3,112,278 $     11,918,267
STATEMENT OF NET COST
Program Costs            $           19,155 $                 387,068 $           70,640 $       (38,751) $       438,112
Less Earned Revenue                              -           (393,274)                   -              6        (393,268)
Net Program Costs        $           19,155 $                  (6,206) $          70,640 $       (38,745) $        44,844
Net Cost of Operations   $           19,155 $                  (6,206) $          70,640 $       (38,745) $        44,844
STATEMENT OF CHANGES
IN NET POSITION
Net Position Beginning
 of the Period           $            76,073 $                 12,644 $      6,957,796 $       2,145,754 $      9,192,267
Net Cost of Operations   $           19,155                    (6,206) $          70,640 $       (38,745) $        44,844
Budgetary Financing
 Sources                             25,629 $                          -      848,225            926,702        1,800,556
Other Financing
 Sources                                     13                (6,765)       (136,532)            14,831         (128,453)
Change in Net Position   $             6,487 $                   (559) $       641,053 $         980,278 $      1,627,259
Net Position End of
 Period                  $           82,560 $                  12,085 $      7,598,849 $       3,126,032 $     10,819,526
 76          FY 2011 United States Army Corps of Engineers Annual Financial Report


Note 19. Earmarked Funds, continued

                                                                                2010
                                                                                2011
 BALANCE SHEET
 As of September 30                                       Contributed                                                     Consolidated
                                  Special Funds                                  Trust Funds         Eliminations
 (Amounts in thousands)                                     Funds                                                            Total
 ASSETS
 Fund balance with
  Treasury                    $           70,502 $              954,923 $              98,615 $                   - $         1,124,040
 Investments                                       -                     -          5,741,313                     -           5,741,313
 Accounts and Interest
  Receivable                                4,970                    566              429,023             (20,300)              414,259
 Other Assets                               1,856                 37,952              716,070                     -            755,878
 Total Assets                 $           77,328 $              993,441 $           6,985,021 $           (20,300) $         8,035,490
 LIABILITIES and NET
 POSITION
 Accounts Payable and
 Other Liabilities            $             1,255 $             980,797 $              27,225 $           (20,788) $           988,489
 Total Liabilities            $             1,255 $             980,797 $              27,225 $           (20,788) $           988,489
 Cumulative Results of
  Operations                               76,073                 12,644            6,957,796           2,145,754            9,192,267
 Total Liabilities and
   Net Position               $           77,328 $              993,441 $           6,985,021 $         2,124,966 $         10,180,756
 STATEMENT OF NET COST
 Program Costs                $           15,795 $              412,450 $             116,393 $           (33,543) $           511,095
 Less Earned Revenue                      (3,060)              (349,563)                    (1)                163            (352,461)
 Net Program Costs            $           12,735 $                62,887 $            116,392 $           (33,380) $           158,634
 Net Cost of Operations       $           12,735 $                62,887 $            116,392 $           (33,380) $           158,634
 STATEMENT OF CHANGES
 IN NET POSITION
 Net Position Beginning
 of the Period                $           11,061 $                85,794 $          6,637,926 $         1,000,387 $          7,735,168
 Net Cost of Operations       $           12,735 $                62,887 $            116,392 $           (33,380) $           158,634
 Budgetary Financing
 Sources                                  77,726                         -            639,424             897,958             1,615,108
 Other Financing Sources                          21            (10,263)            (203,162)             214,029                    625
 Change in Net Position       $           65,012 $              (73,150) $            319,870 $         1,145,367 $          1,457,099
 Net Position End of
 Period                       $            76,073 $               12,644 $          6,957,796 $         2,145,754 $          9,192,267


Other Disclosures
All intragovernmental activity within USACE between earmarked and nonearmarked funds has been eliminated from the consolidated
total column, which causes assets to not equal liabilities and net position.

USACE earmarked funds are presented by fund type vice individual fund due to the volume of individual earmarked funds based on
SFFAS No. 27, “Identifying and Reporting Earmarked Funds.”

There has been no change in legislation during or subsequent to the reporting periods and before the issuance of the financial
statements that significantly changes the purpose of these funds or that redirects a material portion of the accumulated balances.
                                                                                                              Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                          77


USACE has the following Earmarked Funds as of September 30, 2011 and 2010:

Special Funds
Special Recreation Use Fees. Title 16 United States Code (USC) 4601-6a granted USACE the authority to charge and collect fair
and equitable Special Recreation Use Fees at recreation facilities and campgrounds located at lakes or reservoirs under the jurisdiction
of USACE. Types of allowable fees include daily use fees, admission fees, recreational fees, annual pass fees, and other permit type fees.
The revenue is received from the public and is an inflow of resources to the government. The purpose of the fund is to maintain and
operate the recreation and camping facilities.

Hydraulic Mining in California. Debris, Title 33 USC 683 states that those operating hydraulic mines through which debris flows
in part or in whole to a body restrained by a dam or other work erected by the California Debris Commission shall pay a tax as
determined by the Federal Energy Regulatory Commission (FERC). The tax is paid annually on a date fixed by FERC. Taxes imposed
under this code are collected and then expended under the supervision of USACE and the direction of the Department of the Army.
The revenue is received from the public and is an inflow of resources to the government. The purpose of the fund is for repayment of
funds advanced by the Federal Government or other agencies for construction, restraining works, settling reservoirs, and maintenance.

Payments to States. Flood Control Act of 1954, Title 33 USC 701c-3, established that 75% of all funds received and deposited from
the leasing of lands acquired by the U.S. for flood control, navigation and allied purposes, including the development of hydroelectric
power, shall be returned to the state in which the property is located. USACE collects lease receipts into a receipt account. The
revenue is received from the public and is an inflow of resources to the government. Funds are appropriated in the amount of 75% of
the receipts in the following fiscal year and disbursed to the states. The funds may be expended by the states for the benefit of public
schools and public roads of the county, or counties, in which such property is situated, or for defraying any of the expense of county
government.

Maintenance and Operation of Dams and Other Improvements of Navigable Waters. Title 16 USC 803f, 810, states that
whenever a reservoir or other improvement is constructed by the U.S., the Federal Power Commission, now known as FERC, shall
assess charges against any licensee directly benefited, and any amount so assessed shall be paid into the U.S. Treasury. The title
further states that all charges arising from other licenses, except those charges established by FERC for purpose of administrative
reimbursement, shall be paid to the U.S. Treasury from which specific allocations will be made. From the specific allocations, 50% of
charges from all other licenses is reserved and appropriated as a special fund in the U.S. Treasury. This special fund is to be expended
under the direction of the Secretary of the Army (Secretary) for the maintenance and operation of dams and other navigation structures
that are owned by the U.S. or for construction, maintenance, or operation of headwater or other improvements of U.S. navigable
waters. The revenue is received from the public and is an inflow of resources to the government.

Fund for Nonfederal Use of Disposal Facilities (for dredged material). This fund was established by Title 33 USC 2326a. This
title provides that the Secretary may permit the use of any dredged material disposal facility under the jurisdiction of, or managed by,
the Secretary by a nonfederal interest if the Secretary determines that such use will not reduce the availability of the facility for project
purposes. The Secretary may impose fees to recover capital, operation and maintenance costs associated with such use. Any monies
received through collection of fees under this law shall be available to the Secretary, and shall be used by the Secretary, for the operation
and maintenance of the disposal facility from which the fees were collected. The revenue is received from the public and is an inflow of
resources to the government.

Special funds utilize both receipt and expenditure accounts in accounting for and reporting the fund.

Contributed Funds
Rivers and Harbors Contributed and Advance Funds. These funds, authorized by Title 33 USC 701h, 702f, and 703, establish
funding to construct, improve, and maintain levees, water outlets, flood control, debris removal, rectification and enlargement of river
channels, etc., in the course of flood control and river/harbor maintenance. Whenever any state or political subdivision thereof shall
offer to advance funds for a flood control project duly adopted and authorized by law, the Secretary may at his discretion, receive such
funds and expend the same in the immediate prosecution of such work. Advances are from the public and are inflows of resources to
the government. This fund utilizes both receipt and expenditure accounts in accounting for and reporting the fund.
 78        FY 2011 United States Army Corps of Engineers Annual Financial Report


Trust Funds
Coastal Wetlands Restoration Trust Fund. This fund is authorized by Title 16 USC 3951-3956. This title grants parallel authority
to USACE, along with the Environmental Protection Agency, and the Fish and Wildlife Service to work with the state of Louisiana
to develop, review, evaluate, and approve a plan that is proposed to achieve a goal of “no net loss of wetlands” in coastal Louisiana.
USACE is also responsible for allocating funds among the named task force members. Federal contributions are established at 75%
of project costs or 85% if the state has an approved Coastal Wetlands Conservation Plan. This fund is an expenditure account and
receives funding transfers from the Sport Fish Restoration and Boating Trust Fund.

Inland Waterways Trust Fund (IWTF). This fund is authorized by Title 26 USC 9506. The title made IWTF available for USACE
expenditures for navigation, construction, and rehabilitation projects on inland waterways. Collections into the trust fund are from
excise taxes on fuel used in commercial transportation on inland waterways. The revenue is received from the public and is an inflow
of resources to the government. The collections are invested and investment activity is managed by the BPD. This fund utilizes receipt
and expenditure accounts in accounting for and reporting the fund.

Harbor Maintenance Trust Fund (HMTF). This fund was established by Title XIV of the Water Resources Development Act (the
Act) of 1986, Public Law 99-662. The HMTF is authorized to recover 100% of USACE eligible operation and maintenance (O&M)
expenditures for the maintenance of commercial navigation in harbors and channels as well as 100% of the O&M cost of St. Lawrence
Seaway by the St. Lawrence Seaway Development Corporation. As provided in the Act, amounts in HMTF shall be available for
making expenditures to carry out the functions specified in the Act and for the payment of all expenses of administration incurred by
the U.S. Treasury, USACE, and the Department of Commerce. Collections are made into the trust fund from fees assessed on port
use associated with imports, imported merchandise admitted into a foreign trade zone, passengers, and movements of cargo between
domestic ports. The collections are invested and investment activity is managed by BPD. The revenue is received from the public and
is an inflow of resources to the government. This fund utilizes receipt and expenditure accounts in accounting for and reporting the
fund.
                                                                                                          Civil Works
       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                     79




Note 20. Leases

 As of September 30                                                                2011
                                                                            Asset Category
 (Amount in thousands)                       Building Space           Equipment                  Other                 Total
 ENTITY AS LESSEE
 Operating Leases
Future Payments Due
  Fiscal Year
         2012                            $          79,987       $                30      $          101        $        80,118
         2013                                       80,294                         -                     28              80,322
         2014                                       82,541                         -                     28              82,569
         2015                                       84,753                         -                     27              84,780
         2016                                       87,482                         -                     21              87,503
         After 5 Years                             470,468                         -                     46             470,514
 Total Future Lease Payments Due        $          885,525       $                30      $          251        $      885,806


As of September 30, 2011, USACE has various non-cancelable operating leases mainly for office space and storage facilities maintained
by many USACE Districts. Many of these leases contain clauses to reflect inflation and renewal options. USACE has no assets under
capital lease.



                                  As of September 30                                   2011
                                  (Amount in thousands)
                                  ENTITY AS LESSOR
                                  Operating Leases
                                  Fiscal Year
                                     2012                                     $          6,751
                                     2013                                                5,850
                                     2014                                                4,838
                                     2015                                                4,093
                                     2016                                                3,228
                                     After 5 Years                                      11,700
                                  Total Future Lease Payments                 $         36,460

USACE also has a small volume of operating leases for mostly easements.
 80        FY 2011 United States Army Corps of Engineers Annual Financial Report



FY 2011 Required Supplementary Stewardship
Information (RSSI)
Unaudited, See Accompanying Auditor’s Report

                                Nonfederal Physical Property
           Investments in Physical Property Owned by State and Local Governments

                                                        (Amounts in millions)

                         Categories                      FY 2011        FY 2010        FY 2009      FY 2008      FY 2007
       Funded Assets:
         Cost Share Projects                                 $2,273        $2,104         $1,198      $1,135        $1,028
       Total                                                 $2,273        $2,104         $1,198      $1,135        $1,028


The U.S. Army Corps of Engineers (USACE) incurs investments in Nonfederal Physical Property for the purchase, construction
or major renovation of physical property owned by state and local governments. This includes major additions, alterations and
replacements, the purchases of major equipment and the purchases or improvement of other nonfederal assets. In addition, USACE
has the authority to enter into cost-sharing agreements with nonfederal sponsors which are governed under numerous Water Resources
Development Acts starting with the Act of 1992.

Under numerous authorities, USACE provides design, build and construction services or management for the missions of commercial
navigation, flood or storm damage reduction, hydropower, regulatory, environmental, recreation and water supply.

Investment values included in this report are based on Nonfederal Physical Property expenditures.
                                                                                                          Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                   81




FY 2011 Required Supplementary Information
(RSI)
Unaudited, See Accompanying Auditor’s Report

                                  General Property, Plant and Equipment
                             Real Property Deferred Maintenance and Repairs
                                       As of September 30, 2011
Deferred maintenance and repairs is defined as maintenance and repairs not performed when it should have been or was scheduled to
be but delayed for a future period. Deferred maintenance and repairs for FY 2011 was $2.6 billion for Other Structures. Operations
managers identify the operation and maintenance (O&M) needs at each project in the Civil Works inventory. The O&M needs are
based on inspections of project features, engineering analyses and historical experience.

Heritage Asset Condition
Condition of heritage assets is based on factors such as quality of design and construction, location, adequacy of maintenance
performed, and continued usefulness. The USACE heritage assets overall condition is deemed to be fair.
 82        FY 2011 United States Army Corps of Engineers Annual Financial Report


US Army Corps of Engineers - Civil Works
DISAGGREGATED SCHEDULE OF BUDGETARY RESOURCES BY MAJOR FUND
For the year ended September 30, 2011                                             Special                             Borrowing
(Amounts in thousands)                                          FUSRAP             Funds        Trust Funds           Authority        Revolving Funds

Budgetary Resources:
Unobligated balance, brought forward, October 1             $      12,846     $       8,325 $       155,451       $               4    $      101,725
Recoveries of prior year unpaid obligations                              -                 -               -                       -                 -
Budget authority
    Appropriation                                                 130,000            60,269         885,489                        -                 -
    Spending authority from offsetting collections
         Earned
           Collected                                               21,248                   -                 -               645           8,763,539
           Change in receivables from Federal sources              (2,004)                  -                 -                  -             (6,185)
         Change in unfilled customer orders
           Advance received                                              -                -           -                         -              (4,170)
           Without advance from Federal sources                     3,055                 -           -                         -              24,487
         Expenditure transfers from trust funds                          -                -           -                         -                    -
    Subtotal                                                $     152,299     $     60,269 $   885,489            $          645 $          8,777,671
Nonexpenditure transfers, net, actual                                    -         (44,813)     82,388                          -                    -
Temporarily not available pursuant to Public Law                         -                -           -                         -                    -
 Permanently not available                                          (260)                 -           -                     (520)                    -
Total Budgetary Resources                                   $     164,885     $     23,781 $ 1,123,328            $          129 $          8,879,396

Status of Budgetary Resources:
Obligations incurred:
   Direct                                                   $     140,434     $      19,423 $       935,602       $              -     $             -
   Reimbursable                                                    19,817                  -               -                  125           8,643,077
   Subtotal                                                 $     160,251     $      19,423 $       935,602       $           125      $    8,643,077
Unobligated balance:
   Apportioned                                                      4,634             4,358     187,367                          -                   -
   Exempt from apportionment                                             -                 -           -                        4             236,319
   Subtotal                                                 $       4,634     $       4,358 $   187,367           $             4 $           236,319
Unobligated balance not available                                        -                 -        359                          -                   -
Total status of budgetary resources                         $     164,885     $      23,781 $ 1,123,328           $           129 $         8,879,396
Change in Obligated Balance:
Obligated balance, net
   Unpaid obligations, brought forward, October 1           $      82,162     $       1,602 $       296,626       $                -   $    1,603,928
   Less: Uncollected customer payments
       from Federal sources, brought forward, October 1             (9,639)               -                 -                    -     (164,365)
   Total unpaid obligated balance                           $       72,523    $      1,602 $         296,626      $              - $  1,439,563
Obligations incurred net                                           160,251          19,423           935,602                  125      8,643,077
Less: Gross outlays                                              (156,531)         (19,150)        (959,752)                (125)    (8,814,543)
Less: Recoveries of prior year unpaid obligations, actual                 -               -                 -                    -              -
Change in uncollected customer
payments from Federal sources                                      (1,052)                  -                 -                    -          (18,302)
Obligated balance, net, end of period
   Unpaid obligations                                              85,881             1,875         272,476                        -        1,432,462
   Less: Uncollected customer payments from
   Federal sources                                                (10,690)                 -               -                       -        (182,667)
   Total, unpaid obligated balance, net, end of period      $       75,191    $       1,875 $       272,476       $                -   $    1,249,795
Net Outlays:
    Gross outlays                                           $     156,531     $      19,150 $       959,752       $           125 $   8,814,543
    Less: Offsetting collections                                  (21,248)                 -               -                (645)   (8,759,370)
    Less: Distributed Offsetting receipts                                -         (58,392)                -                     -             -
    Net Outlays                                             $     135,283     $    (39,242) $       959,752       $         (520) $      55,173



                        The accompanying notes are an integral part of these financial statements.
                                                                                                                  Civil Works
          Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                             83


US Army Corps of Engineers - Civil Works
DISAGGREGATED SCHEDULE OF BUDGETARY RESOURCES BY MAJOR FUND
For the year ended September 30, 2011                       Contributed
(Amounts in thousands)                                        Funds           General Funds FUSRAP AARA       General AARA           TOTAL

Budgetary Resources:
Unobligated balance, brought forward, October 1             $    504,203      $    10,123,348 $        332    $      162,918     $    11,069,152
Recoveries of prior year unpaid obligations                             -             117,161             -               13             117,174
Budget authority
    Appropriation                                                504,067            4,001,922             -                  -         5,581,747
    Spending authority from offsetting collections
         Earned
           Collected                                                5,026           2,132,640             -          164,139          11,087,237
           Change in receivables from Federal sources                    -            108,604             -           (4,380)             96,035
         Change in unfilled customer orders
           Advance received                                        (1,506)            (87,014)            -          (12,042)          (104,732)
           Without advance from Federal sources                         (7)            52,299             -         (143,573)            (63,739)
         Expenditure transfers from trust funds                           -           881,890             -                  -           881,890
    Subtotal                                                $     507,580     $     7,090,341 $           -   $         4,144 $       17,478,438
Nonexpenditure transfers, net, actual                                     -           136,342             -                  -            173,917
Temporarily not available pursuant to Public Law                          -                  -            -                  -                   -
 Permanently not available                                                -         (206,090)             -                  -         (206,870)
Total Budgetary Resources                                   $   1,011,783     $    17,261,102 $        332    $       167,075 $       28,631,811

Status of Budgetary Resources:
Obligations incurred:
   Direct                                                   $     414,318     $     7,683,403 $        328    $      113,258     $     9,306,766
   Reimbursable                                                     4,576           2,127,103             -            1,859          10,796,557
   Subtotal                                                 $     418,894     $     9,810,506 $        328    $      115,117     $    20,103,323
Unobligated balance:
   Apportioned                                                           -          7,435,697             -              854           7,632,910
   Exempt from apportionment                                      592,889              14,879             -                 -            844,091
   Subtotal                                                 $     592,889     $     7,450,576 $           -   $          854 $         8,477,001
Unobligated balance not available                                        -                 20            4            51,104              51,487
Total status of budgetary resources                         $   1,011,783     $    17,261,102 $        332    $      167,075 $        28,631,811
Change in Obligated Balance:
Obligated balance, net
   Unpaid obligations, brought forward, October 1           $    450,731      $     8,340,350 $     63,230    $    2,295,976     $    13,134,605
   Less: Uncollected customer payments
       from Federal sources, brought forward, October 1               (11)         (2,664,104)            -         (227,286)         (3,065,405)
   Total unpaid obligated balance                           $    450,720      $      5,676,246 $    63,230    $    2,068,690     $    10,069,200
Obligations incurred net                                          418,894            9,810,506         328            115,117         20,103,323
Less: Gross outlays                                             (395,754)         (10,781,015)     (50,191)       (1,538,236)        (22,715,297)
Less: Recoveries of prior year unpaid obligations, actual                -            (117,161)           -               (13)           (117,174)
Change in uncollected customer
payments from Federal sources                                             7         (160,902)             -          147,953             (32,296)
Obligated balance, net, end of period
   Unpaid obligations                                             473,871           7,252,681       13,367           872,844          10,405,457
   Less: Uncollected customer payments from
   Federal sources                                                     (4)        (2,825,007)             -          (79,333)         (3,097,701)
   Total, unpaid obligated balance, net, end of period      $     473,867     $     4,427,674 $     13,367    $      793,511     $     7,307,756
Net Outlays:
    Gross outlays                                           $    395,754      $    10,781,015 $     50,191    $    1,538,236 $ 22,715,297
    Less: Offsetting collections                                   (3,519)         (2,927,517)            -        (152,096)   (11,864,395)
    Less: Distributed Offsetting receipts                       (504,067)            (133,940)            -                 -     (696,399)
    Net Outlays                                             $   (111,832)     $     7,719,558 $     50,191    $    1,386,140 $ 10,154,503



                          The accompanying notes are an integral part of these financial statements.
 84        FY 2011 United States Army Corps of Engineers Annual Financial Report


US Army Corps of Engineers - Civil Works
DISAGGREGATED SCHEDULE OF BUDGETARY RESOURCES BY MAJOR FUND
For the year ended September 30, 2010                                                                          Borrowing         Revolving
(Amounts in thousands)                                          FUSRAP       Special Funds   Trust Funds       Authority          Funds

Budgetary Resources:
Unobligated balance, brought forward, October 1             $       8,319 $         3,394 $      166,385 $                 4 $       295,520
Recoveries of prior year unpaid obligations                              -               -              -                   -               -
Budget authority
    Appropriation                                                 134,000          64,171        847,181                   -                 -
    Spending authority from offsetting collections
         Earned
           Collected                                               12,942                -                 -        2,616          8,412,991
           Change in receivables from Federal sources               2,174                -                 -             -             6,491
         Change in unfilled customer orders
           Advance received                                              -                -             -                 -            1,152
           Without advance from Federal sources                     2,397                 -             -                 -           (6,017)
         Expenditure transfers from trust funds                          -                -             -                 -                 -
    Subtotal                                                $     151,513 $         64,171 $     847,181 $           2,616 $       8,414,617
Nonexpenditure transfers, net, actual                                    -        (46,939)        84,567                  -                 -
Temporarily not available pursuant to Public Law                         -                -             -                 -                 -
 Permanently not available                                               -                -             -          (2,440)                  -
Total Budgetary Resources                                   $     159,832 $        20,626 $    1,098,133 $             180 $       8,710,137

Status of Budgetary Resources:
Obligations incurred:
   Direct                                                   $     129,574 $        12,301 $      942,682 $               - $                -
   Reimbursable                                                    17,412                -              -             176          8,608,412
   Subtotal                                                 $     146,986 $        12,301 $      942,682 $            176 $        8,608,412
Unobligated balance:
   Apportioned                                                     12,846           8,325        155,451                 -                  -
   Exempt from apportionment                                             -               -              -               4            101,725
   Subtotal                                                 $      12,846 $         8,325 $      155,451 $              4 $         101,725
Unobligated balance not available                                        -               -              -                -                  -
Total status of budgetary resources                         $     159,832 $        20,626 $    1,098,133 $            180 $        8,710,137
Change in Obligated Balance:
Obligated balance, net
   Unpaid obligations, brought forward, October 1           $      67,635 $         5,784 $      351,898 $                 - $     1,420,378
   Less: Uncollected customer payments
       from Federal sources, brought forward, October 1             (5,068)               -             -                 -     (163,892)
   Total unpaid obligated balance                           $       62,567 $         5,784 $     351,898 $                - $ 1,256,486
Obligations incurred net                                           146,986          12,301      942,682                176      8,608,412
Less: Gross outlays                                              (132,459)        (16,484)     (997,954)             (176)    (8,424,862)
Less: Recoveries of prior year unpaid obligations, actual                 -               -             -                 -              -
Change in uncollected customer payments from
Federal sources                                                    (4,572)               -                 -               -            (473)
Obligated balance, net, end of period
   Unpaid obligations                                              82,162           1,602        296,626                   -       1,603,928
   Less: Uncollected customer payments from
   Federal sources                                                 (9,639)               -              -                  -       (164,365)
   Total, unpaid obligated balance, net, end of period      $      72,523 $         1,602 $      296,626 $                 - $     1,439,563
Net Outlays:
    Gross outlays                                           $     132,459 $         16,484 $     997,954 $             176 $       8,424,862
    Less: Offsetting collections                                  (12,942)                -             -          (2,616)        (8,414,144)
    Less: Distributed Offsetting receipts                                 -       (56,338)              -                 -                  -
    Net Outlays                                             $      119,517 $      (39,854) $     997,954 $         (2,440) $           10,718




                        The accompanying notes are an integral part of these financial statements.
                                                                                                                Civil Works
        Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report                                            85


US Army Corps of Engineers - Civil Works
DISAGGREGATED SCHEDULE OF BUDGETARY RESOURCES BY MAJOR FUND
For the year ended September 30, 2010                           Contributed                      FUSRAP
(Amounts in thousands)                                            Funds         General Funds     AARA        General AARA        TOTAL

Budgetary Resources:
Unobligated balance, brought forward, October 1             $        489,443 $    14,075,857 $     40,765 $       2,438,374 $     17,518,061
Recoveries of prior year unpaid obligations                                 -         40,133             -                 -          40,133
Budget authority
    Appropriation                                                    529,810        4,620,176             -                  -     6,195,338
    Spending authority from offsetting collections
         Earned
           Collected                                                   1,464       1,649,252              -        122,609        10,201,874
           Change in receivables from Federal sources                     (2)         (6,943)             -          2,703             4,423
         Change in unfilled customer orders
           Advance received                                              339       37,680                -          23,006             62,177
           Without advance from Federal sources                          (60)    (191,119)               -           2,442          (192,357)
         Expenditure transfers from trust funds                             -     851,019                -                -           851,019
    Subtotal                                                $        531,551 $ 6,960,065 $               - $       150,760 $      17,122,474
Nonexpenditure transfers, net, actual                                       -     145,967           (500)              500           183,595
Temporarily not available pursuant to Public Law                            -            -               -                -                  -
 Permanently not available                                                  -      (5,527)               -                -            (7,967)
Total Budgetary Resources                                   $      1,020,994 $ 21,216,495 $        40,265 $      2,589,634 $      34,856,296

Status of Budgetary Resources:
Obligations incurred:
   Direct                                                   $        515,833 $     9,101,328 $     39,933 $      2,182,983 $      12,924,634
   Reimbursable                                                          958       1,991,819             -         243,733        10,862,510
   Subtotal                                                 $        516,791 $    11,093,147 $     39,933 $      2,426,716 $      23,787,144
Unobligated balance:
   Apportioned                                                              -  10,061,476             332          162,918        10,401,348
   Exempt from apportionment                                         504,203       61,852                -                -          667,784
   Subtotal                                                 $        504,203 $ 10,123,328 $           332 $        162,918 $      11,069,132
Unobligated balance not available                                           -          20                -                -               20
Total status of budgetary resources                         $      1,020,994 $ 21,216,495 $        40,265 $      2,589,634 $      34,856,296
Change in Obligated Balance:
Obligated balance, net
   Unpaid obligations, brought forward, October 1           $        360,821 $     6,908,462 $     58,801 $      1,952,354 $      11,126,133
   Less: Uncollected customer payments
      from Federal sources, brought forward, October 1                   (73)  (2,862,166)                -    (222,140)          (3,253,339)
   Total unpaid obligated balance                           $        360,748 $ 4,046,296 $          58,801 $   1,730,214 $          7,872,794
Obligations incurred net                                             516,791   11,093,147           39,933     2,426,716           23,787,144
Less: Gross outlays                                                (426,880)   (9,621,126)        (35,504)   (2,083,094)         (21,738,539)
Less: Recoveries of prior year unpaid obligations, actual                   -     (40,133)                -             -             (40,133)
Change in uncollected customer payments from
Federal sources                                                           62         198,062              -         (5,145)          187,934
Obligated balance, net, end of period
   Unpaid obligations                                                450,731       8,340,350       63,230         2,295,976       13,134,605
   Less: Uncollected customer payments from
   Federal sources                                                       (11)  (2,664,104)               -       (227,286)        (3,065,405)
   Total, unpaid obligated balance, net, end of period      $        450,720 $   5,676,246 $       63,230 $      2,068,690 $      10,069,200
Net Outlays:
    Gross outlays                                           $       426,880 $   9,621,126 $        35,504 $      2,083,094 $      21,738,539
    Less: Offsetting collections                                      (1,803)  (2,537,951)               -        (145,615)      (11,115,071)
    Less: Distributed Offsetting receipts                          (529,810)     (122,453)               -                -         (708,601)
    Net Outlays                                             $      (104,733) $ 6,960,722 $         35,504 $      1,937,479 $       9,914,867




                         The accompanying notes are an integral part of these financial statements.
86   FY 2011 United States Army Corps of Engineers Annual Financial Report
                                                                        Civil Works
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report   87
88   FY 2011 United States Army Corps of Engineers Annual Financial Report
                                                                        Civil Works
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report   89
90   FY 2011 United States Army Corps of Engineers Annual Financial Report
                                                                        Civil Works
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report   91
92   FY 2011 United States Army Corps of Engineers Annual Financial Report
                                                                        Civil Works
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report   93
94   FY 2011 United States Army Corps of Engineers Annual Financial Report
                                                                        Civil Works
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report   95
96   FY 2011 United States Army Corps of Engineers Annual Financial Report
                                                                        Civil Works
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report   97
98   FY 2011 United States Army Corps of Engineers Annual Financial Report
 America’s   …Our Nation and its Army are positioned at a unique point in history…
             …We must now consider the hard-won lessons of recent combat experience,
Army: At a   current and anticipated resource constraints and the uncertainty of the future.
             The decisions we make will have far reaching and long lasting implications…
 Strategic   Transforming the Generating Force by…
Crossroads   …preparing, training, educating and supporting Army forces worldwide, as well
             as working to rapidly address the demands placed on the organization by both
             the current and future operating environments…
             …working to provide “readiness at best value” in order to help us live within
             the constraints imposed by the national and international economic situation…
             …working collaboratively to reform our requirements and resourcing process
             in order to create an organizationally aligned set of capabilities…
             …developing a systematic approach to the Army’s business processes that will
             ensure that innovative ideas and efficiencies influence future budgets…
             Transforming the Civilian Workforce by…
             …calling upon our Civilian Corps increasingly to assume greater levels of
             responsibility and accountability at organizations throughout the Army…
             …integrating requirements determination; allocation and resourcing processes
             that identify the civilian workforce capabilities…
             …improving civilian workforce lifecycle strategy; planning and operations to
             enhance mission effectiveness…
             …establishing an integrated management system to support civilian human
             capital decision making…
             …developing Army civilian leaders and reforming the civilian hiring process…                   We are interested in your feedback regarding the content of this report.
                                                                                                         Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:


             On the Cover (From Left to Right): Soldiers descending from an aircraft Operation
                                                                                                                              Department of the Army
             Toy Drop on Fort Bragg (Photo by Tech. Sgt. Jeremy Lock) / US Army Rangers, rope                         Office of the Deputy Assistant Secretary of the Army
             bridge training (Photo by John D. Helms) / President Barack Obama and Vice President                           (Financial Management and Comptroller)
             Joe Biden shake hands with the troops following the president’s remarks (Photo by Pete
             Souza, White House) / Scouts pull overwatch during Operation Destined Strike (Photo                               Office of the Financial Reporting Directorate
             by Sgt. Brandon Aird) / A small boy waves an American flag as 1st Infantry Division                                    Room 3A312, 109 Army Pentagon
             Soldiers march by during the Sundown Salute Parade (U.S. Army photo by Mollie                                             Washington, DC 20310-0109
             Miller, 1st Inf. Div. Public Affairs) / U.S. Army Spc. Adam Supino takes a break while on
             a security halt (U.S. Air Force photo by Staff Sgt. Ryan Crane) / U.S. Army Soldiers in          Additional copies of this report can be obtained by sending a written request to
             Iraq (U.S. Army photo).                                                                                            the e-mail or mailing address listed above.
             On the Inside Cover: U.S. Army Capt. Scott Hall looks out the door of a UH-60
             Black Hawk helicopter while flying over the Logar province in Afghanistan. (Photo by                                  You may also view this document at:
             Sgt. Gustavo Olgiati).                                                                                            http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
                                                                     2011
                    The Soldier’s Creed
                   I am an American Soldier.
             I am a Warrior and a member of a team.
I serve the people of the United States and live the Army Values.
              I will always place the mission first.
                   I will never accept defeat.
                        I will never quit.
              I will never leave a fallen comrade.
         I am disciplined, physically and mentally tough,
      trained and proficient in my warrior tasks and drills.
     I always maintain my arms, my equipment and myself.
            I am an expert and I am a professional.
    I stand ready to deploy, engage, and destroy the enemies
        of the United States of America in close combat.
   I am a guardian of freedom and the American way of life.
                   I am an American Soldier.




                                                                    Fiscal Year 2011
                                                                    United States Army
                                                                    Annual Financial Report


                                                                    America’s Army:
                                                                    At a Strategic Crossroads

                      United States Army:
        1500 Army Pentagon, Washington, DC 20310-1500               U.S. Army Corps of Engineers – Civil Works
                        www.army.mil
